<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2012 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-80, Part 4]
[From the U.S. Government Publishing Office]




                                                  S. Hrg. 112-80, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                        APRIL 5 AND MAY 24, 2011


         Printed for the use of the Committee on Armed Services








                                                   S. Hrg. 112-80 Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                        APRIL 5 AND MAY 24, 2011

                               __________

         Printed for the use of the Committee on Armed Services




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        Available via the World Wide Web: http://www.fdsys.gov/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
68-087 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

E. BENJAMIN NELSON, Nebraska         SCOTT P. BROWN, Massachusetts
CLAIRE McCASKILL, Missouri           JAMES M. INHOFE, Oklahoma
JOE MANCHIN III, West Virginia       JEFF SESSIONS, Alabama
KIRSTEN E. GILLIBRAND, New York      ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana

                                  (ii)







                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                           Army Modernization
                             april 5, 2011

                                                                   Page

Chiarelli, GEN Peter W., USA, Vice Chief of Staff of the Army; 
  Accompanied by LTG Robert P. Lennox, USA, Deputy Chief of Staff 
  of the Army (G-8); and LTG William N. Phillips, USA, Principal 
  Military Deputy to the Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology, and Director, 
  Acquisition Career Management..................................     5

                       Tactical Aircraft Programs
                              may 24, 2011

Carlisle, Lt. Gen. Herbert J., USAF, Deputy Chief of Staff for 
  Operations, Plans, and Requirements, U.S. Air Force............    45
Robling, Lt. Gen. Terry G., USMC, Deputy Commandant for Aviation, 
  U.S. Marine Corps; Accompanied by RADM David L. Philman, USN, 
  Director, Warfare Integration/Senior National Representative, 
  U.S. Navy......................................................    51

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Blumenthal, 
Brown, and Sessions.
    Majority staff member present: William K. Sutey, 
professional staff member.
    Minority staff member present: John W. Heath, Jr., minority 
investigative counsel.
    Staff assistants present: Hannah I. Lloyd and Brian F. 
Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Jeremy Bratt, assistant to 
Senator Blumenthal; Anthony Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum, assistant to Senator Sessions; and 
Charles Prosch, assistant to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The Subcommittee on Airland will come to 
order.
    I thank everyone for being here, particularly, of course, 
our witnesses.
    We meet today to receive testimony on Army modernization, 
as we do every year, before we go into the markup on the 
National Defense Authorization Act (NDAA).
    Just by way of context, which obviously our witnesses 
appreciate every moment of every day, there are about 100,000 
American servicemembers in Afghanistan today, and some 50,000 
more of our troops are in Iraq. Others, obviously, are deployed 
elsewhere around the world, including in response to the tragic 
natural disaster in Japan; and in North Africa now, our Armed 
Forces have come to the aid of the people of Libya.
    So, after almost 10 years of war, I must say, first, how 
much we appreciate both the quality and courage of our 
servicemembers, and how inspiring their resilience is to all of 
us. Even for those who don't really think about it every day, 
as it's our job to do; how much I know that their service and 
your leadership contributes not only to our security, but to 
the freedom that is our blessing and birthright as Americans.
    Last week, I made a visit to the Bethesda Naval Medical 
Center and met with a 22-year-old marine from Connecticut who's 
recovering from really serious damage to his arm that he 
suffered in combat in Afghanistan. As always, I asked him if 
there was anything I could do for him. Of course, he said, 
``Sir, what I most want to do is go back to my unit in 
Afghanistan.'' Every time I've been at Walter Reed or Bethesda, 
I hear the same thing. It is inspiring beyond my ability to 
describe, and it just adds to the gratitude that we all ought 
to have to men and women of our military.
    That brings me to Army modernization. What's Army 
modernization about? It's really about how we're going to make 
sure that these soldiers--that I've just talked about--have 
everything they need to do what we ask them to do for our 
country, and to do it in a way that protects them best.
    The topics that we're going to discuss today run the gamut 
from the Army's programs, policies, and priorities, to the 
challenges concerning modernization of the fiscal year 2012 
budget request and the Future Years Defense Plan (FYDP).
    Given the state of the national economy and the 
determination of Secretary Gates to reform the business 
practices of the Department of Defense (DOD), the proceedings 
today merit particular attention and provide the opportunity 
for our witnesses to update the subcommittee, particularly in 
the context that we're living through right now, here, of the 
debate about the Continuing Resolution (CR) keeping the 
government going for the rest of the fiscal year and the 
various ways in which different people are dealing with the 
Defense budget.
    There have been quite a few developments in the Army's 
ongoing modernization efforts over the past few years. I'd say, 
over the last year or 2, particularly, they have been, in my 
opinion, extremely positive. I want to compliment the Army's 
leaders, including the three of you who are before us.
    General Chiarelli, I particularly want to thank you for the 
efforts that have been made to work through all the 
programmatic issues you face and to thank you for the progress 
that you've made toward establishing a cost-effective and 
stable modernization strategy.
    We have begun, through your leadership, to learn from some 
of the mistakes that have been made, and also from some of the 
things that have worked.
    In February of last year, Secretary of the Army McHugh 
directed the Under Secretary of the Army and the Vice Chief, 
General Chiarelli, to conduct a comprehensive review of the 
Army's investment strategies across the capabilities we need 
and expect the Army to have, a review of the Army's capability 
portfolios. The goal was to ensure that funds were budgeted, 
programmed, and obligated against valid requirements, with the 
results to inform some of the hard decisions the Army will have 
to make during the budget cycles of the next 5 years.
    From the written testimony submitted by the witnesses 
today, I am pleased to acknowledge that this work has 
identified a number of areas where we can achieve savings and 
eliminate redundancies. This subcommittee looks forward to 
hearing more about this in your oral testimony.
    The top two modernization efforts identified by the Army's 
fiscal year 2012 budget request are the network, which will 
connect the various systems in applications used by the Army, 
and the ground combat vehicle (GCV), the replacement program 
for the armored fighting vehicles in the Army's heavy Brigade 
Combat Teams (BCT). Given the termination of the Future Combat 
Systems (FCS) in the Early-Infantry Brigade Combat Team (E-
IBCT) effort, our subcommittee looks forward to the witnesses' 
discussions of the lessons that I've referred to that the Army 
has learned and now applied to current and future modernization 
efforts.
    I'm very pleased, since this is the first of our 
subcommittee hearings this year, as we hone in on preparation 
of the NDAA for Fiscal Year 2012.
    I'm very pleased to welcome our new ranking member of the 
subcommittee, Senator Scott Brown of Massachusetts, a fellow 
New Englander, but, unfortunately, a Red Sox fan. [Laughter.]
    Senator Brown is a proud veteran of the Army National Guard 
(ARNG). He brings that special expertise, as well as the 
strength of his leadership and experience, to this 
subcommittee. I look forward very much to working with him in 
this session of Congress.
    Senator Brown.

              STATEMENT OF SENATOR SCOTT P. BROWN

    Senator Brown. Thank you, Mr. Chairman, for those kind 
words. I am honored to be here with you. Congratulations on 
your State's victory last night.
    Senator Lieberman. Thank you.
    Senator Brown. I watched. I had to turn down the volume, 
though, with all the clanks--[Laughter.]
    --from the missed shots, but it was still good to see a New 
England team do well.
    Generals, it's good to see you again. I also want to thank 
you for your continued service and leadership and guidance 
through these tough fiscal times and leading in your respective 
categories. Thank you.
    Army modernization is a topic of considerable interest on 
Capitol Hill. I guess we've been forced into it sometimes. I've 
noticed, since I've been here, we have to be forced into doing 
things, versus just being a little bit more proactive. I am 
concerned that the Army has had inadequate models to assess how 
future weapons systems will perform during irregular conflicts 
and stability operations, and that casts doubt on the Services' 
justification for new platforms. It's something that I think 
concerns many of us.
    I have plenty of questions, I'm sure that the chairman does 
as well. It's no secret that, between 1990 and 2010, the Army 
has terminated 22 major acquisitions programs, resulting in the 
loss of billions of tax dollars that could have been 
potentially used in a better way.
    However, the Army has made some recent progress in 
improving its acquisition oversight, led by you, sir, and we 
thank you for that. I know we've spoken offline a little bit 
about it.
    The Army has rationalized its lines of efforts in major 
function areas; i.e., precision fires, air defense, and 
critical enablers, engineering support, force protection, et 
cetera. The analysis developed by this review process has led 
the Army to terminate or substantially reduce acquisition 
programs, like the non-line-of-sight (NLOS) launch system, the 
Surface Launched Advanced/Medium-Range Air-to-Air Missile 
(SLAMRAAM) that has underperformed, cost too much, and/or is 
redundant with other capabilities, and also has developed 
greater forethought by pulling back on the GCV request for 
proposals and scaling back the requirements for the program. 
I'm familiar with it. I visited the company that actually is 
involved in that process.
    Both of the examples that I've discussed represent a move 
in the right direction. I'm certainly thankful for that, as 
somebody who serves and somebody who is a taxpayer, as well.
    That said, I also feel that the Army has not demonstrated 
that it can successfully take a major acquisition program from 
the initial technology development phase through to the full-
rate production and sustainment. Beyond controlling 
requirements, the Army must also show proficiency in cost 
estimation, budgeting, program management, and test evaluation. 
In recent history, from the cancellation of the E-IBCT 
increments to the decision to not field the Medium Extended Air 
Defense System (MEADS), suggests that the Army still has a long 
way to go.
    In sharp contrast to the previous modernization attempts, 
the Army, going forward, will be significantly tested, because 
of the resource constraints that we're now faced with. First 
and foremost, the Army must develop and devote resources 
necessary to win the fights. As we step back from Iraq, the 
equipment returning from Iraq will need to be reset or 
recapitalized. Being a member of the ARNG, I know firsthand 
what was happening, not only in the Active Army, but in the 
Reserve and Guard units as well. We'll have to find 
efficiencies and outright cuts to support higher priorities 
inside DOD, and out. I know that's something that you're 
greatly concerned about.
    During his speech at West Point, Secretary Gates warned 
that the Army will have difficulty justifying the cost of large 
heavy formations in future budgets, and the likelihood of 
another large land campaign, like Iraq or Afghanistan, 
appeared, at least in his view, to be dim.
    So, facing that daunting challenge, I know that you're 
gearing up for the fight and able to tailor the force and also 
provide the tools and resources for our men and women so they 
can do their job and, ultimately, come home safe. That's the 
goal. Do the job, do it right, do it well, do it honorably, and 
then come home safe to your families. Your visions for the 
roles of the missions of the Army will be undertaken to really 
dictate that future. I know it's not an easy job.
    In closing, before we get to our questions, I just want to 
say that I fought to get on this committee, and I'm honored to 
be here. I look forward to playing an active and, hopefully, a 
thoughtful role in that regard.
    Thank you.
    Senator Lieberman. Thanks very much, Senator Brown.
    Let me just give a brief introduction of the three 
witnesses, and then we'll begin.
    General Chiarelli is, of course, the Vice Chief of Staff of 
the Army. This is his third year serving in that position and, 
essentially, running the day-to-day administration of the Army.
    General, I really want to thank you for your leadership 
across a remarkable diversity of issue areas. We're here to 
talk about Army modernization. I know you've really thrown 
yourself into that, with good effect. Of course, not so long 
ago, you were focused on a very different kind of problem, 
which is suicide prevention within the Army. I'm pleased that 
that has shown some good effect, as well.
    So, we look forward to hearing from you first, then we'll 
go to Lieutenant General Robert Lennox, Deputy Chief of Staff 
for the Army, G-8, responsible for oversight and 
recommendations regarding requirements, priorities, and 
allocation of resources, and finally, Lieutenant General 
William Phillips, Principal Military Deputy to the Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology, and Director, Acquisition Career Management.
    He has the longest title of any of the three today. 
[Laughter.]
    As his title indicates, he provides oversight and 
recommendations in the areas of research, development, and 
acquisition for Army programs. I can't thank you enough for 
joining us today.
    General Chiarelli, please proceed.

 STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF 
 OF THE ARMY; ACCOMPANIED BY LTG ROBERT P. LENNOX, USA, DEPUTY 
CHIEF OF STAFF OF THE ARMY (G-8); AND LTG WILLIAM N. PHILLIPS, 
 USA, PRINCIPAL MILITARY DEPUTY TO THE ASSISTANT SECRETARY OF 
   THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY, AND 
            DIRECTOR, ACQUISITION CAREER MANAGEMENT

    General Chiarelli. Senator Lieberman, Ranking Member Brown, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear before you today to discuss the fiscal 
year 2012 budget request as it pertains to Army acquisition and 
modernization.
    Since you, sir, have introduced both General Lennox and 
General Phillips, I will not repeat those kind introductions.
    As you are all aware, our Nation's military continues to 
face a broad array of complex challenges as we approach the 
start of the second decade of a long struggle against a global 
extremist network. Today's uncertain and dynamic strategic and 
operational environments, coupled with current political and 
fiscal realities and the rapid pace of technology development, 
have made our outdated Cold War-era strategies no longer 
supportable. To be successful now and into the future, we 
require a strategy that takes a more focused and affordable 
approach to equipping our force.
    Our evolved strategy, aligned with the Army Force 
Generation (ARFORGEN) Model, will allow us to incorporate 
lessons learned, improve or maintain core capabilities, 
incrementally modernize to deliver new and improved 
capabilities, and integrate portfolios to align our equipment 
modernization communities, thereby enabling us to develop and 
field a versatile and affordable mix of equipment, ensuring our 
soldiers and units have the resources and capabilities they 
need to be successful across the full range of military 
operations today and into the future.
    As part of the Army's modernization plan for 2012, we have 
prioritized our materiel programs to focus on capabilities 
which give our soldiers and units the decisive edge in full-
spectrum operations. While considering cost and size, the 
emphasis is on capabilities critical to Army success and our 
ability to network the force, deter and defeat hybrid threats, 
and protect and empower soldiers.
    I've talked about the importance of the network with 
members of this subcommittee on numerous occasions. I believe 
it represents the centerpiece of Army modernization. Today, I'm 
pleased to report we're making significant progress. The Army 
is past talking about concepts. We are making the network 
happen, delivering needed capability down range as we speak. 
Certainly, there's much more work left to be done, but I am 
confident we're headed in the right direction. Much of what 
we're trying to accomplish, in terms of improving the pace of 
Army acquisition, is derived from what we learned about the 
network and about the nature of rapid evolving technologies. 
However, the principles have application across the entire 
modernization program.
    While the network represents our number one priority, 
running a close second is the GCV. We must first field this 
full-spectrum operations-capable vehicle within 7 years in 
order to address what is a critical capability gap across our 
formations. I am prepared to discuss in greater detail the 
specifics of the network, the GCV, and other fiscal year 2012 
priority programs, as outlined in my statement for the record, 
during the questions and answers session.
    The advanced technologies and added capabilities we are 
pursuing are vital to the success of our force. That said, we 
recognize that modernizing the force is not solely about buying 
newer, better equipment; it also has to do with spending money 
wisely and finding efficiencies wherever possible. I assure the 
members of this subcommittee that I and the Army's other senior 
leaders remain diligent in our efforts to be good stewards of 
scarce taxpayers' dollars.
    Over the past year, through our ongoing capability 
portfolio review (CPR) process, we've identified a number of 
areas where we were able to make changes and eliminate 
redundancies or outdated requirements. In fact, as part of 
DOD's reform agenda, the Army has proposed $29 billion in 
savings over the next 5 years. We will not stop there. We will 
continue to pursue further efficiencies in the days ahead.
    In the meantime, I respectfully request your support of the 
Army's proposed research, development, and acquisition budget 
of $31.8 billion for fiscal year 2012. We believe that this 
request allocates resources appropriately between fielding 
advanced technologies in support of soldiers currently in the 
fight and developing new technologies for the future.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your continued generous support and demonstrated 
commitment to the outstanding men and women of the Army and 
their families. We look forward to your questions.
    [The prepared statement of General Chiarelli follows:]
           Prepared Statement by GEN Peter W. Chiarelli, USA
                              introduction
    Chairman Lieberman, Senator Brown, distinguished members of the 
Subcommittee on Airland, I thank you for this opportunity to discuss 
the fiscal year 2012 budget request as it pertains to Army Acquisition 
and Modernization. I am pleased to represent U.S. Army leadership, 
members of the Army Acquisition workforce, and the more than 1 million 
courageous men and women in uniform who have deployed to combat over 
the past 9-plus years, and who have relied on us to provide them with 
world-class weapon systems and equipment to ensure mission success. On 
behalf of our Secretary, the Honorable John McHugh and our Chief of 
Staff, General George Casey, I would like to take this opportunity to 
thank the members of this committee for your steadfast support and 
shared commitment in this endeavor.
                     overview of army modernization
    America's Army continues to face a broad array of complex 
challenges as the Nation approaches the start of the second decade of a 
long-term struggle against a global extremist network. The Army's 
responsibility remains dual-focused: we must achieve success in Iraq 
and Afghanistan, while also ensuring we are prepared for unexpected 
contingencies or future national security challenges across the full 
spectrum of operations. Recognizing that this era of persistent 
conflict, as it is characterized by General Casey, may very well 
require frequent and continuous commitment by the United States Army 
and our sister Services.
    For the latter half of the last century, the U.S. Army faced a 
relatively certain future characterized by straightforward strategic 
and operational environments; obvious enemies; clearly identifiable 
threats to vital national interests; and adequate resources required to 
man and equip the Force. Under these circumstances, a tiered readiness 
approach and an equipping strategy that made large purchasing 
commitments based on long-range goals made sense. Today's uncertain, 
dynamic strategic and operational environments, current political and 
fiscal realities, and the rapid pace of technology development have 
made these Cold War-era strategies no longer supportable.
    We recognize the Army's strategy to equip the force in the 21st 
century must change to meet the challenges of this new strategic, 
operational, and fiscal environment. No longer can the Army pursue a 
transformational equipping strategy focused on ``game-changing'', 
``leap-ahead'' technologies intended to revolutionize military 
operations and create conditions that force opponents to fight the way 
we want them to fight as we did at the turn of the century. To be 
successful in current and future environments, we require a 21st 
century strategy that takes a balanced and affordable approach to 
equipping our Force. This strategy, aligned with the Army Force 
Generation (ARFORGEN) model, will allow us to improve or maintain core 
capabilities; incrementally modernize to deliver new and improved 
capabilities; and integrate portfolios to align our equipment 
modernization communities, thereby enabling us to develop and field a 
versatile and affordable mix of equipment to allow soldiers and units 
to succeed in full spectrum operations today and tomorrow to maintain 
our decisive advantage over any enemy we face.
                    army force generation equipping
    ARFORGEN Equipping synchronizes the distribution of equipment to 
units in accordance with the ARFORGEN model. It focuses on providing 
capabilities required for anticipated missions to soldiers in 
sufficient time and in sufficient quantities to enable them to prepare 
for those missions. ARFORGEN equipping allows us to tailor capabilities 
and resources to relatively certain near-term mission requirements 
without committing to extended production runs or maintenance programs 
for equipment that may be outdated or no longer relevant in future 
increments.
                       incremental modernization
    Incremental Modernization enables us to deliver new and improved 
capabilities to the Force by leveraging mature technologies, shortening 
development times, planning growth potential, and integrating 
increments of those capabilities to give us the greatest advantage in 
the future while hedging against uncertainty. Incremental modernization 
does not neglect existing equipment. In addition to expanding or 
improving capability by developing and fielding new technologies, the 
Army will continue to upgrade, improve, and recapitalize existing 
capabilities while simultaneously divesting those capabilities deemed 
redundant or no longer required. By modernizing in an incremental 
manner, instead of purchasing equipment in quantities large enough to 
equip the entire force, the Army is able to provide the most relevant 
versions of capabilities available to units prior to deployment; then 
equip subsequent units in the ``Equip'' and ``Train/Ready'' phases of 
ARFORGEN with newer and more relevant versions based on the capability 
provided and cost.
                         integrated portfolios
    Integrated Portfolios, which the Army is still developing, will 
better align equipping stakeholders to achieve balance within and 
across capabilities required to execute the Army's Operating Concept. 
Equipment portfolios support continuous assessment across capability 
development, requirements, resourcing, acquisition, distribution, use, 
and divestiture. Each portfolio will have a strategy developed to 
provide context, outline objectives, methods, metrics and values 
against which to judge success, a description of required resources to 
execute the strategy over the life of the program, and a discussion of 
risk including operational impacts if portfolio capabilities are not 
met. Implementing these strategies will enable portfolio stakeholders 
to better assess current and proposed capabilities against 
requirements; fuse and align the modernization community to ensure 
integration across the separate requirements, acquisition, sustainment, 
and resourcing communities; and do so in an affordable manner. 
Continued Army examination and adjustment of our business processes 
will help us to meet equipping balance and affordability requirements.
    The 2010 Army Modernization Strategy (AMS), published in April 
2010, matched our overall modernization strategy to our strategic 
requirements. It described the ways and means to develop and field a 
versatile and affordable mix of the best equipment available to better 
enable soldiers to succeed in current and future operational 
environments. As evolved, the Army Modernization Plan 2012 (ModPlan12) 
envisions action along four lines of effort:

        <bullet> Modernize: Develop and acquire new equipment or 
        improve/upgrade existing equipment to meet identified 
        capability gaps and to maintain dominance in core capabilities.
        <bullet> Sustain: Extend the useful life of existing equipment 
        to close or avoid creating capability gaps through another 
        ARFORGEN cycle and by divesting equipment providing little 
        value.
        <bullet> Mitigate: Procure mission-specific equipment for 
        immediate capability needs.
        <bullet> Field: Provide equipment to soldiers and units in 
        accordance with Army priorities and the ARFORGEN model to 
        enable training, preparation, and employment for mission 
        success.

    The ModPlan12, which we anticipate being published this spring, 
supports the submission of the President's Budget Request for fiscal 
year 2012 Research, Development, and Acquisition funds and presents an 
overview of the Army's broader modernization strategy. The ModPlan12 
incorporates lessons learned from almost a decade of conflict and 
provides details of what is required for developing, fielding and 
sustaining equipment in an affordable, incremental manner to ensure our 
soldiers and units have the capabilities they need to be successful 
across the full-range of military operations today and into the future.
    As our Nation continues to work its way back from a serious 
economic downturn and military spending faces greater scrutiny and 
constraint, the Army continues our ongoing efforts to restore balance 
to the Force, while not losing the momentum gained over the past 
decade. Recognizing that to do this the Army must change the way it 
develops and delivers the capabilities required to both win current 
wars while simultaneously preparing for future contingencies.
    The Army is better equipped now than ever before; and, we must 
maintain our combat edge while we work to reconstitute and rebalance 
the Force, recognizing that even after the eventual drawdown of Forces 
in Iraq and Afghanistan the Army's longstanding National Security 
Requirements will remain.
    For nearly a decade, the Army has been operating at a tremendous 
and persistent pace. The demand for forces stressed our supply during 
most of this period. The result was an Army out of balance, fully 
committed with little strategic flexibility to respond to other 
contingencies. The Army is seeing significant progress in our efforts 
to rebalance the Force, and with the continued support of Congress, we 
are funded to largely meet our goals by the end of fiscal year 2012. We 
have done this through successful implementation of a 4-year plan 
centered on our imperatives. We continue to prepare forces for success 
in the current conflicts; reset returning units; and transform the 
Army, adapting to meet the demands of the second decade of the 21st 
century.
                  capability portfolio review process
    We're all aware of the significant challenges we're facing in light 
of current fiscal constraints. We recognize we must reform our budget 
practices and assumptions and gain efficiencies wherever possible. I'm 
confident we're on the right path to do so.
    Last February, Secretary of the Army McHugh directed the Under 
Secretary of the Army, Dr. Joseph Westphal and me to implement a 
Capability Portfolio Review (CPR) process for a 1-year period. Our goal 
in conducting these reviews is twofold: first, to ensure that funds are 
programmed, budgeted and executed against validated requirements and 
cost- and risk-informed alternatives, with the near term objective to 
inform POM 13-17; second, we want to revalidate portfolios through an 
examination of combatant commanders operational needs, wartime lessons 
learned, the Army Force Generation model, emerging technologies, 
affordability, interest, and opportunity.
    Through the CPR process, in less than a year, we've identified a 
number of areas where we're able to make changes and eliminate 
redundancies or outdated requirements. In fact, as part of the 
Department of Defense's reform agenda, the Army has proposed $29 
billion in savings over the next 5 years. The Army, per Secretary 
Gates' directive, will be allowed to reinvest this money in high 
priority capabilities and programs.
    The CPR process represents the Army's most recent efforts to manage 
the requirements validation and revalidation processes, as well as the 
resourcing process. The Army is in the process of institutionalizing 
these reviews in order to ensure our resources are expended on our 
highest priority capabilities and unnecessary redundancies are 
eliminated, all while clearly identifying risks.
                army priority programs for modernization
    The Army has prioritized its materiel programs to focus on 
capabilities which give our soldiers and units the decisive edge in 
full spectrum operations. While considering program cost and size, the 
emphasis is on capabilities critical to Army success and our ability to 
Network the Force; Deter and Defeat Hybrid Threats; and Protect and 
Empower Soldiers.
    This next section outlines the Army's critical fiscal year 2012 
Priority Programs, providing an overview of the capability each program 
will provide our soldiers, as well as a current programmatic status.
                              the network
    The Network represents the centerpiece of Army Modernization. 
Ultimately, it will connect leaders and soldiers at all levels, at 
every echelon of command, in any formation, and across the entire 
team--with the right information quickly and seamlessly. In doing so, 
it will make our various formations more lethal, faster, and 
survivable. It will literally redefine how we fight.
    To work effectively, the Network must be a single, affordable, 
cost-effective network that will allow any system or application--
whether developed by the Army, our Sister Services, allies, or some 
other agency--to `plug and play' using a common operating environment 
that ensures the systems and applications are interoperable and user-
friendly from the start.
    Today, the Army is past talking concepts. We are making the Network 
happen, delivering needed capability down range as we speak. That said, 
there is still much to be done. In particular, we are very focused on 
doing everything we can to get more network capability into theater--
faster. The key to doing so is leveraging mature commercial 
technologies through integrated network `capability sets' aligned 
against the ARFORGEN model. Instead of buying the full acquisition 
objective upfront, the incremental modernization strategy will enable 
the Army to purchase an initial `capability set' and then subsequent 
sets every 2 years that reflect changes in technology.
    The Network represents a critical factor in almost every 
acquisition decision the Army will make now and in the future. While 
the Network represents our number one priority, running a close second 
is the Ground Combat Vehicle or ``GCV.'' Before addressing the key 
individual components of the Network, I will change course briefly to 
discuss this most important Army modernization program.
                         ground combat vehicle
    The Army's Combat Vehicle Modernization Strategy represents a 
holistic approach to the development of the Ground Combat Vehicle; 
replacement of the M113 Family of Vehicles; and the incremental 
modernization of the Bradley, Abrams, Paladin, and Stryker. 
Modernization imperatives across the fleet include improved protection, 
mobility and sustainment, mitigation of existing Space, Weight and 
Power (SWaP) shortfalls and Network integration. The GCV will host the 
Network. As such, it must have enough SWaP to not only host the current 
version of the Network, but also future versions that may require 
significantly more power.
    The Army re-released the Request for Proposals (RFP) for the GCV on 
30 November. Industry proposals were received back on 21 January 2011, 
and we anticipate contract awards in the third quarter of fiscal year 
2011. The RFP focuses on the ``Big 4'' imperatives: soldier protection; 
soldier capacity (squad plus crew); full spectrum; and timing (7 years 
to first production vehicle). We made it very clear in the RFP that we 
expect industry to leverage existing mature technologies. We do not 
want a vehicle that is dependent upon immature or emerging technologies 
because they induce risk we cannot afford. Timing is a key and critical 
imperative; and, our capability gap analysis shows we need an FSO-
capable vehicle now. We cannot wait 10-12 years for the traditional 
requirements-based acquisition system to produce this vehicle. We are 
at war; and, our soldiers need this capability down range as soon as 
absolutely possible. Our initial goal was 5 years. However, after 
conducting a full analysis, the Acquisition Corps determined that to 
deliver a system meeting all the requirements in the capability 
development document under DOD 5000.2, will require a minimum of 7 
years.
    We must meet this self-imposed timeline and field an FSO-capable 
vehicle within 7 years in order to address what is a critical 
capability gap across our formations. While individual units maintain 
their traditional construct in accordance with MTOE in CONUS, when they 
deploy their formations end up looking much the same, although they may 
perform very different missions. Units frequently reorganize and `fall 
in on' theater provided equipment (TPE) not traditionally assigned to 
their formations. This practice is necessary in order for our soldiers 
to be safe and effective in today's FSO environments. The reality is in 
theater there are no ``Heavy'' or ``Light'' brigades in the traditional 
sense. Stryker brigades are also modified to enhance their capability 
down range. Today, our light infantry soldiers are traveling around in 
Mine Resistant Ambush Protected (MRAP) vehicles. Meanwhile, only the 
marines and our allies (specifically Canadian and British forces) have 
tanks employed in Afghanistan. The U.S. Army relies almost exclusively 
on Strykers, MRAPs and MRAP-ATVs. Unfortunately, none of these vehicles 
represent the ideal solution for all contingencies.
    We must build a vehicle that is able to adapt appropriately along 
the full spectrum of conflict dependent upon the threat level and the 
mission. The GCV represents this critically-needed capability. Modular 
armor will allow commanders the option to add or adjust vehicle 
protection armor based on the threat environment. The GCV will be 
designed with the capacity for SWaP growth to incorporate future 
technologies as they mature. Key among them are those technologies 
relevant to individual components of the Network. I will address 
several of them in greater detail below.
                      joint tactical radio system
    Joint Tactical Radio System (JTRS) is the Services' future 
deployable mobile communications family of radios. Its primary 
components are a Wideband Data Radio, Handheld Manpack Small Form Fit 
(HMS) Manpack (MP) and Rifleman Radio. JTRS uses Internet Protocol-
based technology to provide network routing; embedded information 
assurance; and, with multiple channels, provide simultaneous exchange 
of voice, data, and video. The Wideband Data Radio component supports 
legacy waveforms (Single Channel Ground and Airborne Radio System 
(SINCGARS), Enhanced Position Location Reporting System (EPLRS), Ultra-
High Frequency Satellite Communications (UHF SATCOM) and High Frequency 
(HF)) for backward compatibility with current force radios and 
leverages the Wideband Networking Waveform (WNW) and Soldier Radio 
Waveform (SRW) to meet tactical networking requirements.
    HMS Manpack and Rifleman Radio are the primary JTRS capability for 
battalion and below tactical operations. Both support the SRW waveform 
capability. HMS MP is a two-channel multiband, multimode communications 
system that supports not only SRW, but interoperates with legacy 
waveforms as part of its Increment 1 delivery (SINCGARS, UHF SATCOM). 
The Rifleman Radio is the dismounted soldier capability that utilizes 
the SRW waveform to connect the soldier to the leader. The system 
provides voice and individual location information, primarily serves 
the maneuver team formation, and provides a complimentary capability to 
the Nett Warrior-enabled Leader.
    Lastly, we believe that the strategy we've developed for the 
procurement of these systems, along with the funding we've applied and 
intend to apply over the program, demonstrate our commitment to an 
open, competitive procurement process.
       warfighter information network-tactical increment 1 and 2
    Warfighter Information Network-Tactical (WIN-T) provides the 
broadband backbone communications for the tactical Army. WIN-T 
Increment 1 (formerly Joint Network Node) began fielding in 2004 to 
provide a satellite based Internet Protocol (IP) network down to 
battalion level. WIN-T Increment 2 begins fielding in fiscal year 2012 
to provide an initial On the Move (OTM) capability, extending down to 
company level for 65 select units, with larger throughput to battalion, 
brigade and division headquarters. WIN-T Increment 1 fields to 31 units 
in fiscal year 2011 and the remaining 25 units in fiscal year 2012. 
Increment 1 continues to upgrade the fleet to Ka band, exploiting the 
Wideband Global Satellite constellation rather than leased Ku band. 
Upgrades to Increment 1b occur in fiscal year 2011-2016 for 
interoperability with later WIN-T increment and strategic networks. 
WIN-T Increment 2 procures eight BCTs/one Division HQ and the training 
base in fiscal year 2011 and upgrades three Fixed Regional Hub nodes to 
complete LRIP as it prepares for IOTE in fiscal year 2012. Procurement 
of nine BCTs/two Division HQs is planned for fiscal year 2012. Plans 
are being further refined to cascade WIN-T Increment 1 equipment, 
displaced by WIN-T Increment 2 fielding, to meet emerging requirements, 
including Homeland Security missions, force structure changes, and 
requirements not addressed in the initial procurement. WIN-T Increment 
1 is post Milestone C. Full rate production status decision is pending 
Beyond Low Rate Initial Production (LRIP) report and Information 
Support Plan, followed by a Defense Acquisition Executive (DAE) 
decision. WIN-T Increment 2 reached Milestone C in February 2010, and 
goes to Initial Operational test and Evaluation (IOTE) in the third 
quarter of fiscal year 2011.
                     joint battle command-platforms
    Joint Battle Command-Platforms (JBC-P) is a foundation for 
achieving information interoperability between Joint warfighting 
elements on current and future battlefields. As the next generation of 
Force XXI Battle Command Brigade and Below/Blue Force Tracking (FBCB2/
BFT) technology, it will be the principal command and control system 
for the Army and Marine Corps at the brigade-and-below level, providing 
users access to the tactical information necessary to achieve 
information dominance on the battlefield. JBC-P consists of computer 
hardware and software integrated into tactical vehicles, aircraft, and 
provided to dismounted forces. The capability uses a product line 
approach to software development to save cost and promote a common 
architecture. Components include a core software module that provides 
common functionality required of all platforms and tailored software 
modules with unique capabilities for dismounted, vehicle, logistics, 
aviation, and command post elements. JBC-P software is designed for use 
over the Blue Force Tracking II transceiver and associated satellite 
networks, as well as ground-based networks. The new transceiver allows 
for a 10-fold increase in data throughput. Other key enhancements 
include a redesigned, intuitive user interface and faster mapping 
software to quickly process and display critical graphics. It will be 
the primary provider and user of digital battle command and situational 
awareness across the spectrum of operations and will allow warfighters 
to more effectively and consistently communicate critical information 
over networks that connect the most distant and remote locations.
                 distributed common ground system-army
    Distributed Common Ground System-Army (DCGS-A) is the Army's 
component of the DOD Distributed Common Ground/Surface System family of 
systems. DCGS-A provides commanders from tactical company-level to Army 
Service Component Command (ASCC)-level access to the Defense 
Intelligence Information Enterprise, and the tools required to leverage 
the entire National, Joint, Tactical, and Coalition Intelligence, 
Surveillance, and Reconnaissance (ISR) community to satisfy their 
information requirements. The Army currently revising the DCGS-A 
acquisition strategy to comply with DOD's revised Information 
Technology Acquisition Process. This will ensure the program continues 
to develop enhanced analytic capabilities by exploiting emerging 
technologies and fielding these capabilities to the Force IAW the 
ARFORGEN process. The Army has incrementally fielded DCGS-A 
capabilities to deploying forces beginning in 2006. The program will 
reach Initial Operating Capability with the Army's first ``cloud'' 
architecture in Afghanistan in March 2011 and the Full Deployment 
Decision in the second quarter of fiscal year 2012.
                   brigade combat team modernization
    The Army currently employs three Brigade Combat Team (BCT) 
formations--Infantry, Heavy and Stryker. Each type of formation brings 
unique capabilities to the battlefield and employs different equipment, 
which in turn requires unique modernization methodologies. The 
following seven items describe the main efforts in modernizing the 
Infantry BCT, Heavy BCT and Stryker BCT respectively.
           enhanced-infantry brigade combat team increment 1
    The Enhanced-Infantry Brigade Combat Team (E-IBCT) program was 
developed as an effort to accelerate iterative fielding of key network 
and sensor capabilities. Following an in-depth assessment of the E-IBCT 
program, the Army decided to continue Low-Rate Initial Production of 
two elements: the Small Unmanned Ground Vehicle (SUGV) and Network 
Integration Kit (NIK), and will transition the procurement of these 
systems to the respective Program Executive Offices. E-IBCT will be 
concluded as a program of record at the end of Low Rate Initial 
Production, a decision that carefully prioritizes military utility with 
system performance and affordability in order to best meet the 
immediate needs of our warfighters. Phasing out the E-IBCT program 
supports the Army effort to collapse redundant and competing network 
strategies into a single path forward with programs of record that 
provide more capability, quicker, and to more formations. E-IBCT 
investment provided the infrastructure that will enable the Army to 
grow the tactical network capability, while providing an opportunity 
for both large and small scale industry to support the Army's tactical 
network strategy. The NIK is a necessary bridge solution allowing the 
Army to continue evaluation and development of incorporated network 
technologies. Fielding of an additional brigade of NIK vehicles will 
allow the Army to continue to evaluate BCT communications capabilities 
and solutions. The E-IBCT program derived valuable information from 
warfighter evaluations regarding what network capabilities soldiers 
need and how they will be used in today's dynamic, evolving combat 
environment. The Army will retain the Army Evaluation Task Force, now a 
full operational brigade, located at Fort Bliss, Texas, with the 
mission of validating the operational relevancy of solutions and 
developing doctrine prior to fielding technologies to deploying forces 
to ensure proven capabilities reach the hands of our soldiers.
    Our path forward supports fielding of a robust networking 
capability package to Afghanistan in fiscal year 2013. For the time 
being we are focused on replicating the deployed network and 
troubleshooting integration issues as we continue to fill capability 
gaps in theater with Commercial Off the Shelf (COTS) systems and ISR 
capabilities.
    While the Network represents the bedrock of Army modernization; the 
reality is much of what we are trying to accomplish, in terms of 
improving the pace of Army acquisition to leverage both military 
development and private sector technologies, has application across the 
entire modernization program. Earlier I discussed the Ground Combat 
Vehicle (GCV). Below I will address several other relevant elements of 
our overall modernization effort.
                     paladin integrated management
    Paladin Integrated Management (PIM) is the Army's fire support 
modernization effort for the Paladin and Field Artillery Ammunition 
Supply Vehicle (FAASV) platforms to address obsolescence and 
sustainment through the integration of Bradley and Future Combat 
Systems (FCS) common components resulting in an upgraded firing 
platform. PIM replaces the current M109A6 Paladin and M992A2 FAASV with 
a more robust platform incorporating Bradley common drive train and 
suspension components. Due to the Secretary of Defense's decision to 
cancel the FCS Manned Ground Vehicle's Non-Line of Sight-Cannon, the 
PIM program is now a priority modernization effort. The program has 
completed contractor testing at Government facilities, and is expected 
to be designated as an Acquisition Category I Major Defense Acquisition 
Program.
                        stryker (double-v hull)
    In January 2010, in response to an Operational Needs Statement 
(ONS), the Army decided to pull forward the Double-V Hull (DVH) 
existing technology from the Stryker Modernization program to increase 
the Stryker's underbelly protection from Improvised Explosive Devices. 
To meet the goal of providing 150 Stryker DVHs in Afghanistan by June 
2011, the Army is conducting concurrent testing and production. Live 
fire data from December 2010 testing, as well as initial Reliability, 
Availability and Maintainability (RAM) testing data, informed a 2 March 
2011 Configuration Steering Board (CSB) that recommended to keep the 
initiative moving forward. While we are currently engaged in producing 
450 DVH to support combat operations in Afghanistan, the Army has not 
made a decision regarding incorporating the DVH into future Stryker 
production, and we have just begun to assess the potential to retrofit 
DVH onto existing Stryker vehicles.
                       m1 abrams recapitalization
    The Abrams program will complete the Army's modularity objectives 
in fiscal year 2014. The current M1A2SEPv2 production contract ends in 
fiscal year 2012, which will yield the last fielding in fiscal year 
2014. The current M1A1AIM SA production contract ends in fiscal year 
2011, which will also yield the last fielding in fiscal year 2014. 
These procurements will allow the Army to reach its current Army 
Acquisition Objective of 1,547 M1A2 SEPv2 and 791 M1A1AIM SA. The 
Abrams recapitalization (RECAP) for the M1A2SEPv2 is anticipated to 
begin in fiscal year 2016 to address the average age of the Abrams 
fleet and insert applicable upgrades to minimize future obsolescence 
and sustainment issues. The following capabilities are under 
consideration to be addressed during RECAP: Power Generation and 
Distribution (Battery Monitoring System, 1000AMP Alternator and Slip 
Ring), Gun Turret Drives, Improved CITV, Auxiliary Power Unit, Special 
Armor Package installation, and integration of improvised explosive 
device Jammer/CREW 3.
                      m2 bradley recapitalization
    The GCV represents the Army's planned replacement for the Infantry 
Fighting Vehicle variant of the Bradley. However, the Bradley is still 
expected to be employed as an important part of our vehicle fleet for 
the foreseeable future. Therefore, some recapitalization will be 
required to maintain the vehicle's relevancy. The Bradley program is 
expected to achieve the Army's modularity, two-variant fleet objectives 
by fiscal year 2014. The Army has not yet finalized its plans to 
recapitalize the Bradley fleet, as the average Bradley fleet age even 
by fiscal year 2013 will be less than 6 years. However, such a 
modernization plan would likely address shortcomings in its size, 
weight, power and cooling (SWaP-C) thresholds in order to increase 
protection, recover mobility and allow integration of the emerging 
network. It is possible the re-purposed Bradley could also be used as a 
replacement for some variants of the M113.
                        blackhawk (uh-60 family)
    The UH-60 Blackhawk supports the Army's air mobility doctrine for 
employment of land forces in the 21st century. The Black Hawk is used 
in the performance of the Air Assault, General Support, and Aeromedical 
Evacuation (MEDEVAC) missions. The Army is requesting $1.5 billion in 
fiscal year 2012 funding for the Black Hawk Multi Year Program. The 
funding allows the Army to procure 47 each UH-60M aircraft and 24 each 
HH-60M (MEDEVAC) aircraft. Fiscal year 2012 is the first year of a 5 
year Multi-Year/Multi-Service VIII Contract.
                  apache block iii (ah-64d block iii)
    The Apache Block III Modernization is an incremental integration of 
block modifications. The Block III provides new capabilities for the 
Longbow Apache to transition to the Future Modular Force, increase 
survivability and reduce the logistics footprint. The Army is 
requesting $800 million in fiscal year 2012 funding for the Apache 
Block III program. We remain on schedule for Apache Block III First 
Unit Equipped in fiscal year 2013.
                             kiowa warrior
    The Army requires a next generation capability to satisfy its armed 
aerial scout attack, reconnaissance and security mission requirements 
within the current and future combat environments. The initial fleet of 
Kiowa Warriors (KW) was fielded in the late 1960s as OH-58As or OH-
58Cs. Today, the average KW in the U.S. Army's fleet is 40 years old. 
The demand on this aircraft has been especially high over the course of 
the wars in Iraq and Afghanistan. The theater cumulative average is 75 
hours per aircraft per month with spikes as high as 110 hours per 
aircraft per month. In April of 2009, the Secretary of the Army 
approved a strategy to reinvest in the OH-58D KW helicopter to address 
obsolescence and sustainment until a viable replacement is procured. 
The fully funded Cockpit and Sensor Upgrade Program (CASUP) addresses 
system and armament obsolescence, aircrew survivability and overall 
aircraft weight to improve the helicopter's performance and update its 
Aircraft Mission-Design Series (MDS) to OH-58F. The CASUP is not a 
Service Life Extension Program (SLEP) and does not zero time the 
airframes. First Unit Equipped for the OH-58F KW helicopter is 
forecasted for fiscal year 2015. The CASUP is post-Milestone B, and has 
entered the Engineering and Manufacturing Development (EMD) phase of 
the program.
                           armed aerial scout
    The Army is seeking a next generation capability to satisfy its 
armed reconnaissance mission requirements in current and future combat 
environments. The intent of the Armed Aerial Scout program is to find a 
material solution to replace the current fleet of OH-58D Kiowa Warrior 
helicopters. On July 28, 2009, the Defense Acquisition Executive (DAE) 
approved a Material Development Decision (MDD) initiating the Armed 
Aerial Scout (AAS) Program. The DAE directed a comprehensive Analysis 
of Alternatives (AoA) to determine the appropriate materiel solution(s) 
to fill the capability gaps and meet Army requirements. Emerging study 
results are being briefed to TRADOC and the Army Staff in March 2011, 
with the final Senior Advisory Group briefing to OSD to follow in 
April. The Armed Aerial Scout AoA Study Report is expected to be 
released in May 2011.
                         small arms procurement
    Three notable small arms acquisition efforts are underway leading 
into fiscal year 2012. First, the Army is holding a full and open 
Individual Carbine Competition in order to meet congressional intent to 
determine the best possible carbine for adoption by the Army. The 
purpose of this effort, which begins in fiscal year 2011, is to ensure 
the U.S. Army continues to enjoy a direct fire small arms overmatch 
into the foreseeable future. Second, the Army will also continue to 
improve its M4 Carbine Fleet with the following enhancements: (a) 
Changing to a heavy barrel to increase the sustained rate of fire, (b) 
Switching to a fully automatic trigger and selector switch to make the 
trigger pull more consistent, and (c) Adding ambidextrous controls to 
improve ergonomics and handling characteristics. Lastly, the continued 
development and procurement of the Counterdefilade Target Engagement 
Weapon--a revolutionary smart, direct-fire, airburst capability has 
been deployed to Afghanistan on a small scale as part of a limited user 
evaluation. This weapon demonstrated new precision engagement 
capabilities during this test in actual combat operations and was 
particularly effective in rapidly suppressing enemy machineguns and 
snipers.
                   tactical wheeled vehicle strategy
    The Army's current tactical wheeled vehicle strategy has four 
primary tenets. First, we are studying how best to reduce the TWV fleet 
by approximately 15 percent, in order to shape the fleet size and mix 
to ensure long-term affordability. This is necessary in part to 
accommodate integration of the MRAP vehicles into the fleet. Second, we 
will continue to increase the capability of our current fleet by 
procuring and recapitalizing armor-capable vehicles and armor kits to 
improve crew protection. Third, we will emphasize the recapitalization 
of vehicles to extend service life and improve capabilities at a cost 
savings over new procurement. Fourth, we will continue the development 
of the Joint Light Tactical Vehicle while leveraging advancements in 
that program for potential approaches to improve existing HMMWV crew 
protection.
                                closing
    In support of Army Acquisition and Modernization, the Army has 
submitted a Research, Development, and Acquisition budget request of 
$31.8 billion for fiscal year 2012. We believe the proposed budget 
allocates resources appropriately between fielding advanced 
technologies in support of soldiers currently in the fight and 
developing new technologies for the future. We are confident it will 
enable us to meet our intent to develop, field, and sustain equipment 
in an affordable, incremental manner to ensure our soldiers and units 
have the capabilities they need to succeed across the full spectrum of 
operations in this era of persistent conflict.
    These continue to be challenging times for our Nation and for our 
military. That said, I assure the members of this committee--your 
Army's senior leaders remain focused and working hard to address 
current challenges, while determining the needs of the Force for the 
future.
    Mr. Chairman, members of the subcommittee, I thank you again for 
your steadfast and generous support of the outstanding men and women of 
the U.S. Army, Army civilians, and their families. I look forward to 
your questions.

    Senator Lieberman. Thank you, General.
    General Lennox?
    General Lennox. Sir, no opening statement. Thank you for 
the opportunity.
    Senator Lieberman. General Phillips?
    General Phillips. Sir, nothing further to add. Thank you.
    Senator Lieberman. Good enough. I'm glad you're here to 
participate in the answering of the questions.
    Incidentally, of course, we'll enter all your statements in 
full in the record of this hearing.
    General Chiarelli, let me begin with you.
    I know you've worked with Under Secretary of the Army 
Westphal through this subjective and detailed series of CPRs 
that, as I've observed them and their results, have gone a long 
way toward rationalizing and stabilizing the Army's 
modernization strategy and programs.
    But, let me ask you a few questions, by way of context. 
Senator Brown referred to some numbers, and I believe they may 
come from the study done by former Assistant Secretary of the 
Army Decker and retired Army General Wagner that found that, 
since 2004, the Army has spent, annually, between $3.3 billion 
and $3.8 billion on weapons programs that have been canceled. I 
want to invite your response, overall, to the Decker-Wagner 
report and its critique. If you would, put your work on the CPR 
in the context of the criticisms in that report.
    General Chiarelli. Senator, no one is proud of those 
numbers. Those numbers represent canceled programs, but I will 
tell you, in many cases, we've seen technologies from those 
programs. It sounds counterintuitive to say there's a right way 
and a wrong way to cancel a program. But the best way to do it 
is, when you realize that the requirement is no longer 
valuable, to harvest as many of those technologies as you can 
so they can be used later on.
    I'd give you an example of one, in particular. One of the 
FCS manned ground vehicles, you remember, was the NLOS cannon.
    Senator Lieberman. Right.
    General Chiarelli. We've harvested many of the technologies 
off of that canceled program and integrated them into the 
Paladin Integrated Management (PIM) program. I think that shows 
that, if you do this properly, when you have what is an 
unsatisfactory situation of having to cancel a program, there 
are technologies and dollars that are saved that can be 
integrated into new systems.
    We're doing the same thing with SLAMRAAM. You mentioned it. 
SLAMRAAM is a program that we're going to put $29 million more 
in over the next 2 years but so we can get it to a position 
where we can take that technology and put it on the shelf. 
Should the threat increase in the future and the need for that 
weapon system be a requirement, it will be there for us to 
harvest.
    MEADS is my final example, albeit we are faced with a 
dilemma here. We have program termination costs that are 
estimated to be somewhere around $800 million, or we can 
continue investment into the program, so that we can, in fact, 
harvest some of those technologies to use in the upgrade of the 
Patriot. No one likes that $800 million pricetag. But, if there 
is any good that comes out of it, we know that some of the 
technologies that have been developed for MEADS could be 
integrated into the Patriot at a later date.
    Senator Lieberman. Just go into a little more about the 
process you've followed in the CPR, and how you relate that to 
what you've just said about the spending on canceled programs.
    General Chiarelli. Well, I will air the dirty laundry. But, 
air and missile defense was a beautiful example.
    Senator Lieberman. Yes.
    General Chiarelli. We had a number of programs in air and 
missile defense that were based on requirements that were years 
old, where the threat had changed. Because we had so many 
programs, we were spending a minimal amount of money on each. 
In spending that minimal amount, we were dragging out even 
those that we were procuring over many, many years, which 
causes the cost of individual weapons systems to go up. We 
looked at the entire portfolio and realized that the NLOS 
missile, once envisioned to be a $100,000 missile designed to 
hit a moving target, was going to cost $300,000. Based on a 
requirement from a linear battlefield and not a nonlinear 
battlefield, we decided we didn't need it.
    When we looked and we saw the SLAMRAAM that was based off 
the Air Force's Advanced Medium-Range Air-to-Air Missile 
although we've canceled the SLAMRAAM, the missile will continue 
to be made, and the Air Force will continue to buy it, because 
they control the missile. The cost of that missile, in order to 
put some of the improvements that they have put on it, had 
risen from $300,000 a missile to over $1 million a missile. 
When we looked at 276 launchers with 6 missiles apiece and a 
threat in this particular area, which we believe there are 
joint systems that can help us answer that threat, we realized 
that this was another program that we had to take a hard look 
at and cancel.
    At the same time, we looked at what is affecting our troops 
today. Just the other day, we had 12 soldiers, 2 who were 
killed and 10 who were wounded with a rocket attack in 
Afghanistan. We realized that where we really needed to be 
spending money was on the threat that is, in fact, affecting 
our soldiers and civilians down range today. That was to get 
after indirect fire and rocket attacks. There are programs that 
the Army is investing in, and it's going to use the money we 
have harvested from these other programs to meet that threat.
    Senator Lieberman. Okay. Those are good examples. Now, let 
me ask you a question about the new GCV program. Let me state 
it in a devil's advocate form. Secretary Gates spoke recently 
at West Point and had some really interesting things to say, 
including a focus on the Army's challenge, which he issued in a 
way to justify its heavy force investment. When we think of 
that challenge, in your view, how would you justify the Army 
spending $20 to $30 billion on a new GCV that some people say 
may only be marginally better than the Bradley variant that 
it's intended to replace? Did I set that one up well enough for 
you, General?
    General Chiarelli. You did, sir.
    Senator Lieberman. Thank you.
    General Chiarelli. First of all, the example I always like 
to use when I'm talking about GCV is the tank. We're not buying 
a tank. We're, quite frankly, not buying a heavy vehicle. We're 
buying a vehicle that will have a range of different weights, 
based on the capability packages that we're able to hang on it, 
using some of the new technologies in ceramics that are 
available. But, when the decision was made to build the M1 
tank, in 1978, and we bought a tank with an extra road wheel, 
we didn't know exactly what that decision meant. It meant that 
we had built into the very first model of this tank, which was 
delivered about 7 years after the cancellation of the last 
tank, not unlike the FCS which was delivered. When we did that 
we built size, weight, and power into that vehicle. That 
vehicle today has moved from a 105-millimeter gun to a 120-
millimeter gun. It is a commander's weapon station that makes 
each tank worth, some people think, two tanks. It has been able 
to incrementally change over time.
    That's what we want to do with the GCV. Rather than reach 
deep, we want to look at technologies that can be delivered in 
7 years, ensure that they are included on this vehicle and that 
we incrementally improve the GCV over time so that we have the 
same effect of the tank which was built in 1978 and is the 
finest tank in the world today, and will be, I submit to you, 
well into the future.
    Senator Lieberman. Good enough. Thank you.
    My time's up. A vote has gone off. I'm going to head over, 
rather than recess right away. Just to show how meteoric 
Senator Brown's rise has been on this subcommittee, he's now in 
charge. [Laughter.]
    Senator Brown. Just get back before the vote stops, sir.
    Senator Lieberman. I will.
    Senator Brown [presiding]. Thank you.
    Just to continue on with the GCV. I understand the fact 
that we're spending $462.0 million in fiscal year 2011, $884.0 
million in fiscal year 2012, and $1.2 billion up to the three 
fiscal year 2012 contracts. That's a $40 billion ultimate 
effort, or more. The way I'm seeing things being done around 
here lately, it's 40-plus, pick a number, because there are 
cost overruns and the like. We are going to be replacing every 
infantry fighting vehicle.
    Are you concerned that we're putting all our eggs in one 
basket with this new vehicle, since we're replacing all the 
infantry fighting vehicles?
    General Chiarelli. I'm not. I think it's exactly what we 
have to do, because the Bradley has reached a point where its 
size, weight, and power won't carry the network in all 
instances. The Bradley loses a lot of its problems if you take 
the turret off of it. It loses a lot of weight, it gains a lot 
of power, and that Bradley can be used for other uses that the 
Army might have. We see it as a possible competitor to replace 
the M113. We see those Bradley hulls as something that can be 
used.
    It points to the fact that, as we developed our plan for 
the GCV, we just didn't look at a single vehicle, we looked at 
the entire portfolio of combat vehicles we had and what we 
could afford, and what we needed the most to find a new 
vehicle. We felt that the GCV was the critical piece where a 
new development was warranted. It will provide the protection 
our soldiers need. We want to ensure it's in their hands in 7 
years. We want to be able to carry that nine-man squad from 
point A to point B on the battlefield. We want to ensure that, 
at a minimum, it has the ability to conduct full-spectrum 
operations with capabilities packages that can be added or 
subtracted from the vehicle, based on the enemy threat.
    One final point I would make, there's a tendency to look at 
the force today and say that it doesn't have heavy vehicles. A 
mine resistant ambush protected (MRAP) all-terrain vehicle 
(ATV) down range today, that's carrying four infantrymen, 
weighs 17 tons. To move a squad in Afghanistan today, of the 
181st or the 82nd, is 51 tons of armor going down the road. So, 
in order to get the protection that you need for these 
soldiers--and protection matters--we have to find a way to 
ensure that our next combat vehicle provides a minimum--and, we 
think, better--protection than the MRAP provides today, 
understanding, at some point, physics takes over; it becomes a 
much more difficult problem for the enemy if you can provide 
that protection.
    Senator Brown. I know you're upgrading the Abrams, 
obviously. Based on what you just said, do you believe that you 
can continue, or should be trying, to upgrade the Bradley, as 
you're doing with the Abrams?
    General Chiarelli. We have very good uses planned for the 
Bradley. There are many Bradleys that serve on forces that are 
not GCVs. They are serving as other variants. We have a 
requirement today to replace the 113. The 113 replacement very 
well could be a variant of the Bradley, where we're able, 
without having to put a larger engine in it, to be able to take 
the turret off and have a very suitable replacement for the 
113, at a much reduced cost.
    Senator Brown. I'm sorry, I have a couple more minutes, 
then I'm going to have to shift gears and just go into a brief 
recess, if possible.
    If we could just shift to M1 Abrams, as the budget stands 
now, there'll be a break in upgrades to the Abrams tank in 
2013. I'm looking at the funding schedule, we go along in 
fiscal year 2011, $521 million, 2012 is $358 million, producing 
upgrades of 22, 21, and 21. Then in fiscal year 2013 we go down 
to zero across the board until, potentially, 2016, then we ramp 
up again from $200 million to $737 million.
    Are you concerned at all that it's, number one, cost 
effective, and number two, that you're mitigating the costs, 
and that the entity that's actually doing these things will 
have the working knowledge? Because basically you're shutting 
down production in the factory, and I can't imagine that all 
the worker bees, the people who'd actually have the 
institutional knowledge how to do this stuff, will actually be 
there to do it.
    General Lennox. Senator, I think it's a great question. 
Basically, what we're doing is, we are finishing up the 
procurement of a two-variant fleet, for the Active Force and 
for the Guard Force, of the very most modern Abrams tanks. In 
fact, you'll find that our average age of the Abrams fleet is 
around the 4-years-of-age mark. So, we have a very fit and 
complete fleet that we'll have at this time. That's what has 
caused us to stop buying something that we no longer need.
    Now, your other question, which I think is very important, 
is about the industrial base and the implications. Yes, we are 
concerned. When we talk to General Dynamics (GD) and others, 
the amount that we've been given, that it would take to keep 
those plants open, is extraordinarily large. So, it was 
something that we had to address, in prioritization, about 
whether or not you could afford to buy more of something that 
we already have enough of or put our scarce resources against 
something else. That was the logic that led us to stop the 
production at this time.
    Senator Brown. I'm deeply concerned that the base will be 
there. Instead of going from 21 to 0, is there a more scale-up/
scale-down proposal that will be more cost effective?
    So, with that, unfortunately, I'm going to take a brief 
recess. We'll be back in about 5 minutes. Thank you. [Recess.]
    Senator Lieberman [presiding]. Sorry for the recess. 
Hopefully, that's the last vote for a while.
    It's my honor and pleasure now to call on my colleague from 
Connecticut, Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to thank each of you, and the men and women working 
under you, for your extraordinary service to our Nation. I 
apologize that we kept you waiting. There was a point in my 
life when the thought of keeping one general waiting would have 
mortified me beyond words. The thought, even now, of keeping 
three generals waiting certainly is somewhat disquieting. But, 
I thank you very much for your patience.
    I want to, if I may, go back to the conversation we were 
having before we were interrupted. I think the public fails to 
understand this idea of abandoned weapons systems, and so, they 
often feel that the reason for abandoning them is that they 
just plain didn't work or the people who were developing them 
calculated wrong. But, I think that a part of your answer has 
been that the nature of the threat changed. In other words, 
that we understood better what the weapon system was designed 
to do, and, in a fast changing world, we had to adapt the 
weapon system to meet that threat.
    I think that's very important for us, in this body, to 
understand, and even more so for the public to understand, 
because it is at the core of the credibility that we all have 
in supporting the military, which we all want to do, and 
especially when you're doing the kind of work that you're 
doing, which is so essential to the Nation.
    So, I wonder if there are examples that you could give us 
now or in the future, if you want to supplement these answers, 
that would give us, for lack of a better word, the ammunition 
to use when we're confronted with that kind of question or 
challenge.
    General Chiarelli. I'll let my two colleagues add to this, 
but you've hit just such a critical point. I do not want to say 
we are not without fault. What we should have been doing is 
reviewing the requirements more often. That's what we've done 
with the CPRs. It's not a one-time look across air and missile 
defense, with a decision to cancel some programs and add to 
some programs. I've just scheduled a second one. We're going 
back again and look at air and missile defense, after a year, 
to see if the requirements that we've laid out are still valid 
requirements, the numbers we say we need are still valid 
numbers, and if the threats that we felt we had a year ago are 
still valid threats.
    We believe, if we do this and we institutionalize this 
across the Army, and we don't just come up with a requirement 
for a capability gap and then throw it over there to Bill 
Phillips, who's the acquisition guy, and say, ``Bill, build 
this.'' He enters into the 5000.2 system and process of 
acquisition that takes 10 to 12 years to come up with a major 
program on the other end, and then, at the end of that, he 
comes to us with something, and we look at it and we say, ``We 
don't need that anymore.''
    So, what we're doing with the CPR process is going back, on 
a very frequent schedule, to review all those portfolios, to 
make sure the threat is the same, the number we thought we 
needed is what we need, and the requirement remains valid.
    General Phillips. Sir, I would add just a couple of 
comments. We take our fiduciary responsibility to the American 
taxpayers and Congress very importantly. Every dollar that you 
give us, we want to make sure that we absolutely use that 
dollar in the most efficient, effective way. I think the CPRs 
that General Chiarelli mentioned are a tremendous step forward 
for us to get our hands around requirements resourcing and then 
an acquisition strategy.
    I'll give you one example on the threat and affordability: 
Comanche. I was a captain in 1986 when I first went on the 
Comanche program. First unit equip was 1996, and the threat 
obviously changed over time as the program grew and grew. 
There's a host of other requirements behind that but we 
determined that the threat had changed and the aircraft had 
grown so much that we needed to do something else with 
Comanche. So, the Army decided to terminate Comanche, partly by 
affordability and partly because of how the threat had evolved 
over a series of years. So, we invested $14.2 billion back into 
aviation today.
    So, the results of that have been very positive for the 
Army. Number one, we harvested technology from Comanche. Number 
two, we have over 500 aircraft flying in theater today; as a 
result of the Comanche decision, flying at readiness rates 
above what we could even imagine back in 2003 and 2004, because 
the Army made the right decision to terminate Comanche and 
reinvest those dollars.
    Senator Blumenthal. General?
    General Lennox. Senator, I don't know how much time you 
have. There are so many examples. The one I was going to use is 
about the Scorpion anti-tank mine that we canceled as a part of 
the CPR that we conducted last year. That's freed up probably 
$500 million total over the course of the program, that we're 
investing right now into counter-improvised explosive device 
(IED) capabilities. So, that was an anti-tank mine system we 
don't think is relevant. In turn, we're taking that money and 
investing it in technologies to buy more of the Buffalo and 
Husky vehicles that soldiers are using in Afghanistan today, 
some of the mine detectors and some of the technologies that 
we're using to modernize an engineer portfolio that was pretty 
woefully out of date.
    General Chiarelli. I would just add one final point. A 
secondary effect that we didn't fully understand when we got 
into CPRs is what we have been able to do to rationalize the 
entire portfolio, such as combat vehicles. It's hard for me to 
talk to you about the GCV without talking to you about the 
other Army combat vehicles, because we now look at it as a 
package that looks at affordability.
    PIM is a great example. The PIM is a replacement for the A6 
Paladin. But we realized we couldn't afford a new start with 
the GCV and the other things we needed to do. So, here we have 
a weapon, where we've imported the technologies off that 
canceled NLOS cannon onto an improvement of the A6 with a brand 
new body, new engine, but the same 155-millimeter gun to fire 
some of our new munitions.
    But, you really can't talk about the GCV as a single 
vehicle without talking about the entire portfolio. I think one 
of the huge benefits of this strategy is in rationalizing all 
the systems, both from a standpoint of requirements and 
affordability.
    Senator Blumenthal. Would there be a way for you to get me 
some more examples? Because I think what you have just outlined 
has been very, very helpful, and I can't speak for the 
subcommittee, but I think, for myself, it would be a very 
constructive aid. Thank you.
    General Phillips. Senator, if I could add one comment.
    We're doing an analysis of the 22 programs that were 
mentioned earlier, why they were canceled, in support of the 
study done by the Decker-Wagner team, so we can do that 
analysis, learn from it, and make sure we don't make the same 
mistakes in the past. We'll take that action and get back with 
you, sir.
    [The information referred to follows:]

    Three other examples of programs where viability was influenced by 
a change in the threat environment are the Up-Armored High Mobility 
Multi-Wheeled Vehicle, the Surface Launched Advanced Medium-Range Air-
to-Air Missile (SLAMRAAM) and the Scorpion networked munition.
    The Army's decision not to continue procurement of the uparmored 
HMMWV was influenced by the inability of the vehicle to adequately 
balance protection, payload and performance in a threat environment 
characterized by Improvised Explosive Devices. Regarding SLAMRAAM, the 
Army has decided to complete its development and testing, but cancelled 
its procurement given threat mitigation provided by other capabilities. 
The Army determined that the threat for which Scorpion was designed to 
defeat is unlikely to materialize, and was assessed as a lesser 
priority than originally envisioned. In all three cases, the funding 
for these programs was reinvested in higher priority needs.

    Senator Blumenthal. Thank you.
    Senator Lieberman. Thanks, Senator Blumenthal.
    The whole subcommittee would benefit from having that 
information, as well.
    We'll do a second round, another 7 minutes.
    Let me ask a question about the Stryker. I know that the 
Army's been testing an improved version of the Stryker with a 
double-V hull for deployment to Afghanistan. I wonder if you 
could give us a status report on how the testing is going and 
whether it's proceeding as planned.
    General Chiarelli. It's been excellent. We are very excited 
about getting the double-V hull with the added protection into 
the field. There are a couple of issues that come up during 
testing. Most of them are in the driver's station, not from a 
protection standpoint; but, some of the changes to the 
structural portion of the driver's compartment have made it a 
cramped station that we're working to try to fix in later 
models. We've also really reached the weight limit of the 
chassis. We have really come out on the top end now and have to 
look at that.
    But, from the standpoint of protection for the entire crew, 
to include the driver, we are very pleased and are moving those 
vehicles to theater as we speak.
    Senator Lieberman. Good. This was a real problem. That is, 
protection of people in the Stryker, with all the capabilities 
that it has. Am I right?
    General Phillips. Yes, sir, exactly. This actually 
significantly increases the protection level. It gives you MRAP 
ATV-level protection, or even greater. The latest, Senator, is 
we've accepted 79 vehicles, as of last Friday, of the double-V 
hull, and we have 9 postured at the Port of Charleston for 
shipment over to Afghanistan.
    Senator Lieberman. Good.
    General Phillips. Our intent is to get at least 150 ready 
in the next couple of months, for fielding. This has been very 
positive for the Army, and it will help protect our soldiers in 
theater.
    Senator Lieberman. The fiscal year 2012 budget request for 
Strykers includes 100 new nuclear, biological, and chemical 
reconnaissance vehicles (NBCRV), so it raises the question of 
why you'd want to buy any more of the flat-bottom Strykers if 
the double-V is the new standard.
    General Lennox. Great question, Senator. It's one that we 
wrestled with, frankly. The technology in the NBCRV we thought 
would take us a number of years to integrate into a double-V-
shape platform. Since a number of these vehicles will be useful 
for homeland defense, we thought we'd progress with those that 
would not operate in an IED environment. We thought it was a 
prudent thing to do to minimize the risk, but still get this 
capability out to the field relatively quickly. But, we did 
wrestle with it. I think that's a good question.
    Senator Lieberman. So these will be moved out to the field, 
but then their aim will be to get the double-V hulls on all of 
them over time or as quickly as you can?
    General Lennox. First, let me thank this committee for 
their support, because this has really been remarkable, I 
think, in 18 months, this teamwork from Congress and industry 
and the Army. We have fielded, and will field, one BCT to 
Afghanistan. That's the current plan. We're looking at 
possibilities for the future. We're also looking at an overall 
Stryker modernization plan, that won't go into place for a 
number of years yet, but we will be informed by this effort on 
the double-V hull.
    General Chiarelli. I would say, Senator, there are some 
other efforts in underbody protection that are looking very 
promising that we may want to even meld with the double-V hull 
or possibly may even surpass it. We don't know for sure. But, 
there is a lot testing right now with different forms of 
underbody protection that are proving to be very exciting.
    Senator Lieberman. Let me ask you to step back a little bit 
and use the experience with the Strykers as an example.
    As you look back at the development of the Stryker, which 
has, as I said, remarkable capabilities that have really worked 
very well in Afghanistan and Iraq, obviously experience showed 
that the bottom of the vehicle was not giving adequate 
protection to the crew. I know this is Monday-morning managing, 
or Tuesday-morning managing, but, as you look back at the 
process, is that something that should have been foreseen?
    General Chiarelli. If you understand the requirement came 
for the Stryker before we ever saw our first IED, it's kind of 
interesting. Yesterday marked the 7th anniversary of the 
uprising in Sadr City, when I was in Iraq; we lost 8 soldiers 
and had over 60 wounded. But, not a single IED went off on 
April 4, 2004, when that occurred. There was no requirement for 
underbody protection at that time, except for our larger combat 
vehicles. But, over time, this has evolved. Based on the nature 
of the threat, we've gone back, on Stryker and a number of 
vehicles. We're doing the same for the Humvee today and we're 
looking at ways that we might be able to provide additional 
underbody protection for our soldiers to those vehicles.
    Senator Lieberman. So, bottom line, this was a threat that 
didn't exist at the time Stryker was designed.
    General Chiarelli. That's exactly right. That's why we're 
excited about the GCV with capability packages. What we want to 
do is to build a vehicle that you can hang capability packages 
on that could provide passive protection or reactive 
protection, as those technologies improve over time, that will 
give that crew additional protection. The one thing we've been 
chasing for 10 years, in both theaters, is protection for our 
soldiers.
    Senator Lieberman. Right.
    General Chiarelli. I mean, we've been chasing it. I can go 
through the litany of the improvements we tried to make to the 
Humvee, to the MRAP, and now the MRAP ATV to get us additional 
mobility. It's basically road-bound in Afghanistan.
    Senator Lieberman. Correct.
    General Chiarelli. When you put anything on a common path 
all the time, that's when you run into problems with an enemy 
that knows you have to go from point A to point B on a certain 
route.
    Senator Lieberman. Let me ask you a related question about 
the MRAP vehicles. The Army owns about 12,000 of these now. As 
the forces draw down in Iraq in the months ahead, I know that 
many of these vehicles are going to be returned to Army 
installations across the country. Secretary Gates has made it 
clear that he wants these MRAPs incorporated as an assigned 
capability in the current force structure. I have heard that 
Army staff is currently working to figure out how the vehicles 
will be incorporated into the tactical wheeled vehicle fleet 
and unit distribution plans.
    General Lennox, what's the Army's thinking, at this time, 
about how to integrate the MRAP vehicle fleet, and all its 
variations into the current force structure?
    General Lennox. Senator, we've done quite a bit of work in 
the area of integrating of MRAP vehicles, in protection of 
convoys, for example. That's one area that we'll incorporate 
them into our formations. Another one is as a carrier of 
equipment. So, as a carrier for some of our signals 
intelligence equipment, we're going to use an MRAP vehicle 
platform for that.
    We've also come up with a plan to stage them in our 
overseas contingency stocks, so that they're available, because 
we only have small numbers, about 12,000. We have about 200,000 
tactical wheeled vehicles. We plan to stage some so that we can 
use them in cases of contingency, as well.
    So, they'll be integrated into our formations, and we'll 
have them staged to be used in case of deployments, as well.
    Senator Lieberman. Very good. My time's up.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you, to our witnesses, for being flexible with our 
votes.
    On the radio procurement, certain vendors have complained 
about the lack of competition in the Joint Tactical Radio 
System (JTRS) Handheld, Manpack, and Small Form Fit (HMS) 
program. Specifically, they note the lack of competition for 
the Rifleman Radio, or the Manpack Radio, until fiscal year 
2014, prior to the start of a full-rate production. For 
example, I'm noting here on the schedule, when I reviewed it, 
that you're using the incumbent boxes, which is the actual 
hardware. Then you're encouraging the competitors to develop 
software, which ultimately, I know, you get to keep.
    Does that make sense, for the competitors to fully develop 
a cost-effective product when they need to actually rely on 
General Dynamics (GD) original boxes? Does that give GD a 
competitive advantage and why wouldn't you move it up to the 
low-rate initial production (LRIP)-2 phase in 2013?
    General Chiarelli. The key to JTRS and its business model 
is what we have done with nonproprietary wave forms for our 
radios. A key and critical piece here is $179 million that we 
have in research, development, test, and evaluation (RDT&E) to 
complete the development of those wave forms so that we can 
then open up all the JTRS radios for free and open competition. 
Industry has made a lot of money on us over time because we 
have not owned our wave forms. A nonproprietary wave form would 
mean that every time we wanted to go and change that wave form, 
we would have to go and pay integration costs and additional 
money to the industry.
    Senator Brown. I understand that. But, I'm saying why 
wouldn't you move it up a year and let it go under the LRIP-2 
phase, save an extra year and make it a little bit more 
competitive earlier?
    General Chiarelli. I will sure take a look at doing it in 
2013, but we have to complete the development of the wave forms 
in 2012 and the integration onto the Shadow in 2012. That's why 
that RDT&E money is so important, in order to allow us to have 
free and open competition. We have to have these wave forms 
completed and ready to go before we can open it up to all the 
competitors out there and say, ``Build us the best box for the 
cheapest price point you can.'' That's what I find exciting 
about what we're doing here. We are changing the paradigm on 
how we buy. It's not really fair to even call them radios any 
more, into the future.
    Senator Brown. Sure. Thank you. I'm excited too. You can 
tell. [Laughter.]
    But, I'm just asking, we're using an incumbent box. We're 
opening up to competition at a certain stage. I think it gives 
one entity a competitive advantage. Potentially, instead of 
getting the best product possible, we may be hitting the 70 
percent threshold, but we're not quite there because we haven't 
opened it up. I would, if there's a way to consider moving it 
up a year. Could you get back to the committee on that, please?
    General Chiarelli. I will investigate that immediately, 
sir.
    [The information referred to follows:]

    The Program Manager (PM) for Handheld, Manpack, Small Form Fit is 
reviewing production schedules. The PM will only exercise the Low Rate 
of Initial Production (LRIP)-2 option if the program does not go into 
full-rate production in fiscal year 2013. We believe that General 
Dynamics does not have a competitive advantage because a second vendor 
will always be producing the same amount of radios during LRIP.

    Senator Brown. I know. Thank you, sir.
    On the MEADS, this is probably the third hearing I've had 
on that particular program. I'm just flabbergasted by the 
person who signed the contract to say, ``Oh yeah, this is a 
great deal. By the way, you can't get out of it; and if you do, 
you have to pay $800 million.'' Are you kidding me? I'm at the 
point now that I'm thinking of, potentially, with other 
members, just putting something in the authorization bill 
saying, ``You know what? We're out, sue us,'' and taking our 
chances and seeing what happens.
    General Chiarelli. Mr. Kendall is quoted in the paper the 
other day as saying he's working with our international 
partners to do exactly that.
    Senator Brown. It was a conversation, actually, that we 
had. I remember that, as well.
    General Chiarelli. I'm sure it is, because we came as 
prepared as we could to answer your question and, in our 
research, we found that the MEADS contract was put together in 
1996.
    Senator Brown. Yes.
    General Chiarelli. It was an international memorandum of 
agreement. The high termination costs were thought to be a 
requirement in order so that international partners would not 
renege on the deal. I'm sure that we've learned a lot about 
that today. If there is a silver lining in any of this, we see 
the possibility that there is some of the technology that would 
be developed with that $800 million, that could be integrated 
into the Patriot at a later time.
    Senator Brown. That was my next question. Are you hopeful 
that the money that we've actually invested will not be wasted 
and we'll be able to get in use that type of information?
    General Chiarelli. There is a distinct possibility that 
that will be the case.
    Senator Brown. When do you think we'll know that?
    General Lennox. Sir, we're looking at a couple of things. 
First of all, I just want to let you know that it was the Army 
that recommended as part of the CPRs that we cancel this 
program.
    Senator Brown. That's great.
    General Lennox. So, we agree with you completely.
    Senator Brown. Right.
    General Lennox. We think there are some potential 
technologies in the surveillance radar, the exciter, the 
coolant, the phased-array face on the surveillance radar, we 
think that our potential candidates look at. The program's 
building a near-vertical launcher. That's one of the areas we 
might be able to look at. It'll be cost-benefit to see whether 
these are worth adapting as we see what the program develops. 
So, we can't say, today; but, as we see how the program 
develops, we'll do a cost-benefit analysis about whether or not 
this is worth incorporating in the Patriot fleet.
    Senator Brown. Great.
    The Warfighter Information Network-Tactical (WIN-T), what's 
the status of increments 2 and 3 of the WIN-T?
    General Chiarelli. We're moving 2 as fast as we possibly 
can, but it's a key and critical piece of what we're trying to 
do to push the network down to the individual soldier.
    Senator Brown. What are the major technical hurdles in 
completing the program?
    General Lennox. I don't see any, Senator. I think our 
fiscal year 2012 request helps us finish up increment 1-B, 
which will make sure that it is compatible with increment 2 so 
that the units in the field can actually talk, and then begins 
fielding increment 2. So, I think we're on a path to field this 
system.
    Increment 2, I think, as you're aware, starts to give us 
the capability to do battle command on the move. So, it's one 
of our key objectives. It's really a transport layer that 
brings down the capability to soldiers in command posts all the 
way down to the company level. So, it's a key and critical 
program, and we ask your support.
    General Chiarelli. I'd like to push WIN-T increment 2 out 
as fast as we can. I'd like to see if we can't do some of the 
testing as operational testing, thereby saving money and 
getting a capability into the hands of the warfighter that the 
warfighter doesn't have right now. So, we're working very hard 
to see if there are ways that we might be able to do that and 
do some of that testing down range. The worst case scenario is, 
you don't have it now and if it doesn't work you won't have it 
then.
    Senator Brown. Right.
    General Chiarelli. But, we have all indications that it 
will work.
    Senator Brown. The Chairman's given me a little flexibility 
to just wrap up this particular thought process.
    If the warfighter actually has that piece of technology and 
they're actually caught, as an enemy, how would it affect the 
remaining network, the ability to basically intercept and 
understand?
    General Lennox. There are secure devices, Senator, on each 
of these pieces of equipment, like a lot of the equipment that 
we have out there today. Your old-fashioned radios that you 
probably used in the Guard and that I used growing up, had 
secure devices on them. They have to be updated.
    Senator Brown. So, it'd be a short-term potential 
vulnerability.
    General Lennox. Yes, sir.
    Senator Brown. Once you know that soldier's been captured--
--
    General Lennox. It can be sequestered.
    Senator Brown. Thank you.
    Senator Lieberman. Thanks, Senator Brown.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you all for being here. We appreciate your service, 
and I couldn't be prouder of the military and our Army.
    General Chiarelli, I enjoyed visiting with you a number of 
times in Iraq. I know how many months you spent there away from 
family. I know how many hours each day you worked and how many 
days a week, because you were, every day, trying to effectively 
carry out the mission you were given, and do so at the most 
minimum loss of life to the great soldiers that you led. So, I 
want to thank you for all that.
    I do truly believe we have the greatest military the world 
has ever known. We have a fabulous combination of equipment, 
training, capability, and motivation. We have warriors who have 
the courage to go and fight. Whatever we do as we work through 
this, Mr. Chairman, we don't need to break that. We don't need 
to somehow save dollars here and dollars there and end up 
damaging the great military that we have.
    However, I have another hat to wear, which is ranking 
Republican on the Senate Budget Committee. It's not good. This 
year we spent $3.7 trillion and we took in $2.2 billion. The 
interest over the next 10 years is projected to grow from $200 
billion last year on our debt to $940 billion in 10 years, 
which is way above the Defense budget, it's way above Medicare.
    So, we're on a course that we have to change. When I talk 
about frugality, the first question I'm given is, ``Are you 
going to cut DOD too?'', knowing that I tend to be a defender 
of DOD. Obviously, everybody is going to have to look at it. 
Something has changed. I just want you to know that. The world 
has changed. It's not anything we can dismiss. Everybody's mind 
has to be a little different.
    Let's talk about the GCV briefly, General Chiarelli. What 
do you see it looking like? How will it be configured? What 
uses do you tend to make of it? How critical will it be to the 
Army's future?
    General Chiarelli. Senator, I think it's absolutely 
essential. I think what we have done with the GCV has taken 10 
years of lessons of war and created a vehicle that is going to 
be full-spectrum, with a series of capability packages that 
will be allowed to be added to that vehicle, both passive and 
reactive, and different kinds of armors to give it different 
protection, based on the enemy threat. We've been chasing 
protection levels throughout this 10 years.
    It will carry a nine-man squad. Right now, a nine-man squad 
is carried around, down range in Afghanistan, in three wheeled 
vehicles that weigh a total of 51 tons. Even our lightest 
forces are having to use these vehicles to move from point A to 
point B and dismount the squads out of three vehicles. 
Commanders have told us they want to do that out of one 
vehicle. They want one vehicle to move, because that is how 
they can most effectively employ their squad.
    We want to ensure that it has, at a minimum, MRAP-type 
protection, with a capability over time to improve the 
protective capability over the vehicle, because we've built 
into it size, weight, and power. We want it to accommodate the 
network, and the network takes power.
    The final thing is, we want this vehicle in 7 years. We 
have lowered the requirements so that we can incrementally 
improve the vehicle over time, not unlike what we did with the 
M1 tank. We started out with a 54-ton vehicle, with a 105-
millimeter gun, and a commander's cupola that was a joke. We 
used to joke, as a tanker, that we ran out of money when we got 
to the commander's cupola. Well, we did. When I met the person 
who designed the M1 tank, he said, ``You know what? That's 
exactly what happened.'' But, over time, because we built into 
that tank size, weight, and power, and we put a sixth road 
wheel on it so it could grow over time, since 1978 it is still 
the number one tank in the world. It will be, we believe, 
through 2050, because it was incrementally improved over time.
    That's what we want to do with the GCV. We think it will 
play a critical role in our combat vehicle portfolio.
    Senator Sessions. That's a good explanation and I thank you 
for it.
    Let me just say that I was stunned at what the MRAP 
eventually cost us, almost $1 million a copy. I know we were in 
a rush. We had quick demands, we had lives at stake. I 
supported that, and I know all of us did. But, these vehicles 
don't seem to me to be so particularly costly and expensive. Is 
there some way we can break this cycle of the extraordinary 
cost that these vehicles have? It seems to me a lot of what you 
would have on this vehicle are commercial capabilities or 
proven stuff that we've used in the military before. Would you 
have any comments on that? How can we keep the cost down?
    I just want to follow up with Senator Brown's comment. I 
truly believe that we're making a mistake when we pay to 
develop and research a new weapon system and then we allow the 
contractor to keep that patents and rights to it, and then, 
when we want to change it a little bit, only they have the 
capabilities of doing it. Can we break that cycle?
    General Phillips. Senator, I would answer your question 
this way. Yes, we looked hard at affordability and 
executability. The reason we pulled back the request for 
proposal (RFP) on August 25 of last year, for the GCV was 
because, when we looked at all the requirements that we had in 
the original RFP, there were over 900 that were essentially 
tier-1, must-have requirements. When we really pulled it back 
and, in a collaborative environment, with the requirements and 
resourcing and acquisition folks in the room for about an 
intensive 60-day period, we came up with about 140 or so 
requirements that were mandatory to meet the big 4 that General 
Chiarelli described so eloquently.
    Now, when we went back and we looked at the original cost 
of the GCV for the first RFP, it was over $20 million. Then, 
through that collaborative effort, we came to understand, and 
validated, that we could build this vehicle for somewhere 
between $9.5 million and $11 million per vehicle. That's almost 
a 50 percent reduction in what we expected the cost of it to 
be. We think we continue to drive affordability down.
    We looked at two things when we went and addressed it with 
Dr. Ashton Carter, the Under Secretary of Defense for 
Acquisition, Technology, and Logistics. We wanted an affordable 
program that the Army could afford within the combat vehicle 
portfolio. Then we wanted to make sure that we could execute a 
medium-risk strategy to get this vehicle within 7 years.
    Sir, we think we have an affordable, executable strategy 
going forward.
    Senator Sessions. Thank you for your work.
    General Chiarelli, we talk about procurement, and that's 
what gets a lot of our attention. We complain about it. I know 
you're watching it. But, what is the total procurement budget 
of the Army compared to its overall total budget?
    General Chiarelli. Our total research, development, and 
acquisition budget for fiscal year 2012 submission, sir, is 
about $31.8 billion. The total budget in the request is in the 
neighborhood of $150 billion, not including wartime 
supplemental.
    Senator Sessions. I would just say that we have to have new 
equipment. We have to have new capabilities. If all of our cuts 
and reductions and everything come from procurement, we're 
leaving our soldiers with less than the quality equipment that 
they need. As you wrestle with where to reduce spending and 
contain the growth of spending, I hope that you'll look at the 
whole budget. We can't take it all out of procurement of the 
new weapon systems that we need.
    General Chiarelli. We think that's absolutely critical. 
Quite frankly, that's why we are going through the planning 
we're going through right now. Should an end strength decrease 
be required in 2015 and 2016, as the Secretary has laid out, we 
are going through the necessary planning to say that we want to 
ensure that we have a balanced portfolio, across the board. Our 
tendency is always to hang onto our people. If we do that, at 
the cost of all our procurement accounts, the exact thing you 
say, Senator, will occur.
    So, we're going through now in that area, personnel, 
reversible planning. Should the situation change, should we not 
be out of Iraq, should we not begin a solid drawdown coming out 
of Afghanistan, should some other requirement pop up--
hopefully, it will not--for large numbers of ground forces, and 
as long as we have access to the Reserve components, we feel 
that that kind of planning is prudent now. It allows us to 
ensure that, as we do that planning, we take a look at 
personnel accounts with procurement accounts to ensure whatever 
size force we have, it is a balanced force. Not one that's 
heavy in people and light in equipment, or heavy in equipment 
and light in people.
    Senator Lieberman. Thank you, Senator Sessions. That was a 
good exchange.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you again for your testimony, which has been very 
helpful.
    I want to change the subject slightly, from the ground to 
the air. We discussed it a little bit. But, taking your remark, 
General Chiarelli, that the enemy can respond much more easily 
to transporting materials by road when it knows we have to go 
from point A to point B. I know that the Army is doing some 
very exciting work with payloads delivered by air, particularly 
unmanned helicopters, and, at the Natick Center, has just 
successfully tested the K-MAX helicopter, the unmanned version 
that's delivered a certain number of payloads. I'm not sure 
exactly how many or what weight. But, perhaps you could comment 
on the potential and the promise for developing that 
technology, whether it's the K-MAX or another version of the 
unmanned helicopter.
    General Lennox. Senator, the Army has invested heavily in 
unmanned aerial vehicles (UAV), in its fiscal year 2012 
submission and throughout the program. It's a need that we 
cannot seem to meet. The demand always seems to outpace our 
ability to meet it. The demand is for full-motion videos to 
enhance situational awareness on the ground. One of the key 
lessons learned, in addition to protection, over the last 10 
years, is that you can't get enough situational awareness to 
soldiers on the ground. So, UAVs are a big area.
    We have invested in some pilots; the Long Endurance Multi-
Intelligence Vehicle, which is essentially a blimp that we can 
hang a series of payloads underneath. In the vertical launch 
capability, we're looking at the A160, as possibilities that 
we'd like to pilot in Afghanistan and then see whether or not 
we want to adopt these technologies to long-term programs, or 
not.
    General Phillips. Sir, I would just add one comment. We've 
seen an exponential growth in UAVs over the last 10 years. It's 
incredibly important for our soldiers that are in harm's way 
today. We'll certainly take a look at the K-MAX and what 
capabilities it brings. But, I would share with you also that 
UAVs have flown over 1.1 million combat hours in theater, and 
we're always looking at ways to improve unmanned aerial systems 
across the board. So, we'll take a look at that.
    Senator Blumenthal. I assume that these developments and 
the new technologies are being developed among the Services 
working together, not just by the Army.
    General Chiarelli. The Marine Corps has a very active 
program and, in many ways, is leading in unmanned aerial 
delivery of supplies, a requirement that they feel its time has 
come. We're looking very hard at the work that they are doing, 
also.
    Senator Blumenthal. Going back to the questions that 
Senator Sessions was asking about, the patents and the rights 
to use technology. I know you've talked a lot about harvesting 
these technologies. Are there legal barriers? I recognize 
you're not here as lawyers, but do you find in your work that 
you encounter legal barriers that maybe we can be helpful in 
addressing?
    General Chiarelli. I know I'm Italian and my emotion 
sometimes gets away with me, but that is why I'm so excited 
about what we're doing with the JTRS model. Nonproprietary wave 
forms, wave forms that the U.S. Government owns, in an 
operating environment where we've set the left limit and the 
right limit, will allow us to duplicate what has occurred in 
the cell phone industry. We will have applications that we will 
tell people, ``You write it to work on our operating 
environment or we don't want it.''
    So, everything that goes into that operating environment, 
not only will it work without us paying integration costs, but 
it will also allow different applications to pass data amongst 
themselves, because you've made that possible by dictating what 
the operating environment's like; not unlike what you would see 
with the applications on an iPhone or a Droid or anything else.
    This is a total change for the Army. When you update your 
computer program, whatever that might be, you have to go back 
and pay a fee for that update. The idea here is, we make the 
improvement to the wave form, but the government does it, 
spending the amount of money it wants to make the improvements 
it needs. It comes out the other end, everything that rides in 
that common operating environment is able to talk to one 
another.
    There are those who would rather not have us go there, 
because there will be money lost in integration costs that 
we've had to pay in the past. So, we're excited about this, and 
see a great opportunity to save money over time for our 
government.
    Senator Blumenthal. Providing a model for other weapons 
development.
    Thank you.
    Senator Lieberman. I have just a couple more questions.
    First, I want to state for the record that, in this 
subcommittee, we welcome the expression of emotions by Italian-
Americans or any other kinds of Americans. [Laughter.]
    Let me ask about the UH60 multiyear procurement. The budget 
for the next fiscal year request includes a legislative 
provision giving the Army authority to enter a multiyear 
procurement contract for various models of the Black Hawk. The 
last multiyear procurement projected that cost savings of 5.3 
percent would be realized by a multiyear buy. But, in fact, 
only 4 percent savings were realized. There were real savings, 
but not as high as expected. The projection for savings that 
accompanies the request for fiscal year 2012 is now 10.5 
percent from a multiyear. So, I wanted you to talk a little bit 
about the basis of that 10.5 percent, and whether there's a 
Cost Assessment and Program Evaluation (CAPE)-approved estimate 
that the Army can actually achieve a 10 percent savings through 
multiyear procurement authority for the Black Hawk.
    General Phillips. I have a couple of comments. One, is that 
the Black Hawk program is incredibly important for the Army. 
It's the highest density aircraft down range today flying in 
Iraq and Afghanistan. There's over 300 aircraft that are flying 
there, with extraordinarily high readiness rates. So, we see 
the Black Hawk program and the UH60M as critical for supporting 
warfighters down range.
    To answer your question directly, we're highly confident 
that we will achieve the 10 percent savings associated with a 
multiyear. We've gone forward to Dr. Carter and laid out the 
case for that multiyear savings. When working with CAPE, in the 
original assessment that they did back in September, the 
assessment they validated was about 8.5 percent. But, we went 
back after that and worked with the president of Sikorsky, 
Jeffrey Pino, and his team. As a matter of fact, Sikorsky has 
put in writing that they will achieve at least a 10 percent 
savings in the multiyear for the Black Hawk aircraft. If you 
look at the amount of money that we are going to spend over 
time for the Black Hawk, exceeding $7 billion to buy this 
aircraft, a 10 percent savings is significant.
    Senator Lieberman. It sure is.
    General Phillips. It is upwards of about $700 million. So, 
sir, we're excited about the multiyear effort, and we strongly 
support its approval.
    Senator Lieberman. Good.
    Obviously, part of the reason why I asked the question is 
because it is a significant number. Also, I think you know that 
there are some members of our full committee who are skeptical 
of the multiyear procurement savings that are claimed. Do we 
have any tools available to us, once we enter into a multiyear 
contract, to hold the contractor to the projections?
    General Phillips. Yes, sir. When we work the contract and 
sign the bilateral agreement with a company through that 
contract, they're held accountable for the savings that are 
documented within the contract itself. As we move forward with 
the UH60 contract, we will do the same with Sikorsky. We've 
seen the same for the Chinook program.
    Senator Lieberman. Right.
    General Phillips. That's also one that we track very 
closely. As a matter of fact, savings are beyond 10 percent for 
the Chinook program. We're doing the same for the Apache today. 
It's important, sir, and we will track that closely.
    Senator Lieberman. Good.
    General Chiarelli, one last question from me. There is a 
natural tension between testing and evaluation on the one hand, 
and development of programs, cost, and efficiency on the other 
hand. There's a natural tension there, where all the testing 
requirements begin, obviously, because both the Army and 
Congress were concerned about money being thrown in at a system 
being used before it was ready, and therefore not being 
effective; at worst, obviously jeopardizing the safety of our 
soldiers. On the other hand, it's possible that you can test to 
a point where you're delaying the availability of the system 
unnecessarily to soldiers to protect their safety and make them 
more effective, and perhaps adding to the cost.
    As I'm sure you know, the Weapon System Acquisition Reform 
Act had the intention to have developmental test activities 
earlier in the program, monitored by users as well as 
developers and oversight agencies. I wanted to invite you to do 
two things. One, is to give me your own sense of what the state 
of this balance between development and testing is. Maybe we 
should start with that, because that's a big enough question.
    General Chiarelli. If you start with a program that's going 
through the 5000.2 series you have a very elongated testing 
requirement. What most people don't understand is, with a Joint 
Urgent Operational Needs Statement (JUONS) that comes from the 
field, when the field requires an immediate capability to get 
down range we don't test or collect hardly any data on it at 
all.
    Senator Lieberman. Yes.
    General Chiarelli. We see both of those as a problem. In 
the JUONS area, you end up with a system being sent down range 
because a commander thinks he needs it; but, when he realizes 
some of the integration requirements that have to take place, 
he goes, ``Wait a second. I didn't know that. I didn't 
understand that,'' because the proper testing hasn't been done.
    What we have done is establish at Fort Bliss, TX, an Army 
brigade that will be filled up with soldiers fresh from the 
field and theater, that has just about every single piece of 
equipment in the Army. We are putting them on, initially, a 6-
month testing cycle that will go to a 4-month testing cycle. 
So, we can take civilian off-the-shelf pieces of equipment the 
commanders have requested because of JUONS or some of the 
helicopters, like the A-160 UAV, and be able to put it in the 
hands of real soldiers on a very quick testing program, every 6 
months, so we can work through many of those integration 
issues, even on those things requested for immediate deployment 
by commanders. We think this is going to change the paradigm. 
It's also going to allow industry, using their own 
developmental money, to build something that they feel meets an 
Army requirement and bring it to us, allow us to test it, and, 
if it meets a capability gap, we will look at employing it in 
the force.
    Because technology is moving so quickly, we have to get 
quicker and more agile in our ability to get pieces of 
equipment to theater. We have to look at ways of compressing 
testing, while always ensuring the safety of our soldiers is 
paramount in everything we do. We may be excessive in some of 
the requirements that we have coming out of the testing 
community, delaying programs and delaying getting things to 
soldiers. But, at the same time, on the other end, we have to 
ensure that we don't send the integration problems down range 
to commanders to figure out.
    I lived through that in 2006, when somebody in the building 
said, ``We can have an active jammer for the Marine Corps 
because they're in the west, and the Army's in Baghdad, north 
and south,'' and gave us a passive jammer. They sent them over, 
thinking that the two forces would be separated, when, in 
reality, they were passing each other all the time.
    Senator Lieberman. Right.
    General Chiarelli. We had to do the integration 
requirements down range. We want to take that burden off 
commanders.
    Senator Lieberman. Okay. It's an interesting and a good 
question. So, right now, you'd say that perhaps there's a 
little too much testing at different points. You're trying to 
move it back along the spectrum; but, again, you stated the 
obvious primary concern you have is the safety of the soldiers.
    I wonder, General Phillips, if you want to add anything 
about how the Army's going to incorporate appropriate 
developmental tests earlier in its program?
    General Phillips. Sir, I absolutely agree. I think we 
should do developmental testing as early as possible, because, 
as soon as you can find out the issues and problems and fix 
them, the better chance of that program to be successful at the 
end, to get into production.
    I would only add that we're excited about the capability 
that we're standing up at White Sands Missile Range.
    Senator Lieberman. Right.
    General Phillips. If we can take a program like Paladin PIM 
or another program, and look at the test strategy and better 
integrate it or test the network out at White Sands Missile 
Range and reduce something that might be a 9-month test down to 
a 6-month test and it's two-thirds of what it used to be by 
synchronizing and integrating better, that saves us money. It 
saves us time. We get capability faster. So, I think it's a 
balance, sir. But, we have to look harder in each program at 
the test program and the test strategy.
    I'll use Paladin PIM as another example. We looked at, 
hard, the testing requirements for this program over the last 3 
or 4 months. We think we can save anywhere from around 6 to 9 
months, in terms of testing for that program, going forward. 
So, we might be able to pull milestone C, which is currently 
scheduled for June 2013, to the left so we can get that 
capability sooner.
    Senator Lieberman. That would be great.
    Are defense manufacturers cooperating in your attempt to do 
the testing earlier in the developmental cycle?
    General Phillips. Yes, sir, absolutely. It's a team effort 
and a partnership. In the case of the Paladin PIM, we've worked 
closely with BAE to get the prototypes where they need to be, 
out at White Sands or Yuma, so we can execute the testing 
quickly. The Army Test and Evaluation Command (ATEC) is also 
involved in that. So, that partnership has to be strong to be 
able to accomplish this.
    Senator Lieberman. Good. Thank you.
    General Chiarelli. Senator, for statutory and regulatory 
requirements, we've put a wall up between operational and 
developmental testing. Maybe it's time to lower that wall a 
little bit and allow some of the work that's done in 
developmental testing to move over to operational testing so we 
are not repeating some of the exact same things in operational 
testing we did in developmental testing, thereby saving us some 
money.
    Senator Lieberman. That makes a lot of sense to me. Is that 
something you need statutory help with, or would you just do 
that on your own?
    General Chiarelli. I can't tell you that right now. I don't 
believe we do.
    Senator Lieberman. Yes.
    General Chiarelli. I think we need to have a little bit of 
a cultural change between the developmental guys and the 
operational guys.
    Senator Lieberman. Great. Thank you.
    Senator Brown.
    Senator Brown. Thank you.
    Having Natick Labs in my district, I've visited there many 
times. One of the things that I know that they're trying to do, 
and I've heard from individual soldiers, is to get new weapons 
systems in the field and let the soldiers, the people that are 
actually using it, make the determination and recommendations 
as to how to make it lean and mean and actually functional. 
Some of the best suggestions actually come from the troops on 
the ground. So, just a thought on that.
    I just want to go through a checklist of things that I 
wanted to ask. Is there any guidance as to where the Army is 
going, or will be going, with a next-generation carbine?
    General Phillips. Sir, we have a dual-strategy for the M4 
carbine. Number one, we are going to continue to improve. Right 
now, we have done about 62 different improvements to the M4 
over time. It's a world-class weapon. There's over 600,000 of 
those that exist today. We're going to continue to improve it. 
The next phase will be a heavier barrel, an ambidextrous 
trigger, and also a selector switch that will allow it to also 
operate on automatic. So, we will continue to improve the M4. 
At the same time, we've improved the ammunition that they're 
using in Afghanistan today, the 556.
    At the same time, we want to make sure that our soldiers 
get the best individual carbine that we can deliver.
    Senator Brown. Right.
    General Phillips. So, we're going through a full and open 
competition for the next individual carbine. We just had an 
industry day, about a week ago, where 38 industry partners were 
there. We're excited about what industry may come and offer, in 
terms of what might be the next individual carbine.
    But, I also qualify that, because the requirement for an 
M4, in terms of reliability, is about 600 mean rounds between 
failure. The experience that we have in combat today is about 
3,600. So, the M4 is performing very well with our soldiers 
down range, and we're getting very good feedback on what it 
does.
    Senator Brown. What about taking it down a notch? Is the 
Army planning on buying any more Berettas, or is there going to 
be a competition for a new pistol in the future? What's the 
status there?
    General Phillips. Sir, I'll open up and let General Lennox, 
my colleague, respond as well, but we have about 240,000 in 
terms of the number of M9 pistols that the Army requires. We're 
right at the end of getting that quantity. The last 146 will be 
delivered by June.
    Meanwhile, there's another requirement for the Air Force 
and for foreign military sales (FMS) customers that we're also 
working towards. There is a RFP on the street today that's in 
source selection, where we will put in place a 5-year 
indefinite delivery/indefinite quantity to buy M9 pistols for 
the Air Force and for potential FMS customers that we might 
have. But, none of that requirement is in support of the Army's 
requirement for means and sustainment for the M9.
    Senator Brown. General Lennox, have there been a lot of 
complaints with regard to the Beretta and its performance, or 
not?
    General Lennox. Senator, we have heard some complaints 
about stopping power.
    Senator Brown. That's what I've heard, as well.
    General Lennox. The threat today, though, is much longer 
range than pistol range. We're really hearing much more 
requests for weapons that reach out to the 500-, 600-, and 700-
meter range.
    So, we have no plans, at this time, to purchase additional 
pistols.
    Senator Brown. Okay.
    What's the status of the report on the Army compliance with 
the Berry Amendment? If it's out, and I'm not quite sure if it 
is, were there any major findings?
    General Phillips. Sir, you're relating that to the use of 
metals from foreign countries that are included in programs 
executed for DOD?
    Senator Brown. Yes.
    General Phillips. There have been some issues in the past 
for the Berry Amendment. None of them have risen up that I've 
heard of in the last several months. Some of those in the past 
go back to aviation programs, like transmissions for the 
Chinook, where we found that some metals that remained 
overseas, that fall under the Berry Amendment, were actually 
being used by manufacturers. We'll take that question back for 
the record, sir, and do more research to see if there are any 
current issues on the Berry Amendment.
    [The information referred to follows:]

    The only report related to Army compliance with the Berry Amendment 
that we know of is a congressionally-mandated report in accordance with 
section 821 of the Ike Skelton National Defense Authorization Act for 
Fiscal Year 2011. That section requires a Comptroller General report on 
the supply chain of fire resistant fiber for the production of military 
uniforms for all of the Department of Defense. The summary of that 
report was briefed to this committee by the Comptroller General on 
April 27, 2011. The Comptroller General has not yet released the 
official version of that report but preliminary communications indicate 
no issues with Army compliance with the Berry Amendment.

    Senator Brown. I don't want reinvent the wheel if it's 
something that you feel you can just pick up the phone.
    General Phillips. Okay, sir.
    Senator Brown. Does the Army have enough in its Guard and 
Reserve equipment accounts to meet the obligations at home and 
abroad?
    General Lennox. Sir, I think you'll find now that we have 
better equipped the Guard and Reserve, commensurate with their 
deployments and their employment in Iraq and Afghanistan. The 
overall level of equipment in the Active Force is 92 percent. 
It's 92 percent in the Guard. It's about 91 percent in the 
Reserves. The percentage of modernized equipment--all the 
equipment's useful, but the most modern equipment--is in the 
70s, equivalent in both the Active and the Reserve components. 
So, I think, with Congress' help, we have really, over the last 
5 years in particular, made dramatic improvement in equipping 
the Nation's Reserve components.
    Senator Brown. What's the Army's plan to incorporate the 
MRAP vehicle into its permanent inventories of equipment for 
Army combat units?
    General Lennox. Sir, we have a plan of including it both 
into units in integral roles, such as convoy escorts for our 
combat support units, and for carrying equipment on the back of 
it, as a secondary load. So, we have those roles for 
incorporating that equipment. We also have planned for using it 
as overseas storage to be employed in the case of a deployment, 
since we only have about 12,000 MRAP vehicles and another 6,000 
MRAP ATVs. We don't have enough for every single unit to be 
employed. Some of it will be secured and ready to be employed, 
if needed by the threat.
    Senator Brown. The Government Accountability Office 
recently released a quick-look weapons assessment. Three major 
weapons programs since 1997 have cost overruns as much as 50 
percent of the original projections. What will the Army do to 
improve its acquisition workforce, particularly with regard to 
cost estimating systems, and engineering and developmental 
testing, to reform its requirements, instill budget and 
financial discipline, source selections, and clear lines of 
authority with regard to acquisition? How do we make sure this 
stuff doesn't keep happening?
    General Phillips. Senator, great question. Much of what you 
just described is embedded within the Decker-Wagner study, 
which we are taking very seriously. As a part of its 
recommendations and building the acquisition workforce, we will 
look hard at bringing in additional cost analysts and other 
analysts that can help us get our hands around acquisition 
programs, source selection processes, and cost accountability. 
I think you'll see the Army make great strides, now and in the 
future, in terms of affordable programs going forward. We will 
implement the necessary changes and bring the acquisition 
workforce into play.
    Let me also add that in the acquisition workforce we have 
already brought in 1,310 interns, some of which are cost 
analysts. Our target is 1,885. Some of those interns that are 
coming in will certainly fill what might be considered gaps, in 
terms of cost analysts and others.
    Senator Brown. You're talking paid interns?
    General Phillips. Paid, sir.
    Senator Brown. Are these people that have a history of 
dealing with these sorts of things?
    General Phillips. Yes, sir. We are actually looking at 
folks coming out of colleges and universities that have the 
skills that are necessary to bring them in and train them in 
cost analysis and areas such as that.
    Senator Brown. So, I can put out a feeler and tell them 
that you have job openings?
    General Phillips. Sir, we are recruiting. The standards 
that the Army uses to bring in an intern today, with a grade 
point average of 3.5, are pretty high. We are really excited 
about the quality of the interns that have come in the Army 
today.
    Senator Brown. Okay. First of all, thank you. I've learned 
a lot and I appreciate the honest answers. I actually feel like 
I've gotten some good answers, finally, on a whole host of 
things.
    So, thank you, Mr. Chairman, for holding this hearing and 
including me.
    Thank you.
    Senator Lieberman. Thank you, Senator Brown.
    Senator Blumenthal.
    Senator Blumenthal. I have just one last question. I know 
that you've noted the good partnership that you have with 
private industry. Are you satisfied that there is a 
sufficiently prompt and adept procedure, in the event there is 
not cooperation or if you want to remedy problems that may 
occur in contractors, with addressing those problems?
    General Phillips. Sir, absolutely. Through our contracts 
that we have with our industry partners, and through a day-to-
day dialogue that we also have, from the highest levels of 
leadership within industry down to those that actually execute 
the programs, it's important that we have a continual dialogue, 
because industry is incredibly important to our mission to 
field the best capability possible for our soldiers. So, when 
we have a contract with an industry partner, if there's an 
issue that arises, we want to address that issue as quickly as 
possible with the industry, whoever that might be, have them 
address it and remedy the situation quickly. If it can't be 
remedied, we want to raise it up to the right, appropriate 
level--and it might be to my level, it might be to General 
Chiarelli's level, or the Army acquisition executive--to be 
able to resolve that issue with industry.
    One thing that Dr. O'Neill and I have taken on over the 
past year is to have a stronger dialogue with industry. He is 
down in Atlanta today, meeting with a host of industry partners 
at the Atlanta Conference, and will continue that strong 
dialogue with industry over time.
    General Chiarelli. Secretary McHugh, since coming to be 
Secretary of the Army, has instituted some get-togethers with 
industry, where we bring them into the building and sit down 
and talk. I would be less than truthful if I didn't indicate to 
you, I wish I had the ability to talk to industry a little more 
openly in my role as Vice Chief of Staff of the Army, without 
falling too close, in some instances, to what the lawyers would 
indicate is a place that I shouldn't be. I don't know if that 
makes any sense. [Laughter.]
    Senator Blumenthal. I can understand what you're saying.
    Senator Lieberman. You have two lawyers, even two attorneys 
general, so it makes a lot of sense.
    Senator Blumenthal. Two admirers of what you're doing. 
Thank you for your testimony today.
    Senator Lieberman. Thanks, Senator Blumenthal. I can't 
agree more, that this was a very good hearing.
    The three of you are the leadership of what might be called 
the business side of the Army. Obviously, the Army's involved 
in very serious manners on our behalf, in fact, to fulfill our 
constitutional responsibility to provide for the common 
defense. But, to do that effectively requires really good 
business practices.
    I'm impressed by the quality of your leadership and by the 
extent to which you're doing exactly what a successful business 
would do, which is, number one, to try to apply the most 
significant advances in technology around you to what your 
business is, which are what the goals of the Army are; and 
number two, to understand that things often don't work quite as 
you want them to, and then work quickly to fix them. I think 
that's what you're doing.
    I appreciate the directness of the process that you've been 
leading, General Chiarelli, with the assistance of General 
Lennox and General Phillips involved. My own feeling is that we 
have begun to accept a perennial problem of overspending; of 
starting big programs and canceling them. Even though I know we 
still pick up some of the capabilities in those programs I 
think we're turning the corner. I appreciate that it didn't 
happen automatically, so I appreciate the leadership that 
you've all shown. It will matter a lot, most important of all 
to our security, but also really, just right alongside that, to 
the safety and effectiveness of the men and women of the Army.
    The record of the hearing is going to be held open until 
this Friday to allow for the submission of additional 
statements or questions. I hope, insofar as there are 
questions, you can try to answer them in as timely a way as 
possible, because Chairman Levin and Senator McCain are 
starting to actually talk about moving to a markup of the NDAA.
    Is there anything else you'd like to say? [No response.]
    If not, I thank you again.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                      joint tactical radio system
    1. Senator Gillibrand. General Chiarelli, I support the Joint 
Tactical Radio System (JTRS) program concept of a nonproprietary 
waveform. I also appreciate that some of the research, development, 
test, and evaluation (RDT&E) funding you are requesting for fiscal year 
2012 will be spent to help develop the software to port the waveform; 
however, I am troubled that we are spending such a large amount without 
adequate time to work out the kinks. Given past problematic 
developmental testing results for JTRS Handheld, Manpack, and Small 
Form Fit (HMS) that required extensive modifications, is it realistic 
to believe that the program can move from developmental testing to low 
rate initial production (LRIP) in only a few months?
    General Chiarelli. Yes, it is realistic to believe the program can 
move from developmental testing to LRIP in only a few months. The 
hardware design is stable and the remaining testing involves the 
software. The JTRS HMS program conducted a network excursion, a 
developmental test (DT) event, in March 2011 demonstrating improved 
situational awareness and small unit effectiveness using the Army's 
network. The network excursion also assessed the JTRS radios and 
waveform's ability to support tactical data requirements. The excursion 
demonstrated integration between HMS Warfighter Information Network-
Tactical, and Force XXI Battle Command Brigade and below. The network 
excursion also successfully demonstrated connecting the dismounted 
force to the Global Information Grid (GIG).
    The HMS will participate in a series of DT and operational test 
(OT) events to build program decision data and confidence over the next 
7 months. The decision data accumulated through these test-analyze-fix 
series of DT events will ultimately support a decision to proceed (or 
not) with procurement under LRIP at a production decision brief yet to 
be scheduled.
    The HMS is currently undergoing a formal DT event at Fort Huachuca, 
AZ. It will be further tested in the Army's Network Integration 
Exercise (an additional DT event) scheduled June-July fiscal year 2011, 
the Network Integration Rehearsal (an additional DT event) scheduled 
October fiscal year 2012, and the Rifleman Radio Initial Operational 
Test and Evaluation (IOT&E) (an additional OT event) scheduled November 
fiscal year 2012.
    These five test efforts will result in metrics and decision data 
accumulation, to support independent assessment of the capability 
provided by the HMS for the warfighter. In addition, the tests will 
also provide the Department of Defense the data necessary for any 
further acquisitions regarding the HMS.

    2. Senator Gillibrand. General Chiarelli, the senior Director, 
Operational Test and Evaluation personnel have briefed my office that 
the timing is unusual for a major acquisition program. Given these 
concerns, does it make sense to support the entire programmatic request 
for the development and production in fiscal year 2012?
    General Chiarelli. Yes, support is warranted for the entire fiscal 
year 2012 request. Development efforts in fiscal year 2012 funding are 
driven primarily by the Office of the Secretary of Defense/Service 
initiated enhancements. These include waveform porting and/or software 
upgrades for interoperability and management of the radios. Fiscal year 
2012 production events are related to Rifleman radio and Manpack LRIP 
efforts. Development and production activities will be worked 
concurrently in fiscal year 2012.

    3. Senator Gillibrand. General Chiarelli, I was pleased to hear 
that you will speed the time to competition. I am a strong proponent of 
an open and fair competitive process to ensure we are procuring the 
best radio possible for our soldiers. My understanding is thousands of 
General Dynamics radios will be purchased and fielded well before the 
next scheduled competition. For the IOT&E scheduled in the coming 
months, I would like to know what other radios have been offered the 
opportunity to participate in the IOT&E, and of those which ones have 
indicated they want to participate?
    General Chiarelli. The HMS development was competitively awarded to 
General Dynamics with Thales, Rockwell Collins, and BAE as their subs. 
Leading to LRIP, the Program Manager (PM) solicited industry partners 
to assess the potential for competition in LRIP leading to IOT&E. No 
other soldier radio waveform capable radio that met size, weight, and 
power requirements were available to support government developmental 
test in November 2010 or the operational test held in February 2011. As 
such, the PM is currently planning to purchase the LRIP units off of 
the existing contract, with General Dynamics and Thales splitting the 
production. Once through IOT&E, the PM plans to obtain a full-rate 
production decision in second quarter fiscal year 2012 and release a 
full and open competition request for proposals at that time.

    [Whereupon, at 4:17 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MAY 24, 2011

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                       TACTICAL AIRCRAFT PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman and Brown.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Christopher J. Paul, professional staff member; 
and Michael J. Sistak, research assistant.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; and Charles Prosch, assistant 
to Senator Brown.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The subcommittee hearing will come to 
order. I want to welcome our witnesses and thank each of you 
for appearing before the subcommittee today.
    It's against the backdrop of the extraordinary service, 
bravery, and sacrifices of the men and women of our Armed 
Forces that we convene this session of the Airland Subcommittee 
to discuss tactical aviation programs, an important part of our 
jurisdiction of this subcommittee, and one on which we will 
attempt to counsel the full committee as it develops the 
National Defense Authorization Act for this year.
    Every year we're challenged to make decisions balancing 
competing demands for resources, including resources for 
current operations and investment in future modernization. This 
year is no different, except maybe it's more difficult than 
normal because of the increasingly constrained budget 
environment in which we're operating.
    Last Thursday the full Senate Armed Services Committee 
heard from several witnesses on the current status of the F-35 
Joint Strike Fighter (JSF) program. I think it was important 
and necessary that the full committee discuss the JSF program 
because the cost, schedule, and performance of the JSF are 
central to so many questions of how we achieve the balance I 
just talked about between the demands of maintaining readiness 
in the near term and modernizing for the future.
    Today we want to focus following on the hearing last week 
on how the services are responding to the most recent JSF 
delays and what effects those delays are having on our forces. 
There are worrisome prospects for the future of tactical air 
(TACAIR) programs, particularly in terms of having the numbers 
of aircraft we need to keep from hollowing out our tactical 
aviation forces.
    I will say to the witnesses that we've been following your 
attempts to mitigate or close those gaps, and I look forward to 
hearing about them and discussing them with you. For instance, 
the Department of the Navy has made continuing attempts to 
reduce the strike fighter shortfall to manageable levels. Three 
years ago, the Navy was estimating that we would be facing a 
shortfall in 2017 that optimistically would amount to 125 
tactical fighters needed to outfit our 10 aircraft carrier 
wings and 3 Marine Corps air wings. Two years ago, based on 
further analysis, the Navy was estimating that the maximum 
shortfall could be nearly twice that large or roughly 250 
aircraft. Last year the estimate was that, absent certain 
actions by the Department, the shortfalls could reach 267 
aircraft. However, the Navy believed, it said then, that with 
certain actions, such as reducing squadron size, conducting 
service life extension programs (SLEP) on some aircraft, and 
reducing time aircraft spend in the depots, the Navy could 
reduce the gap to roughly 150 aircraft.
    In this year's budget submission, Navy is estimating that 
with additional new production of F/A-18E/F aircraft in the 
Future Years Defense Program (FYDP) and with a SLEP for 150 
existing F-18s, the shortfall would actually go down to 65 
aircraft. The Navy has now characterized that expected 
shortfall as manageable.
    Since the budget was submitted, the Navy was provided an 
additional nine F/A-18 E/Fs in the 2011 Department of Defense 
(DOD) Appropriations Act, the one that we just passed a month 
or so ago. Those additional aircraft, alongside some other 
measures, have now lowered the Navy's estimate of the gap to 52 
aircraft, which is quite a remarkable change over the years 
that I've cited.
    Admiral Philman, in light of the significant changes in the 
Navy's estimated shortfall in recent years, I'm going to be 
interested in hearing you discuss how confident you are in the 
current estimate, how it would be affected by any additional 
delays in the JSF program, and whether the continued 
acquisition of the F/A-18 E/F aircraft will ultimately reduce 
the Navy's long-term requirement for JSF aircraft.
    There's a similar story regarding the Air Force. Previous 
Air Force witnesses at our aviation hearings have projected a 
potential shortfall of Air Force tactical fighters in excess of 
800 aircraft around 2025, which was a jarring number to hear 
when we heard it here. This year, General Carlisle, in your 
statement you indicate that the Air Force is now facing a 
shortfall between 3 and 5 percent through the FYDP years. With 
a total Air Force requirement of some 2,000 aircraft, I'm 
assuming that that shortfall goes somewhere between 60 and 100 
aircraft.
    General, as I mentioned to the Admiral, in your testimony 
you describe the Air Force's investigation into ways to extend 
the service lives of A-10, F-15, and F-16 aircraft to help 
mitigate the gap between requirements and aircraft that it 
foresees. In your prepared testimony you state that ``actions 
to extend and modernize the legacy fleet are a bridge to fifth-
generation capabilities and are not considered replacement 
actions.'' That's an important statement, which I would like to 
discuss with you in the question and answer period.
    So this is a very timely, very important conversation we're 
going to have, and we have exactly the right people here to 
have it, and I thank you for that.
    Senator Brown.

              STATEMENT OF SENATOR SCOTT P. BROWN

    Senator Brown. Thank you, Mr. Chairman, for holding this 
important hearing. It's good to see you again.
    Senator Lieberman. Thank you.
    Senator Brown. I thank the witnesses also for their 
attendance.
    Just listening to your opening statement, I also am deeply 
concerned about the shortfalls and how that relates to our 
tactical advantage or disadvantage when it comes to upcoming 
conflicts. Without a doubt, for me combat tactical aviation 
presents some of the most significant challenges, I think 
you'll agree, for all the Services. Perhaps chief among them 
are the gaps between the fighter aircraft and the strike 
fighter aircraft capability in the Air Force and the Navy 
respectively.
    Critical to the military departments' ability to fill these 
capability gaps is how successfully they hedge. It seems like 
we're getting close to that point where potentially the safety 
and security of not only our men and women serving, but our 
country, may be at stake. I want to just see what's fact and 
what's fiction in that. I want to make sure that we avoid 
schedule slips and cost growth to extend the service lives of 
aging aircraft. One way to avoid that is to do what you're 
doing, which is to try to get every last flying hour out of 
these aircraft. I don't know if I want it to be manageable. I 
want to make sure we're at an advantage and there's no question 
whatsoever that we are going to be ready for whatever task is 
at hand.
    It's our responsibility, through your leadership, Mr. 
Chairman, to make sure that DOD and the prime contractor, 
Lockheed Martin, execute the JSF program so that it provides 
tactical capability as needed, on time, and on budget. 
Obviously, we're having some very serious issues with that, and 
the hearing last week I found very informative.
    So I'm going to be asking, for example, what's your plan B 
if the F-35 is delayed further, either in terms of material or 
force structure solution? Specifically, given the incredible 
cost--I know Senator McCain touched on that as well--the cost 
growth of producing, not to mention owning and maintaining, the 
JSF, where does that leave us? Have we started to reexamine 
high-low mixes amongst its oldest strike fighters, as the Navy 
has with its continued purchase of FA-18 Hornets?
    With regard to the Hornet program, I understand in order to 
maintain a tactical advantage with these jets, the Navy wants 
to continue buying the advanced Multifunctional Information 
Distribution System (MIDS). I'm a little bit concerned about 
the assessment by the Pentagon's chief independent weapons 
tester that it's not operationally suitable yet and should not 
be fielded until the deficiencies are identified and fixed. I 
want to understand the Navy's position, so I'm going to 
obviously ask that question as well.
    As for the Air Force, I'm very concerned, as many others 
are, at the costs associated with operating and maintaining our 
legacy fleet of F-22 Raptors. I know the President's asking for 
$2 billion this year, even though we're not buying any new 
aircraft. So I'd like to see where the breakdown of that is. Is 
it all just maintenance and upgrades and things like that? If 
it is, then the latest hardware and software upgrades are over 
budget and behind schedule. I'd like to ask the Air Force about 
that as well.
    Then I'm keenly aware, that the Marine Corps needs to start 
replacing their aging combat aircraft as well. The AV-8B 
Harrier jet is on its last legs. I think we all know and 
understand that. Yet the Marine Corps variant of the F-35 has 
the most difficulty in development so far and is facing a 2-
year probation. So what does that mean for the Marine Corps? 
Where are they? They're traditionally the first to go into 
battle and we want to make sure that they have the proper 
equipment that they need to do their job and complete the 
mission safely and successfully.
    Of all the Services, the Marine Corps faces the most 
dramatic consequences of any further delays or costs as a 
result of the age of their aircraft. I'd like to hear the 
perspective of the Marine Corps on that particular issue.
    Also, two-thirds of the total cost of the major weapons 
system over its entire life cycle goes to maintainability or 
operations and support (O&S) costs. Poor reliability can lead 
to varying O&S costs, so those systems must be reliable. Last 
June the chief independent tester was concerned about the 
reliability of our newest weapons system. Earlier this year, a 
directive was issued that established a set of procedures that 
sought to enhance the reliability immediately. I'd like to hear 
from witnesses as to how this directive is being implemented in 
programs in your portfolio.
    Then finally, Mr. Chairman, with your indulgence, China has 
been in the press a lot lately for its fighter development and 
Russia has been exporting fighter aircraft and related 
technology for years. I'd like to know what each of our 
witnesses feel and believe are the threats for military 
aviation in the United States. In other words, what keeps you 
up at night and how do we respond and are we responding 
properly, and if not what tools and resources do you need from 
us, to keep us in that tactical advantage which is so vital to 
our Nation's security?
    So with that, Mr. Chairman, I look forward to the 
witnesses' statements and testimony.
    Senator Lieberman. Thanks, Senator Brown, for that 
thoughtful statement.
    We'll go to the witnesses. First will be Lieutenant General 
Herbert J. Carlisle, Deputy Chief of Staff for Operations, 
Plans, and Requirements at the U.S. Air Force. Welcome. Good to 
see you again.

 STATEMENT OF LT. GEN. HERBERT J. CARLISLE, USAF, DEPUTY CHIEF 
  OF STAFF FOR OPERATIONS, PLANS, AND REQUIREMENTS, U.S. AIR 
                             FORCE

    General Carlisle. Thank you, sir. It's good to see you as 
well.
    Chairman Lieberman, Ranking Member Brown, thank you for the 
opportunity to provide you with an update on our tactical 
aviation programs and the U.S. Air Force. Engaged around the 
world in overseas combat operations, supporting the combatant 
commanders, our Nation's airmen greatly appreciate your 
continued support. Our Air Force is continuing to organize, 
train, and equip our airmen so they can successfully operate 
across the entire spectrum of military conflict.
    The 2010 Quadrennial Defense Review (QDR) set four 
objectives to guide current and future action and planning: 
prevail in today's war; prevent and deter conflict; prepare to 
defeat adversaries and succeed in a wide range of 
contingencies; and preserve and enhance the All-Volunteer 
Force.
    Today I'd like to focus on preventing and deterring 
conflict and preparing to defeat our adversaries. As I look at 
these objectives and consider equipping the future military, I 
couldn't help but look at history a bit. Opposing militaries 
have long relied on technological advances to change the course 
and even the nature of war to their advantage. At the outset of 
World War II, the Mitsubishi A6M Zero was the best carrier-
based airplane in the world. It was lightweight and highly 
maneuverable. It was not surpassed in the Pacific until the F-6 
Hellcats, F-4U Corsairs, and P-38 Lightnings arrived en masse 
in the latter half of the war.
    The Mikoyan-Gurevich MiG-15 was a Soviet swept-wing jet 
fighter that dominated early stages of the Korean War. It had 
significant advantages over U.S. jets, including a higher 
ceiling, faster acceleration and rate of climb, better turning 
radius, and a more powerful machine gun, until the F-86 came 
along and generated a 12-to-1 kill ratio against the MiGs.
    Development of miniaturizing technologies in the 1980s and 
1990s led the Air Force to invest heavily in remotely piloted 
aircraft technology that provided an unprecedented 
intelligence, surveillance, and reconnaissance (ISR) advantage 
in capabilities and an asymmetric advantage over our 
adversaries.
    So as we look to the TACAIR of the future, the Air Force is 
working to ensure we maintain our Nation's freedom of action in 
the most effective and efficient way.
    As the subcommittee specifically requested, I have detailed 
how we are going to deal with the delay in the planned delivery 
of the F-35 JSF program in my written testimony. Because these 
delays do increase our reliance on our legacy fighter fleet and 
our ability to maintain that fleet. We have looked at ways to 
extend the service life of that fighter fleet and modernize 
combat capability.
    The F-16 SLEP is but one example of that effort to mitigate 
the fighter force shortfall, and I stand ready to address any 
of those mitigation efforts during testimony.
    As we look at the QDR and what is required of us now and in 
the future, the Air Force is committed to working with our 
partners to determine the right procurement, sustainment, and 
retirement of our tactical aircraft to ensure we will be 
successful across the full range of military operations in the 
future.
    I thank the subcommittee for allowing me to appear before 
you today, for your continued support for all of your airmen 
around the world. I ask that my written statement be accepted 
into the written record and I look forward to your questions 
today. Thank you, sir.
    [The prepared statement of General Carlisle follows:]
    Prepared Statement by Lt. Gen. Herbert J. (Hawk) Carlisle, USAF
                            i. introduction
    Chairman Lieberman, Ranking Member Brown, and distinguished members 
of the subcommittee, thank you for calling this hearing, and for the 
opportunity to provide you with an update on Air Force modernization 
efforts and other matters important to our Air Force and to the Nation. 
The Air Force is fully engaged in operations across the globe, 
including overseas contingency operations, supporting the combatant 
commanders, and enabling them to successfully execute their missions. 
In the coming year, we will assess how the fiscal year 2012 budget 
request aligns with standing operational requirements and future needs 
of the entire Air Force. The Secretary of Defense, in the recent 2010 
Quadrennial Defense Review (QDR), set four objectives to guide our 
current actions and future planning: prevail in today's wars, prevent 
and deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force. The Air Force is vectoring to meet these objectives, balancing 
risk appropriately, and preparing to prevent, prevail, and preserve 
well into our Nation's future.
    We frame our decisions and recommendations using the 2010 QDR and 
the Air Force's top five priorities, established by the Secretary and 
Chief of Staff of the Air Force. I understand your focus for this 
hearing will be the F-35 program and Air Force programs and plans to 
accommodate delays in the F-35 program. Our rapidly aging aircraft 
fleet drives our urgent need to balance between acquiring new inventory 
and sustaining our current fleet, while ensuring that conventional 
strike and air superiority are adequate for executing the National 
Military Strategy with an acceptable level of risk. I look forward to 
discussing how we can match the requirements with available resources 
in order to execute the National Military Strategy.
                   ii. contributions of our air force
    Today, the Air Force flies and fights in air, space, and 
cyberspace--globally and reliably--as a valued member of our joint and 
coalition teams. Nearly 37,000 airmen are deployed to 135 locations 
across the globe, with over 29,000 in and around Afghanistan and Iraq, 
as we unwaveringly do whatever it takes to prevail in today's wars. 
Airmen, soldiers, sailors, and marines who cross outside the wire do so 
with the asymmetric advantage of armed overwatch, globally integrated 
intelligence, surveillance, and reconnaissance, combat search and 
rescue, and aero-medical evacuation. Last year the Air Force conducted 
more than 45,000 sorties supporting Operation Iraqi Freedom/New Dawn 
and almost 101,000 sorties supporting Operation Enduring Freedom, 
delivered over 1.78 million passengers and 712,000 tons of cargo, and 
employed almost 2,580 short tons of munitions. Additionally, we have 
transported nearly 86,000 patients from the U.S. Central Command area 
of responsibility. An additional 57,000 total force airmen are forward 
stationed overseas providing capabilities in direct support of our 
combatant commander requirements. From home stations here in the United 
States, approximately 218,000 airmen provide daily support to combatant 
commanders' worldwide operations, including standing nuclear alert, 
commanding and controlling our satellites, controlling remotely piloted 
aircraft, analyzing intelligence, surveillance and reconnaissance data 
and much more. On the home front, since September 11, 2001, the Air 
Force has flown over 60,700 total sorties under Operation Noble Eagle, 
including 43,000 fighter sorties, 11,800 tanker sorties, and 1,900 
early warning sorties. As a testament to the total force, the Air 
National Guard has flown more than 65 percent of these sorties and 
currently operates 16 Air Sovereignty Alert sites. As we continue to 
accomplish our current mission sets and plan for future threats, we 
must remain mindful of the increasing age and costs of operating our 
air fleet. Our Air Force leadership is scrutinizing programs and 
budgets to find acceptable solutions to meet growing demands that are 
competing for limited funds.
                    iii. fighter aircraft shortfalls
    During the fiscal year 2012 program review, the Air Force delivered 
to the Office of the Secretary of Defense (OSD), Cost Analysis and 
Program Evaluation the Service's moderate risk fighter force structure 
requirement of 1,200 primary mission aircraft and 2,000 total aircraft. 
A comprehensive review of the current and projected force structure 
revealed a total aircraft shortfall of approximately 3-5 percent 
through the Future Years Defense Program. This shortfall will be 
mitigated through aggressive management of F-35 production, legacy 
fleet review and sustainment, along with selected service life 
extension program (SLEP) and modernization program. F-35 program status 
remains the key variable in the fighter force structure forecast as the 
Air Force transitions to a fifth-generation fighter capability. Current 
Air Force mitigation options preserve decision space as we carefully 
monitor program status and impending decision points.
    The Air Force performs regular, comprehensive fighter force 
structure reviews that incorporate information from fleet viability 
boards, ongoing and scheduled full-scale durability tests and the 
latest real-world aircraft engineering data. A review is currently 
underway and will provide modified fighter shortfall numbers within the 
next several months. Shortfall mitigation will include executing funded 
sustainment and fleet management actions for older F-16 Block 25, 30, 
and 32 aircraft, newer F-16 Block 40/50 service life extension and 
targeted modernization, and examination of the overall force structure 
to ensure viable warfighting capabilities are maintained.
               iv. status of combat aircraft acquisition
Fighter Force
    The average age of all Combat Air Force aircraft is 21.3 years. The 
assessment of our aircraft's longevity is complicated by the fact that 
we are currently flying the oldest Air Force fleet in our history and 
using them longer and more frequently than was envisioned during their 
design as a result of over 20 years of continuous combat operations. 
This presents considerable challenges in a difficult fiscal 
environment.
    As we fulfill, and in some cases extend, the service lives of our 
aircraft it is important to ensure not only the structural integrity of 
the airframe, but also the aircraft's viability to perform mission 
tasks. Modernization will be a key piece of any force structure 
forecast due to the proliferation of technology and ever changing 
mission environment. Actions to extend and modernize the legacy fleet 
are a bridge to 5th generation capabilities and are not considered 
replacement actions.
    A-10
    The A-10 provides our Joint Force Commanders lethal, precise, 
persistent, and responsive firepower for close air support and combat 
search and rescue. It has performed superbly in Operations Desert 
Storm, Allied Force (OAF), Enduring Freedom (OEF), and Iraqi Freedom 
(OIF). However, the A-10's age and high operations tempo have taken a 
toll on the fleet. The A-10 fleet's aircraft availability for fiscal 
year 2010 was 52 percent.
    The Air Force plans to retain the venerable A-10 fleet beyond 2030 
based on implementation of the proper care, investment, and fleet 
management recommendations specified by a 2006 Fleet Viability Board. 
The fiscal year 2012 President's budget (PB) invests approximately $500 
million across the Future Years Defense Program (FYDP) for funding 
modernization, sustainment, and life extension programs for the A-10. 
In fiscal year 2007 the A-10 fleet began a robust depot-level 
modification. This year we begin installing ``thick-skin'' wings on 230 
A-10s--nearly two-thirds of the fleet, and begin improving the fuselage 
structure. The Air Force is also modernizing 347 A-10s to the `C' 
configuration anticipating completion by June of 2011. This upgrade 
includes precision engagement modifications to integrate targeting pods 
and digital data links into the aircraft avionics, enabling use of 
global positioning system-aided munitions such as the Joint Direct 
Attack Munition (JDAM) and Wind Corrected Munitions Dispenser. We also 
integrated a digital data link and advanced targeting pods with video 
downlink and replaced monochrome cockpit displays with color multi-
function displays, installed new pilot throttle and stick controls, a 
moving map capability and a mass-memory upgrade. Finally, we integrated 
beyond line of sight radios for faster communication with ground units, 
forward controllers, and command and control centers. Together, these 
modifications will allow the A-10 to excel at close air support for the 
next two decades.
    F-15 C/D
    The F-15 C/D air superiority fighter averages over 25 years of age. 
The fiscal year 2012 President's budget (PB) invests approximately $1.1 
billion for the modernization and sustainment of the F-15C/D fleet. We 
project the F-15C/D fleet will remain viable until 2025-2030 with 
potential for an airframe service life extension following full-scale 
fatigue testing. This test is underway and will conclude in fiscal year 
2014. The Air Force manages the fleet through scheduled field and depot 
inspections under an individual aircraft tracking program. For fiscal 
year 2010, the F-15C/D's aircraft availability was 64 percent.
    We continue to modernize our F-15 fleet with Active Electronically 
Scanned Array (AESA) radars, and a more capable aircraft mission 
computer. We expect these efforts to enable the 176 F-15C/D ``long-term 
fleet'' to operate safely and effectively through at least 2025 as 
determined by the full-scale fatigue test. We may extend ``long-term'' 
status to the entire 250 aircraft inventory based on requirements of 
the future force structure.
    F-15E
    The F-15E fleet, with an average age of over 16 years, continues to 
provide support for ongoing operations in Afghanistan and Iraq. Like 
the A-10, the F-15E performed superbly in Operations Desert Storm, OAF, 
OEF, and OIF. In 2009, F-15Es delivered 54 percent of the 2,000 lb. 
JDAMs and 29 percent of the 500 lb. JDAMs employed in that area of 
operations. Aircraft availability for the F-15E in fiscal year 2010 was 
62 percent.
    The Air Force will maintain and improve the F-15E's ability to 
rapidly engage and destroy time-sensitive targets. The fiscal year 2012 
President's budget investment across the FYDP is approximately $1.3 
billion for F-15E modernization and sustainment. This includes adding 
secure radios for faster communications with ground units and forward 
controllers, integrating the latest precision weapons to hit targets 
accurately and reduce collateral damage, and adding a helmet mounted 
cueing system that will reduce the F-15E's time to engage a target by 
up to 80 percent. Finally, we are adding the state-of-the-art AESA 
radar system that advances capabilities to identify and engage targets 
as well as share information with other aircraft. The Air Force expects 
the F-15E to be an integral part of the Nation's force through at least 
2035. A full-scale fatigue test, due to be complete in 2015, will 
provide useful data regarding the feasibility of a service life 
extension.
F-16
    Our multi-role F-16 comprises the majority of the fighter fleet. 
The fiscal year 2012 President's Budget invests approximately $858 
million across the FYDP for F-16 modernization, sustainment, and life 
extension. F-16 fleet aircraft availability has dropped 5.5 percent 
since fiscal year 2005. Drivers include the Falcon STAR (all blocks) 
structural integrity program, engine inlet ram (all blocks), lower wing 
skin cracking (blocks 25/30/32), and aft cockpit corrosion for two seat 
aircraft. We expect these drivers to continue to impact aircraft 
availability through fiscal year 2015. F-16 fiscal year 2011 aircraft 
availability to date is 66.6 percent. Extensive flight hours and 
stressing mission profiles resulted in the need for the FalconStar 
structural modification to the F-16. This upgrade program scheduled to 
complete in fiscal year 2014, replaces known life-limited structural 
components and maintains the original design airframe life of 8,000 
flight hours. Structural upgrades in the F-16 SLEP include rework and 
replacement to extend airframe structural service life by 25 percent 
(6-8 years).
    In other inspections, maintainers have found bulkhead cracks in 
approximately 67 percent (428 of 642) of our Block 40-52 F-16 aircraft. 
285 aircraft have been repaired and 82 aircraft had the bulkheads 
replaced with 1 more in progress. An additional 54 aircraft continue to 
fly with increased inspections to measure crack growth. Similar to the 
F-15, the Air Force will start conducting a full-scale durability test 
for the F-16 in fiscal year 2011 to enable F-16 Block 40-52 
airworthiness certification to be extended from the current 9,000 
actual flight hours to 11,000 plus actual flight hours. The fiscal year 
2012 budget request adds $15 million in fiscal year 2012 to begin 
design and development of structural and avionics capability 
modifications for the Block 40-52 fleet to be responsive to the Air 
Force's total fighter requirement. This funding is in addition to the 
$10.6 million requested to continue the full scale durability test.
Fifth-Generation Fighters
    Fifth-generation fighters like the F-22A and the F-35 are key 
elements of our Nation's defense and deterrent capability. Hostile 
nations recognize that U.S. airpower can strike their vital centers 
with impunity which enhances all other U.S. Government instruments of 
power. This is the timeless paradox of deterrence; the best way to 
avoid war is to demonstrate to your adversaries that you have the 
capability and will to defeat them. The F-22A and F-35 represent our 
latest generation of fighter aircraft. Both aircraft are necessary to 
maintain a margin of superiority that permits our air and ground forces 
freedom of maneuver and attack. The F-22A and F-35 each possess unique, 
complementary, and essential capabilities that provide the synergistic 
effects across the spectrum of conflict. OSD-led 2006 QDR Joint Air 
Dominance study underscored that our Nation has a critical requirement 
to recapitalize TACAIR forces. Legacy 4th generation aircraft simply 
cannot survive to operate and achieve the effects necessary to win in 
an integrated, anti-access environment.
    F-22A Future Capabilities & Modifications
    The F-22A Raptor is the Air Force's primary air superiority fighter 
providing unmatched capabilities for air supremacy and homeland defense 
for the Joint team. The multirole F-22A's combination of speed, 
stealth, maneuverability and integrated avionics ensures this 
remarkable aircraft accesses and survives high-threat environments. Its 
ability to find, fix, track, and target enemy air- and surface-based 
threats ensures air dominance and freedom of maneuver for all joint 
forces.
    Similar to every other aircraft in the U.S. inventory, there is a 
plan to regularly incorporate upgrades into the F-22A to ensure it 
remains the world's most dominant fighter in the decades to come. The 
F-22A modernization program consists of two major efforts that will 
ensure every Raptor maintains its maximum combat capability: the Common 
Configuration Program and a pre-planned product improvement program 
which includes Increments 2, 3.1, and 3.2A, 3.2B, and 3.2C.
    As of 6 May 2011, the Air Force had accepted 170 F-22A aircraft out 
of a programmed delivery of 187. We will continue to upgrade the F-22A 
fleet under the Joint Requirements Oversight Council-approved Increment 
3 upgrade designed to enhance both air-to-air and precision ground 
attack capability. Increment 3.1 is undergoing FOT&E right now. This 
upgrades the APG-77 AESA radar for synthetic aperture radar ground 
mapping capability, provides the ability to self-target JDAMs using on-
board sensors and allows F-22As to carry and employ eight Small 
Diameter Bombs (SDBs). The Air Force is fielding Increment 3.1 this 
year.
    Responding to current threat assessments, the next upgrade will be 
Increment 3.2 A which will complete development in fiscal year 2014. 
Increment 3.2 A is a software-only upgrade and provides significant 
additional Electronic Protection, Link 16 improvements, and a better 
Combat Identification capability. In the future, F-22As will receive 
the Increment 3.2B and Increment 3.2C upgrades which feature improved 
SDB employment capability, improved targeting using multi-ship geo-
location, additional Electronic Protection and Combat ID, Automatic 
Ground Collision Avoidance System (Auto GCAS) and the capability to 
employ our enhanced air-to-air weapons (AIM-120D and AIM-9X). Increment 
3.2B should begin to field in fiscal year 2017. The current F-22A 
modernization plan will result in final fleet composition of 34 Block 
20 aircraft used for test and training, 63 Block 30s, 86 Block 35s, and 
2 Edwards AFB-test coded aircraft. Both Block 30 and Block 35 aircraft 
will accept Increment 3.1 and beyond.
    F-22A Procurement Plans
    The F-22A production program is currently delivering Lot 9 aircraft 
ahead of scheduled contract delivery dates at a rate of about two per 
month. When the plant delivers the last Lot 10 aircraft in 2012, we 
will have completed the program of 187 Raptors. The average unit cost 
for the 60 aircraft in the multiyear procurement was $142.6 million. 
The Lot 10 unit flyaway cost is estimated at $153.2 million. This is 
$10.6 million higher than under the multiyear procurement due to higher 
materiel costs for a much smaller lot buy, loss of the multiyear 
procurement savings in parts and labor and inflation.
    F-35A
    The multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
partner nations. It will also serve to fulfill our commitment to NATO's 
dual-capable aircraft mission. The fiscal year 2012 budget includes 
$5.3 billion for continued development and procurement of 19 F-35A 
Conventional Take-Off and Landing (CTOL) production aircraft.
    The F-35A program team achieved a number of accomplishments during 
2010, including the first flight of the first mission systems aircraft, 
arrival of the first four F-35A test aircraft at Edwards Air Force 
Base, CA, completion of F-35A static structural testing 5 months ahead 
of schedule with no failures, delivery of the first Low Rate Initial 
Production (LRIP) F-35As to Edwards AFB, roll-out of the second lot of 
LRIP F-35As, completion of 410 total F-35 test flights in 2010 of which 
171 were F-35A flights, negotiation of the first fixed price type 
production contract (LRIP Lot 4-10 CTOL aircraft), and the signing of a 
Letter of Offer and Acceptance to procure the F-35A by Israel. Good 
progress continued in 2011, with the arrival of AF-7 (the second 
production F-35A) at Edwards AFB on 6 May, F-35A test flights tracking 
ahead of the plan, the beginning of LRIP Lot 5 contract negotiations, 
and preparing for training at Eglin AFB which is scheduled to start in 
late summer 2011.
    The Air Force also announced the preferred alternatives for F-35A 
operational and training bases. Those bases are Hill Air Force Base, 
UT, and Burlington Air Guard Station, VT, for operational squadrons and 
Luke Air Force Base, AZ, for training. The program continues to 
experience challenges as it transitions from development to production 
despite the significant accomplishments. The Secretary of Defense 
announced a program restructure in February 2010. The restructure 
resulted in increased funding for development and production in 
accordance with Joint Estimate Team II estimates, reduced procurement 
by 122 aircraft over the FYDP in the fiscal year 2011 PB, upgraded the 
Program Executive Officer position from a two-star to three-star flag 
rank, extended development by 13 months, added an additional LRIP lot 
prior to entering full rate production, and reduced the ramp rate to 
less than 150 percent of the previous year's production. Program cost 
growth, including growth from the restructure, resulted in a critical 
Nunn-McCurdy breach in March 2010. The Under Secretary of Defense for 
Acquisition, Technology, and Logistics subsequently certified the 
program in accordance with the Nunn-McCurdy statute, allowing the F-35 
program to continue. The Department of Defense (DOD) tasked the program 
office to perform a bottom-up review of the remaining development 
effort after the program Nunn-McCurdy certification. This Technical 
Baseline Review (TBR), completed in November 2010, became the basis for 
additional program restructuring within the fiscal year 2012 PB. The 
TBR called for an additional $4.6 billion to complete the Joint 
development effort. To fund this new development effort, and 
recognizing a continued lagging performance in production, the DOD 
reduced procurement by 124 aircraft over the FYDP in the fiscal year 
2012 PB, 57 of which were F-35As.
    The Commander, Air Combat Command (COMACC) remains the Air Force's 
decision authority for declaring the F-35A's initial operational 
capability (IOC). His decision will be based on achieving sufficient 
levels of readiness in both capability and capacity, and will not be 
driven by a specific date. Last June, COMACC detailed the specific 
capability and capacity criteria required for F-35A IOC. These included 
validation and acceptance of the F-35 Operational Requirements 
Document-compliant Block 3 mission system software through the Initial 
Operational Test and Evaluation process. This will demonstrate the Air 
Force's ability to employ the F-35A in Offensive Counter Air and 
Suppression/Destruction of Enemy Air Defense missions in Anti-Access/
Area Denied environments. In addition, Air Force pilots and maintainers 
must be validated as trained and ready to conduct operations, with all 
operations and logistical support elements ready and in place. Last 
June, based on this criteria, COMACC estimated the Air Force would be 
able to declare the F-35A IOC in 2016.
    The Air Force's position on IOC remains unchanged. We will declare 
IOC for our F-35As based on achieving the required ORD-compliant 
capability and capacity criteria, and not on a specific date. We are 
currently analyzing the impacts to program delivery timelines due to 
the most recent program restructure, and the results of this analysis 
will be available later this year. When this analysis is complete, the 
Air Force will reevaluate our IOC estimate, but we currently expect up 
to a 2-year delay.
    Joint Strike Fighter (JSF) Alternate Engine Program
    The Air Force's position regarding the JSF alternate engine program 
is that a second engine is unnecessary, too costly, and risks diverting 
resources from production. The fiscal year 2012 President's Budget does 
not request funding for the development and procurement of the F136 
alternate engine. The Air Force and Navy continue to execute the 
funding appropriated by Congress in the previous budgets to continue 
the F136 program.
    The Office of the Secretary of Defense for Cost Assessment and 
Program Evaluation estimated that DOD will require approximately $2.9 
billion to take the F136 engine to competition in fiscal year 2017, 
including development, directed buys, and the necessary logistics 
support. Continued funding for the F136 engine carries cost penalties 
to both the F135 and F136 engines in the form of reduced production 
line learning curves and inefficient economic order quantities. The 
department concludes that maintaining a single engine supplier provides 
the best balance of cost and risk. We believe the risks associated with 
a single source engine supplier are manageable due to improvements in 
engine technology and do not outweigh the investment required to fund a 
competitive alternate engine.
                           v. aviation safety
    The Air Force continues to pursue safety excellence in order to 
preserve the assets required to execute our mission. The Secretary of 
Defense goal for 2012 is to reduce by 75 percent the 2002 statistics 
for Class A mishaps and fatalities, and the number of aircraft 
destroyed. Last year, the Air Force incurred 14 Class A mishaps, the 
fewest in the last decade, and as of May 17, 2011 has incurred 8 Class 
A mishaps. In 2010, the Air Force incurred eight aircraft losses, and 
one to date in fiscal year 2011. The Air Force will continue to place a 
heavy emphasis on safety in order to meet or exceed the established 
goals.
                              vi. closing
    The Air Force stands ready to win today's joint fight and plan for 
tomorrow's challenges. We are committed to working together to 
determine the right procurement, sustainment and retirement strategy to 
remain prepared for the current fight as well as posturing for future 
demands. Dominance of air, space, and cyberspace continues to be 
requisite to the defense of the United States. USD/AT&L, Ash Carter 
testified that: ``I support, as does the Secretary, the initiatives 
Congress directed when it unanimously passed the Weapon Systems 
Acquisition Reform Act (WSARA) of 2009. Acquisition reform is one of 
the DOD's High Priority Performance Goals presented in the Analytic 
Perspectives volume of the President`s fiscal year 2011 budget. The 
Department is moving out to implement these initiatives.'' The Air 
Force TACAIR Program actions described above are consistent with WSARA 
implementation and DOD`s Acquisition Reform goal. We appreciate your 
continued support and look forward to working in concert to ensure our 
decisions enable us to strengthen our Air Force to meet future 
requirements.

    Senator Lieberman. Thanks, General Carlisle. Your statement 
and that of the others will be entered into the record in full.
    Next we're going to go to Lieutenant General Terry Robling, 
Deputy Commander for Aviation, U.S. Marine Corps. Thanks, 
General, for being here.

STATEMENT OF LT. GEN. TERRY G. ROBLING, USMC, DEPUTY COMMANDANT 
 FOR AVIATION, U.S. MARINE CORPS; ACCOMPANIED BY RADM DAVID L. 
  PHILMAN, USN, DIRECTOR, WARFARE INTEGRATION/SENIOR NATIONAL 
                   REPRESENTATIVE, U.S. NAVY

    General Robling. Chairman Lieberman, Ranking Member Brown, 
on behalf of Rear Admiral Philman and with your permission, 
I'll do a combined statement.
    Senator Lieberman. Good.
    General Robling. It's a privilege for us to appear before 
you today to discuss the 2012 budget submission as it relates 
to Navy and Marine Corps tactical aviation. Thanks to the 
consistent support of the U.S. Congress, your marines and 
sailors are performing their missions around the clock and 
around the world knowing that their country is behind them.
    The Navy is dedicated to the F-35 program. The JSF is vital 
to our national security. It will be an integral element of our 
Navy's persistent presence and multi-mission capability and to 
the Marine Corps' ability to conduct expeditionary and carrier 
operations. Continued funding and support from Congress for 
this program is of utmost importance.
    The Commandant of the Marine Corps and the Chief of Naval 
Operations (CNO) strongly support the actions that Vice Admiral 
Venlet and his team have taken over the past year to keep this 
program on track. They have conducted a rigorous assessment of 
this program, the technical baseline review, and a team of more 
than 120 experts determined the F-35 systems, development, and 
demonstration (SDD) phase should be restructured, variants of 
the F-35 aircraft decoupled, and the production ramp reduced 
while the final assembly process in Fort Worth is still 
maturing.
    DOD now has a greater insight into the contractor's 
production performance. We took the prudent course in delaying 
additional procurement, ensuring that engineering fixes are 
identified and incorporated early into the production cycle. 
During the next 2 years of F-35 scrutiny, Admiral Philman and I 
will be personally involved with the program and closely 
supervising it.
    The Navy is taking delivery of four B model and two C model 
SDD F-35s to test, with two more expected this summer. All 
three variants of this aircraft are in testing now and this 
testing is going extremely well. The B model has completed more 
than 200 short takeoffs and more than 100 vertical landings and 
150 slow landings, and we are moving steadily toward 
preparation for shipboard trials of that aircraft in the fall 
of this year. The C model JSF is also proceeding smoothly 
towards shipboard integration and this summer the F-35C team 
will begin carrier suitability testing at Lakehurst, New 
Jersey.
    The F135 engine now has more than 1,300 hours in the air 
and more than 17,000 hours in test. Overall, the Navy is very 
pleased by the changes Vice Admiral Venlet has implemented in 
the program and his personal approach towards transparency, 
realism, and strict engineering discipline is very much 
appreciated.
    As we plan for the arrival of the extraordinary new 
warfighting capability of the JSF, we are taking careful and 
systematic steps to manage our current TACAIR assets. This 
includes a process of assessment, inspection, and investment in 
those legacy aircraft we have today. Our use of the inventory 
forecasting tool, high flight hour inspections, and the F-18 
service life management program will keep those aircraft flying 
safely.
    By managing our program of investment in current assets and 
with the help of Congress, our predictions for a strike fighter 
shortfall have fallen by half from last year's estimate of 
around 100 aircraft to a current estimate of 52. The Navy 
assesses and the Office of Cost Assessment and Program 
Evaluation agrees, that this is a manageable number as we work 
to extend the service life of up to 150 of our A through D 
legacy Hornets out to 10,000 hours in anticipation of the 
arrival of the JSF.
    The Navy and Marine Corps are maximizing those planes in 
daily operations. This month we signed a new tactical aircraft 
integration memorandum of agreement updating and revalidating 
our commitment to sharing fighter attack aircraft in forward 
deployments. That has proven a remarkably effective model for 
the planning and execution of worldwide tactical aviation 
employment and we are pleased to continue as a team to maximize 
these assets.
    In the defense of our maritime Nation, the Navy and Marine 
Corps team have maintained a forward-deployed seaborne presence 
for 235 years. An example of the need of these naval aircraft 
is action in Libya just 2 months ago. Six of our Harriers, 
flying as part of a Marine expeditionary unit aboard a Navy 
amphibious ready group just off the North African coast, were 
up and flying sorties from the first hours of that campaign. 
This is a demonstration of the value of forward naval forces 
and of the flexibility of tactical naval aviation.
    Now in our 10th year at war, your Navy-Marine Corps team is 
poised to meet future challenges at sea and around the world. 
The significant achievements of naval aviation are always 
focused on and are in support of our men and women in combat. 
On behalf of the more than 40,000 marines working hard on the 
aviation side of our air-ground team and of the 80,000 sailors 
working hard for the U.S. naval aviation enterprise, thank you 
for your dedication and oversight. We are doing what America 
wants us to be doing, providing forward presence with agile and 
capable forces.
    Thank you for this opportunity to speak with you today. We 
look forward to answering any questions you may have.
    [The joint prepared statement of General Robling and 
Admiral Philman follows:]
 Joint Prepared Statement by Lt. Gen. Terry G. Robling, USMC, and RADM 
                         David L. Philman, USN
                             naval aviation
    Mr. Chairman, Senator Brown, and distinguished members of the 
subcommittee, we thank you for the opportunity to appear before you 
today to discuss the Department of the Navy's (DoN) tactical aviation 
programs. Our testimony today will provide background and rationale for 
the Department's fiscal year 2012 budget request for tactical aviation 
programs.
    The United States is a maritime nation with global 
responsibilities. For 235 years, our Navy and Marine Corps' persistent 
presence and multi-mission capability have been the representation of 
U.S. power across the global commons. Our naval tradition informs our 
decisions today, as we remain today firmly in a forward posture for 
engagement and action. We continue to build on our ability to come from 
the sea to conduct our missions rapidly across the range of military 
operations. We are an agile and amphibious power projection force in 
readiness, and such agility requires that the tactical aviation arm of 
our naval expeditionary forces remain strong.
    The fiscal year 2012 President's budget requests funding for 223 
aircraft including 13 F-35 Joint Strike Fighters for both the Navy and 
the Marine Corps, 28 F/A-18 E/F fighter attack planes and 12 EA-18G to 
continue replacing the EA-6B. The Department has also requested funds 
for the demonstration of the Navy Unmanned Combat Aerial System. The 
DoN fiscal year 2012 aircraft program budget is funded for planned 
program execution throughout the Future Years Defense Program (FYDP).
                       tactical aviation (tacair)
TACAIR Inventory Management
    The fiscal year 2012 President's budget request includes a DoN 
reduction of 67 F-35B/C aircraft, the addition of 41 F/A-18 E/F 
aircraft and the service life extension of 150 F/A-18 A-D aircraft. In 
2010, we estimated the DoN Strike Fighter Shortfall (SFS) to be about 
100 aircraft; however, the President's budget for 2012 reduces the 
DoN's projected shortfall to a manageable level of 65 aircraft, with a 
peak in 2018. On April 15, 2011 in the Department of Defense and Full-
Year Continuing Resolution Appropriations Act 2011, Public Law 112-10, 
Congress added nine F/A-18 E/F to the program of record of 556 aircraft 
shown in the fiscal year 2012 President's budget request, further 
reducing the shortfall to 52 aircraft, with a peak in 2018.
    This reduction in the shortfall projection is primarily the result 
of the Navy plan to transition three additional squadrons from F/A-18Cs 
to F/A-18Es and then redistribute the F/A-18C aircraft to requirements 
across the DoN. The plan was made possible with the procurement of 41 
additional Super Hornets, the redistribution of existing aircraft, and 
careful management of aircraft service life. These efforts will allow 
the DoN to have the operational tactical aviation strength required to 
meet our service commitments.
    The DoN continues to balance carefully our investment portfolio, 
managing meticulously the flight hours and fatigue life of our tactical 
aircraft while we monitor new aircraft coming online. Since 2004, we 
have provided fleet users guidance and actions to optimize aircraft 
utilization rates while maximizing training and operational 
opportunities. The Inventory Forecasting Tool (IFT) is used to project 
the combined effects of TACAIR transition plans, attrition and pipeline 
requirements on the total strike fighter aircraft inventory. The IFT 
has been updated with the most recent data to provide a current 
forecast of the strike fighter inventory compared to the existing 
requirements. Critical variables used in the tool include F-35 
deliveries, force structure, usage rates, life limits, depot turnaround 
time, Fatigue Life Expenditure (FLE), arrested and field landings and 
catapult launches. Our latest shortfall prediction of 52 aircraft is 
manageable and is based on fiscal year 2012 President's budget.
    We continue to perform High Flight Hour (HFH) inspections to extend 
the service life limits of the F/A-18 A-D aircraft from 8,000 to 8,600 
flight hours. Engineering analysis completed in 2009 revealed that 
extensive areas of the legacy F/A-18 airframe would require Service 
Life Extension Program (SLEP) inspections and modifications in order to 
reach the service life goal of 10,000 hours. The F/A-18 A-D SLEP 
engineering development phase completes in 2012 and the induction of 
aircraft begins. The fiscal year 2012 President's budget includes a 
request to SLEP 150 aircraft throughout and beyond the FYDP. The HFH 
and SLEP efforts are designed effectively to extend the F/A-18 A-D 
service life to 10,000 hours, thereby mitigating the impacts of the 
SFS. Continued investment in Program Related Engineering and Program 
Related Logistics funds within the Operations and Maintenance, Navy 
(O&M,N) accounts is critical for sustaining the combat relevancy of the 
DoN's legacy platforms through the TACAIR transition.
F-35/Joint Strike Fighter
    The DoN remains strongly committed to both the F-35B Short Take-Off 
and Vertical Landing (STOVL) and F-35C Carrier Variants of the Joint 
Strike Fighter, as they are essential to our long-term Naval and Marine 
Corps aviation strategy and to the Nation's security. Despite the 
recent program challenges, we believe there is no program, or 
combination of programs, that can provide more affordably to the 
combatant commanders the warfighting capabilities they will need to 
protect the Nation's global interests. F-35 is planned to supersede the 
Department's aging TACAIR fleet by replacing the Navy and Marine Corps' 
legacy F/A-18 A-D Hornets, the AV-8B Harrier and EA-6B Prowler 
aircraft. The integration of F-35B and F-35C aircraft will provide the 
dominant, multi-role, fifth-generation capabilities needed across the 
full spectrum of combat operations to deter potential adversaries and 
enable future Navy and Marine aviation power projection.
    The Department of Defense (DOD) has recently completed the most in-
depth, bottoms-up technical review of the program to date. The F-35 
Technical Baseline Review (TBR) involved more than 120 technical 
experts investigating all aspects of the program. Based on this review, 
the Secretary of Defense determined the F-35 Systems Development and 
Demonstration (SDD) phase should be restructured; variants of the F-35 
aircraft decoupled; and the production ramp reduced to mitigate 
concurrency risk in design and production. The fiscal year 2012 
President's budget requests $1.3 billion in Research, Development, 
Test, and Evaluation (RDT&E) and $3.1 billion in Aircraft Procurement, 
Navy (APN) for 13 F-35 aircraft (6 F-35B and 7 F-35C) with associated 
aircraft hardware and spares. These resource requirements align with 
the Secretary of Defense's F-35 program restructure.
    The TBR identified program challenges affecting all variants of the 
F-35, to include software development, flight test progress and 
production delays. The Navy's F-35C is progressing satisfactorily while 
select F-35B-unique systems, such as the auxiliary air-inlet doors and 
roll post actuator heating, require additional engineering. The 
Secretary of Defense is imposing 2 years of additional government and 
industry scrutiny to overcome these challenges to ensure the Marine 
Corps is delivered the warfighting capabilities needed to defend the 
Nation. The Commandant of the Marine Corps is personally engaged in the 
oversight of the STOVL variant progress, and since January 2011 we have 
experienced substantial improvements in flight test and resolution of 
the STOVL technical challenges that have exceeded the TBR predictions. 
The Department's leadership is assessing continually F-35B progress, 
and will make an informed decision regarding the F-35B development and 
production as early as possible, but no later than the 2-year limit 
directed by the Secretary of Defense.
    With the restructure and technical challenges before us, the DoN is 
assessing the implications to F-35B and F-35C Initial Operational 
Capability (IOC). The Navy and Marine Corps require that the aircraft 
attain service-specific mission oriented capabilities, as defined in 
the F-35 Operational Requirements Document (ORD), prior to considering 
declaration of IOC. The Marine Corps requires a Block 2B weapon system 
capability and the Navy requires a fully ORD-compliant Block 3C 
capability. Implementation of the TBR findings and development of 
detailed test schedules are still in progress. Once the findings have 
been assessed, test schedules further matured, and all information 
incorporated into a new Integrated Master Schedule, the services will 
then assess and establish IOC dates for each F-35 variant based on 
program progress and the Joint Program Office's ability to meet our 
service requirements.
    F-35 technical reviews have identified two critical technologies 
that were rated below the threshold for MS-B. One, the lift fan anti-
icing system, has now been matured adequately to the necessary 
technical readiness level (TRL-6). The other, the Helmet Mounted 
Display System (HMDS), continues to experience technical difficulties. 
The program is implementing a dual-path strategy to reduce risk and 
inject competition into the HMDS development. The dual path has not 
alleviated the requirements of the ORD but will provide an interim 
warfighting capability while the ORD-compliant solution is matured.
    Developmental aircraft of all three variants are now in flight 
testing. The program now has 10 test aircraft operating at 3 test 
sites, with 2 more Navy/Marine Corps developmental test aircraft 
planned to be delivered this year (BF-5 and CF-3). Each of the Patuxent 
River Naval Air Station (NAS) F-35B test assets (BFs 1-4) have flown 
effectively in the conventional take-off, short take-off and vertical 
landing modes. BF-2 and BF-4 are currently undergoing a modification 
period in preparation for ship based testing later this year. Another 
F-35B completed tests in February to expand its speed envelope to 1.2 
Mach. To date the F-35B has completed over 100 vertical landings, over 
200 short take-offs and over 150 slow landings, and has completed 97 
percent of the unique vertical landing test points required for ship 
trials and ready-for-training certification.
    The Navy's CF-1 test aircraft ferried to NAS Patuxent River in 
November 2010 and has been completing early flying qualities envelope 
expansion. CF-2 completed its first flight in April and recently 
ferried to Patuxent River. CF-3 is undergoing final preparations and 
ground testing for a ferry later this summer. Drop testing of Navy's 
CG-1 aircraft, to simulate carrier landings of up to 26.4 feet per 
second, has been completed and has enabled detailed analysis and model 
validation. This same test article has been reconfigured for static 
testing and has conducted nearly 70 percent of the required static 
testing. These ground tests support our early efforts for ship 
integration and lay the foundation for jet blast deflector and other 
ship suitability testing this summer at Naval Air Engineering Station 
Lakehurst.
    As of May 15, 2011, the F135 engine program had completed a total 
of 16,055 hours of engine ground testing, and 1,362 flight test hours, 
for a SDD total of 17,417 hours. In 2010, the F135 propulsion 
contractor delivered the final flight test engine and the first 12 
production engines, which includes all the Low Rate Initial Production 
(LRIP) 1 engines and the start of LRIP 2. Notwithstanding this 
significant progress, there have been technical and cost challenges. In 
2010, the program began implementing plans to modify test aircraft to 
rectify an F135 afterburner ``screech'' problem, which prevents the 
engine from sustaining full thrust. These issues are now understood and 
modifications are in work for the flight test aircraft to complete 
flight envelope expansion on planned schedules.
    Contributing to the F-35B 2-year probation decision were STOVL-
unique propulsion system challenges, including those associated with 
roll-post thermal capabilities, driveshaft spacers, and clutch 
temperatures. Engineering solutions and incorporation plans will 
correct each of these propulsion system issues. With regard to engine 
affordability, the Secretary of Defense chartered a 2010 F-35 Engine 
Joint Assessment Team to investigate F135 propulsion costs and provide 
a `should-cost' objective. The propulsion team is implementing the 
recommendations with a focus in the coming year to ensure the engine 
manufacturer and the government continues to make the necessary 
investments to achieve F135 cost reduction goals.
    In support of the Secretary of Defense's position that the 
interests of the taxpayer, the military, and our partner nations, and 
the resource integrity of the overall F-35 program, are served best by 
not pursuing a second engine, the F136 Joint Strike Fighter engine 
contract was terminated on April 25, 2011.
    F-35 has been challenged this past year, and additional 
developmental challenges may arise, but we've seen flight test progress 
improve dramatically beyond expectations and technical challenges have 
been resolved quickly. Together, Navy and Marine Corps, we strongly 
support the F-35 program. It is essential to our long-term national 
security as the future backbone of our air superiority force and as the 
core of Navy and Marine aviation.
F/A-18 Overview
    There are 21 Navy Super Hornet squadrons totaling 420 F/A-18 E/Fs. 
There are 16 Navy and 13 Marine F/A-18 A-D squadrons totaling 628 
legacy A-D Hornets. Super Hornets and legacy Hornets have conducted 
over 148,000 combat missions in support of Operations Iraqi Freedom 
(OIF) and Enduring Freedom (OEF) since September 11, 2001. While 
deployed both ashore and at sea aboard our aircraft carriers, F/A-18s 
have brought significant precision ordnance and laser-guided munitions 
to the fight, and have employed thousands of rounds of 20 millimeter 
ammunition supporting forces during strafing runs. These aircraft 
continue to provide vital overwatch and direct support to our troops on 
the ground. The F/A-18 fleet continues to meet operational needs in the 
current conflicts. DoN Hornets have consistently met readiness and 
operational commitments. Naval Air Systems Command (NAVAIR) uses a 
Health of Naval Aviation database to store and track the actual 
utilization data of all the F/A-18s. Both the Legacy and the Super 
Hornet were procured with an objective of 20 years' time in service. 
The average legacy Hornet has just now reached that goal, while the 
Super Hornet is at almost 30 percent of its expected 20 year life. It 
is reasonable to conclude that most aircraft will exceed substantially 
their 20 years in service, based on current trends.
F/A-18 A/B/C/D (Legacy) Hornet
    The fiscal year 2012 President's budget request is $364.6 million 
in APN for the continuation  of  the  SLEP,  systems  upgrades  and  
obsolescence  programs  for  the  F/A-18 platform. As the F/A-18 
program transitions to the F/A-18 E/F and F-35, today's inventory of 
628 F/A-18 A/B/C/Ds will continue to comprise more than half of the 
DoN's strike fighter inventory until 2013. The funds requested will 
procure and install center-barrel modifications and SLEP kits, which 
will be a major contributor to extending the service life of select 
candidate aircraft from the F/A-18 C/D fleet to 10,000 flight hours. 
The Service Life Management Program (SLMP) continues to monitor and 
improve the health of the legacy F/A-18 A-D fleet through analyses of 
TACAIR inventories and the management of usage rates at the squadron 
level. The F/A-18 A-Ds have flown approximately 75 percent of the total 
flight hours available at the 8,600 hour limit. Approximately 70 
percent of the fleet is over 6,000 flight hours, with 18 aircraft over 
8,000 flight hours. SLEP of approximately 150 of these aircraft, to 
extend their service life to 10,000 flight hours, will be required to 
meet operational commitments out to 2023.
    In order to maintain a tactical advantage, we will continue to 
procure and install advanced systems ((Joint Helmet-Mounted Cueing 
Systems (JHMCS); Multi-Function Information Distribution System (MIDS); 
and LITENING for the Marine Corps) on selected F/A-18 A/B/C/D aircraft.
    The Marine Corps is upgrading 56 Lot 7-9 F/A-18As and 30 Lot 10/11 
F/A-18Cs to a Lot 21 avionics capability with digital communications, a 
tactical data link, JHMCS, MIDS and LITENING. The Marine Corps will 
also upgrade 72 F/A-18 A-D model APG-73 radars with the Expand 4/5 
upgrade, providing an enhanced Synthetic Aperture Radar (SAR) 
capability and improving further its all-weather capabilities. The 
Marine Corps anticipates these upgrades will enhance the current 
capabilities of these aircraft with the digital communications, 
tactical data link and situational awareness required for them to 
remain viable and relevant. The Marine Corps expects the F/A-18 (A++/C/
D) to remain in the active inventory until fiscal year 2022 and in the 
Reserve inventory until fiscal year 2023. The Marine F/A-18s are also 
employing the LITENING targeting pod in expeditionary operations 
including OEF. When combined with data link hardware, the LITENING pod 
provides real-time video to ground forces through Remotely Operated 
Video Enhanced Receiver (ROVER) and Video Scout ground workstations.
    The F/A-18 A-D Service Life Assessment Program (SLAP) is now 
complete and has identified that extensions of the airframe are 
possible with inspections and modifications. Based upon those results, 
SLEP, a three-phased program, has begun. SLEP Phase A is complete; it 
identified the critical safety of flight locations that needed 
immediate inspection and identified notional repair concepts to enable 
rough order of magnitude (ROM) cost estimates. SLEP Phase B is 
currently in work with NAVAIR and the original equipment manufacturer 
(OEM); this phase categorizes parts by criticality, develops tracking 
algorithms to define recurring inspection intervals, conducts vertical 
tail failsafe solutions and upgrades analytical tools necessary for the 
NAVAIR and OEM engineers to design repairs. Phase B is currently 90 
percent complete and should conclude in August 2011. SLEP Phase C, in 
planning, will finalize all remaining Phase B work and develop 
modifications and inspections as required. The Phase C estimated 
contract award date is summer 2011. The life extension of the F/A-18 A-
D's major subsystems and avionics is independent of the airframe, but 
progressing as well.
    The fiscal year 2012 President's budget request includes SLEP 
requirements for 150 airframes; modifications begin in 2012. The 
technical risk in developing modification kits to achieve the goal of 
10,000 flight hours is assessed as low. Current assessments have 
determined that the Fleet Readiness Centers have the capacity to 
execute the required number of HFH inspections and SLEP modifications. 
Material availability and engineering disposition turn-around times 
influence depot efficiencies.
F/A-18 E/F Super Hornet
    A multi-year procurement (MYP) contract for 124 F/A-18 E/F Super 
Hornets and EA-18G Growlers was signed on September 24, 2010 for fiscal 
years 2010 through 2013. In December 2010, the Secretary of Defense 
added 41 E/F aircraft to the fiscal year 2012 President's budget 
request in fiscal years 2012 through 2014 and Congress added 9 E/F 
aircraft to PB-11. The total planned procurement is now 565 Super 
Hornets and 114 Growlers.
    The fiscal year 2012 President's budget requests $2.4 billion in 
APN-1 for 28 F/A-18 E/F Block II (Lot 26-38) aircraft. The F/A-18 E/F 
continues to transition into the fleet, improving the survivability and 
strike capability of the carrier air wing. The Super Hornet provides an 
increase in combat radius, endurance and weapons payload over the 
legacy Hornet. The program will complete procurement of the 565 
programmed aircraft in 2014. Production line shutdown will begin in 
fiscal year 2014 with the final shutdown occurring in fiscal year 2016. 
The Super Hornet uses an incremental development approach to 
incorporate new technologies and capabilities--JHMCS; Advanced 
Targeting Forward Looking Infra Red with shared real-time video; Shared 
Reconnaissance Pod System; and MIDS data-link. The F/A-18 E/F fiscal 
year 2012 budget request includes $172.6 million in APN to implement 
commonality, maintain capabilities and improve reliability and 
structural safety.
    The APG-79 Active Electronically Scanned Array (AESA) radar system 
was installed in all production F/A-18 E/Fs and EA-18Gs beginning with 
Lot 30 in fiscal year 2006, and a retrofit program exists to modify 133 
Lot 26-29 Block II aircraft with APG-79 radars. The Navy plans to equip 
all 428 Block II Super Hornets with AESA radars, providing the Super 
Hornet a significant increase in detection range, lethality and 
survivability over the legacy Hornets. AESA squadrons have been 
successfully deploying since 2007 and are highly valued by fleet 
commanders. The AESA squadrons are considered force multipliers because 
of their ability to share battlespace management data with other non-
AESA tactical aircraft in the carrier strike group.
    The F/A-18 E/Fs have flown approximately 30 percent of the total 
flight hours available at the 6,000 hour limit. Force structure 
analysis has shown that this will not be adequate to meet operational 
commitments out to 2035. As a result, the F/A-18 E/F Service Life 
Assessment Program commenced in 2008 and will last through 2015. The 
goal is to analyze actual usage versus structural test data to identify 
the feasibility of extending F/A-18 E/F service life from 6,000 flight 
hours to 9,000 flight hours via a follow-on SLEP. Extending the 
airframe to 9,000 hours through both inspections and modifications is 
currently assessed as a low risk effort. The fiscal year 2012 
President's budget includes a request for $100.4 million RDT&E (fiscal 
years 2012-2016) to support the F/A-18 E/F SLAP study requirement. One 
of the F/A-18 E/F SLAP goals is to define the necessary inspections and 
modifications required to achieve 9,000 flight hours.
    Other goals in the SLAP study relate to increasing total landings, 
arrested landings and catapults beyond currently defined life limits. 
Phase A is currently underway and is developing methodologies to be 
used in assessing airframe, flight controls and subsystems. Phases B 
and C will continue those assessments along with landing gear and 
multiple fleet teardowns. The F/A-18 E/F SLAP is incorporating lessons 
learned from the F/A-18 A-D analysis. E/F SLAP was started sooner in 
its life cycle than the F/A-18A-D SLAP and encompasses the entire 
weapon system vice just the airframe. The F/A-18 E/F SLAP also has the 
advantage of having a third lifetime of test cycles completed on 
multiple test articles providing detailed information on high fatigue 
areas early in the program. The SLMP philosophy has also been applied 
to the F/A-18 E/F fleet much sooner in its lifecycle than the F/A-18 A-
D, which will optimize FLE, flight hours and total landings so that 
they all converge at approximately the same time, which should align 
aircraft service life with fleet requirements.
Airborne Electronic Attack/EA-18G Growler
    The fiscal year 2012 President's budget request is $1.1 billion in 
APN for 12 Full Rate Production (FRP) EA-18G aircraft and $17.1 million 
in RDT&E, N for correction of deficiencies. The program completed 
Operational Test and Evaluation in May 2009 and was deemed 
Operationally Effective and Operationally Suitable. IOC was achieved in 
September 2009 and a favorable FRP decision was obtained in November 
2009. The first EA-18G squadron deployed in an expeditionary role in 
November 2010 to Iraq. EA-18Gs in-service have flown approximately 5 
percent of the 7,500 total flight hours per aircraft and are meeting 
all operational commitments.
    The EA-18G began replacing expeditionary and carrier-based Navy EA-
6Bs in 2009. These transitions will continue through 2015. A total of 
78 EA-18Gs have been procured to date. As directed by the Quadrennial 
Defense Review in 2009, the Secretary of Defense added 26 EA-18G 
aircraft to the program of record across the FYDP to increase joint 
force capacity to conduct expeditionary electronic attack. The 
additional aircraft will fill the Navy's four expeditionary electronic 
attack squadrons currently using the legacy EA-6B Prowler. As reflected 
in the fiscal year 2011 President's budget, the program of record is 
now 114 aircraft.
    The Navy has completed an Analysis of Alternatives (AoA) to 
determine the best path forward for the Next Generation Jammer (NGJ). 
The NGJ system will replace the ALQ-99 electronic warfare pods 
currently flown on the EA-18G and EA-6Bs and will provide DOD with the 
advanced comprehensive electronic attack capability to outpace the 
threat. The NGJ is planned for integration initially on EA-18G 
aircraft, and may later offer integration opportunities on F-35B and F-
35C aircraft.
                               conclusion
    The Department of the Navy supports fully the F-35 Joint Strike 
Fighter program. While the Navy and Marine Corps await completion of F-
35 SDD, our current fleet of F/A-18 aircraft remain ready and relevant 
through a portfolio of assessments, inspections, improvements, and 
investments.
    Thank you for this opportunity to discuss Navy and Marine Corps 
tactical aviation and the F-35 program. We look forward to answering 
any questions you have.

    Senator Lieberman. Thanks, General. I appreciate the 
statement.
    We'll do a 7-minute round for questions.
    A while ago, Secretary Gates said that in the budget 
discussions going on now everything's on the table, and I 
presume that therefore means even the overall JSF program. 
Before we get into the detailed questions about where we are on 
the delay, I just want to ask the baseline question, General 
Carlisle. I'll ask it from a skeptic's point of view, although 
I'm not as much of a skeptic as the question, which is: in a 
world in which we're involved in two wars that are 
unconventional and in which our security is now threatened by 
remarkably unconventional means, such as cyber attack, and, as 
you mentioned parenthetically, unmanned aircraft are playing an 
increasingly significant role, what's the argument for a fifth-
generation fighter?
    If I can be more specific and urge you to be specific, who 
are we preparing the fighter to defend us against?
    General Carlisle. Thank you, Mr. Chairman, for that 
question. Clearly your initial point is we are engaged in a 
conflict, and a priority of DOD and certainly all the Services, 
is to win today's conflict, and we are full in doing everything 
we can in that.
    Having said that, there is a proliferation of anti-access, 
area denial capabilities out there. Specifically in the 
Pacific, there's a lot of them with respect to the People's 
Republic of China (PRC).
    Senator Lieberman. We're thinking of China?
    General Carlisle. Yes, sir. They have the ability in their 
latest generation air defense systems, as well as the J-20 that 
rolled out, the PAC-FA that rolled out from Russia, as well as 
what they're doing in advancing their Su-30s and those type 
airplanes and their surface-to-air missiles.
    It's not just a question of what's there, but also what 
they proliferate; where they sell those things to. As you well 
know, the PRC is selling things, as are the Russians, to just 
about anywhere in the world. There's other countries besides 
the PRC that would provide us with an anti-access, area denial 
threat. Certainly Iran is one as they continue to upgrade their 
systems and they spend money on buying those.
    Senator Lieberman. With the case of Iran, it would be both 
their own development of capabilities, but also the fact that 
they would perhaps acquire?
    General Carlisle. Yes, sir, I think that's the case. If you 
look at their surface-to-air systems, their anti-aircraft, and 
their integrated air defense systems, they're buying those from 
the Russians predominantly right now, and those are the systems 
that we'd have to be able to penetrate if we ever wanted to do 
anything in reference to any of the activities going on inside 
Iran, nuclear activities or anything.
    Senator Lieberman. So in the case of China, for instance, 
or some of the Russian capabilities, would you say that they 
make our current TACAIR vulnerable?
    General Carlisle. Sir, I would. I would say that if 
maintaining influence in the Pacific region, which everybody 
believes we definitely need to do, and our ability to protect 
our allies and friends in that part of the world, we would have 
to travel and go to their systems. If we go to their systems 
and they'd have those anti-access capabilities, they have their 
surface-to-air systems, they have their surface fleet, the SA-
N-9, HQ-9s, rather than the SA-N-20s, aboard their surface 
combatants in and around the Pacific. Clearly it would put our 
current legacy fighters in a fight where it would be difficult 
for us to penetrate those kind of areas.
    Senator Lieberman. General Robling and Admiral Philman, 
would you like to add anything to that?
    General Robling. Sir, General Carlisle did an excellent job 
of answering that question for you. I would add that both 
General Carlisle and I just came from the Pacific region, in my 
case as the commander of the 3rd Marine Expeditionary Forces in 
Japan. So our worry is the weapons that China is developing in 
the Pacific case, where those would proliferate, particularly 
in North Korea's case.
    But in the Iran case, it's not just the surface-to-air 
threat. It's also the surface-to-surface threat. It's not just 
why do we need this stealthy aircraft with these very capable 
precision weapons; it's the ability to go in and neutralize 
those surface-to-surface threats as well.
    Senator Lieberman. Got you.
    Admiral?
    Admiral Philman. Thank you, sir, and thanks for the 
opportunity to be before the subcommittee.
    Senator Lieberman. Thank you.
    Admiral Philman. Sir, the anti-access and the area denial 
piece that was mentioned before, we want to be there in the 
three major regions: the PRC, the North Korean scenario, and 
the Iranians. As you alluded to, whether they develop those 
capabilities themselves or acquire it, there is a real belief 
that will be something we will have to face in the future.
    If we are unprepared for that, then the follow-on efforts 
that would be in any campaign would be woefully inadequate. So 
if you're able to invest in those more advanced, fifth-
generation fighters, not only to deliver weapons but to loiter 
in contested air space, to have the ISR piece is very 
important.
    Senator Lieberman. Okay. I think that establishes a 
baseline.
    Let me ask you if you would respond to the numbers that I 
cite in my opening statement, which are a really quite 
significant drop in the estimates of a shortfall. Help me 
understand how you were able to achieve that drop and whether 
you're confident now, because there's been such a significant 
variation in recent years in the predicted shortfall, that the 
numbers you've given as part of this budget will hold up.
    Admiral Philman, why don't we start with you this time.
    Admiral Philman. Yes, sir. As we first uncovered or we 
realized the strike fighter shortfall several years ago, it was 
really precipitated by the initial delays in the JSF program. 
So those initial numbers were an estimate based on when will 
the aircraft be delivered, and then what is the existing 
aircraft viability?
    Early on we had flown the F-18 to its maximum. We learned 
more about how the life is expended, and the good engineers at 
Patuxent River were able to go back in and figure out what was 
left on the airplane. So the initial estimates certainly are 
high and with good reason. But the more we've learned, the more 
we understand how we fly the airplane, the mitigation measures 
that we have on a daily basis at the flight line on how to 
extend the life of existing airplanes. Then the confidence we 
have now, gaining confidence in the F-35 program, it gives us 
good reason to be confident.
    The F-18 E/F legacy fleet is very important to us to get us 
to that fifth-generation fighter. So we figure we have about 
150 aircraft that are the best population from which we could 
extend. That allows us to keep the flight decks viable, helps 
the Marine Corps with their fighter population, to get us to 
the fifth-generation fighter, the F-35 B/C.
    So yes, sir, we've learned as we've gone. The engineers 
have been very diligent in understanding what they see when 
they open up airplanes, the high flight hour inspections and 
the predictions of what can be repaired in a SLEP. So all those 
things combined give me confidence that we're on the right 
path.
    Am I satisfied? Certainly not. As was mentioned earlier, we 
want to maintain our advantage in every case possible.
    Senator Lieberman. Some people would characterize the 
existing projected shortfall or have characterized it as 
manageable. Is that a word you'd use, or how would you describe 
it?
    Admiral Philman. That was a word that was used in previous 
testimony, and I believe that to be true. The other piece, that 
I failed to mention earlier, was the 41 aircraft that are in 
the 2012 budget and the 9 that became available when the budget 
was passed for fiscal year 2011. That gives us 50 airplanes 
that we did not have before. That changes the calculus in a big 
way.
    So all those things combined, and you consider the way 
we're flying the aircraft, we're preserving the life, whether 
there are carrier-arrested landings, whether they're flying off 
the beach in different ways, all those things combined give a 
calculus to be confident that we can get to the F-35C. 
Manageable? Yes, sir. Again, I'm not satisfied that that's 
where we should be. We have the senior leadership from the 
Commandant of the Marine Corps and the CNO on down that charges 
us on the flight line to schedule the aircraft properly, 
maintain them properly, get them into repair and out as quick 
as we can.
    Senator Lieberman. So it's not desirable, but it's 
manageable, or you can deal with it?
    Admiral Philman. Yes, sir. That's a shorter answer to the 
same question.
    Senator Lieberman. No problem.
    General Carlisle, tell me about how the Air Force has 
reduced the shortfall and whether you're confident now that the 
numbers you're giving us this year are going to hold up?
    General Carlisle. Yes, sir. Pretty much the same discussion 
as my friend. The analysis that is ongoing, and as we continue 
to look at these airplanes, we have a program called the 
Aircraft Structural Integrity Program that continually looks at 
the airplanes. As part of that, we look at how we fly them, as 
was mentioned earlier. We call it a severity code of what kind 
of payload we put on and what environment we fly in, how it's 
flown, and record all that data, and continually update the 
look at the airplane.
    We also do fleet viability boards. We get experts from 
industry and the Navy and the Air Force and all the Services 
and we look at airplanes and look at the viability of that 
airplane over time. That does affect what the service life of 
those airplanes are.
    The other thing I think probably changed from before was, 
as we continue to do analysis of what's asked of us, how are we 
going to use these airplanes and what kind of airplanes do we 
need? Today our number, we believe, given the current National 
Military Strategy, is we need about 2,000 total fighters 
including 1,200 primary mission fighters. Those numbers are 
slightly different than they were when we were reporting a 
larger shortfall.
    So there was a little bit of analysis continuing. To be 
perfectly frank, as we look at the comprehensive strategy 
review today and where we're going to go in the future we will 
continue to look at those numbers and make sure we're going to 
fulfill the Nation's commitment and what they want us to do 
with this fleet.
    So as we continue to look at the airplane, we determine the 
life of that airplane.
    The other thing, Mr. Chairman, that we had not anticipated 
before based on the original delivery of the F-35 was doing a 
SLEP and modernization of the F-16s. We had always planned to 
do the A-10s, the F-15Es, but we had not planned it. Given the 
situation we're in now, we are we going to do a SLEP as well as 
a modernization program to some of our F-16s.
    Senator Lieberman. Okay, thanks. I'll come back with some 
other questions on your answers. Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I'm wondering, though, General, does that affect our 
training and the skills of the individual pilots, the way that 
you're kind of shifting the actual usage of the aircraft?
    General Carlisle. Senator, that's a great question. What we 
face in our fleet today is our aircraft are maintaining a 
fairly consistent availability. Our biggest shortfall is air 
crew training. If they spend a lot of time in Afghanistan and 
Iraq as they are now in continuous rotations, their ability to 
do the other type of training for the full spectrum operations 
to deal in an anti-access, area denial environment, and to do 
maritime ops in support of the Navy, all of that training is 
kind of relegated to after we do the primary fight today.
    So with respect to training our folks to do the mission, we 
have seen a degradation in that training just because of the 
current conflict we're in.
    With respect to the aircraft, the aircraft availability, 
and the aircraft's mission capability across the full spectrum, 
the aircraft are maintaining pretty even availability and 
mission capability rates. So that part is less of an issue than 
the time we have to train the air crews in the different types 
of missions they're going to be asked to perform.
    Senator Brown. Great, thank you. I'm wondering if any of 
you can comment on the fact that in the last hearing we had Dr. 
Carter's assessment that as of today the cost of operating the 
JSF would be unaffordable, estimated at being $1 trillion when 
adjusted for inflation. I'd like to know, is there a plan B for 
the Air Force, Marine Corps, and Navy? Is there a plan B in the 
event that the JSF program is delayed even further?
    Admiral Philman. Thank you, Senator. Our plan as it's 
stated right now is to get to the fifth-generation fighter, 
with some confidence that we'll get there. The good news from 
the U.S. Navy side is we have a hot line. The last procurement 
of the F-18 E/F will be procured in 2014 and delivered in 2016. 
That is not our primary plan A, certainly, but that is 
certainly a plan B that could be considered if the F-35 
continues to slide.
    But I am given good confidence by Admiral Venlet that, with 
the now two F-35C aircraft at Pax River, that testing is going, 
and it'll pick up at a good clip. The third one should arrive 
here in just a month or 2 and we can start doing the aircraft 
carrier tests as well.
    Senator Brown. General Robling, given that the AV-8B 
Harrier is running out of time, what's the Marine Corps' 
thinking as to the F-35B in particular?
    General Robling. Senator, we've been on this track for the 
last 15 years to downsize to a minimum number of type-model-
series and really on the TACAIR side to reduce the EA-6B, the 
AV-8B, the Harrier that you speak of, and the F/A-18 to the 
JSF-B model. So we believe that's the aircraft that we need.
    I think without the B model this Nation's not going to have 
the capability to have 22 capital ships out in the global 
commons providing the security for this Nation and for the 
other nations that depend on the United States. So our plan B 
is to make this work. I hope that doesn't sound flip, but we've 
put ourselves into a big hole and I think, as Dr. Carter, Ms. 
Fox, and Admiral Venlet testified, they see good reason to 
believe that we can get the costs under control and get this 
aircraft flying.
    In fact, the testing of this aircraft has gone extremely 
well. This year we've actually gotten back on track for this 
year, and we're well ahead of the test points that we need as 
we work toward ship integration at the end of this year.
    Senator Brown. I know that the 2-year probationary period 
for the F-35B has, in fact, happened and as a result the Air 
Force and Navy variants have been allowed to move ahead. So I 
think there seems to be an acknowledgment that these are now, 
obviously, three different aircraft, but three separate 
developments proceeding at different rates.
    So now that the testing is well under way and procurement 
has started, why shouldn't we, at a minimum, break these three 
models into different programs so they can be managed 
discretely or separately? Any thoughts?
    General Robling. I wouldn't say that they weren't now. I 
would say that General Carlisle and the acquisition folks at 
the Air Force are just as interested in their version and track 
it very closely as we do ours. I would say that, even though we 
decoupled that because we did not want to hold back the C and 
the A models as they deliver. Quite frankly, they're delivering 
just behind the B model. So we actually got more test points 
earlier. The Air Force's A model right now has delivered more 
aircraft and has more aircraft in testing. The Marine Corps has 
four of those and I think we got our second C model.
    So as the testing goes and the test points, we aren't 
really holding each model variant up.
    Senator Brown. Obviously, with the development of the new 
aircraft there are support facilities and different types of 
studies that are being done, the environmental studies, the 
actual construction of new hangars and whatever else is needed 
to support that. How is that all going and where are we with 
that? General Carlisle?
    General Carlisle. Senator, with respect to the Air Force, 
we're well on the way. The first pilot training base--and it'll 
be a joint pilot training base--is going to be at Eglin Air 
Force Base in Florida, and the facilities there are coming to 
completion and ready for training that was talked about in the 
previous hearing. The AF-8 delivered to the Air Force should be 
delivered to Eglin some time in the fall and we'll be ready for 
training and the facilities are there and ready to go.
    Follow-on bases are in the line. Military construction 
(MILCON) for new missions is established out there as we move 
into the next bases. But right now at Edwards, testing; Nellis, 
operational testing; and then Eglin, the MILCON is well on 
track, sir.
    General Robling. Sir, we're on the same track as the Air 
Force. We'll do our joint training down at Eglin initially with 
the Air Force and with the Navy. Our MILCON, our manpower, and 
our support assets are all very closely integrated. The MILCON 
for Yuma is either on contract now or just completing contract 
for all the hangar facilities we need in Yuma, and the 
Environmental Impact Statement processes are complete. We'll do 
the same for Beaufort, SC, and the other bases as we march our 
way across.
    But we have a very tight transition task force that looks 
at every one of these issues, and right now we're on track.
    Senator Brown. Thank you, sir.
    Senator Lieberman. Thanks, Senator Brown.
    Let me go to initial operating capability (IOC). Correct me 
if I'm wrong. I believe the Marine Corps has an IOC of 2012 for 
the F-35B. Last year the Air Force and the Navy moved their 
IOCs or backward to 2016. I wanted to ask you, because of the 
concerns now about additional delay in the JSF, and there's a 
lot of concern that the numbers may slip again when the Defense 
Acquisition Board completes its realignment program. General 
Robling, is the Marine Corps still sticking to the 2012 IOC 
date?
    General Robling. No, sir, and thank you for that question. 
I think we waited to change the 2012 IOC date until we had to, 
the requirement is coming up in documentation. But certainly, 
with this period of scrutiny and looking at the aircraft and 
the reduced ramp, we're going to slide. I think what we've 
decided to do now is not set an IOC date certain, but set a 
window out there. Of course, we're looking, with a slide of at 
least 2 years, probably somewhere in the 2014 or 2015 
timeframe. It will be event-driven.
    Senator Lieberman. It will be event-driven. Okay, I 
appreciate your sharing that with us.
    Air Force and Navy, still at the same 2016 IOC date?
    General Carlisle. Sir, that is the current date with the 
slip of the program. We anticipate the same thing as the Marine 
Corps. We will probably slide to the right. Two years is 
probably a good estimate. Just like the Marine Corps and the 
Navy, it'll be event-driven based on the Corps developing, 
tactics, and the operational testing and evaluation (OT&E) on 
the airplane.
    Senator Lieberman. Right.
    Admiral?
    Admiral Philman. The same, sir. The 2016 date we feel is no 
longer valid, so it will slide some to the right. It will be 
event-driven, where we have a squadron, we have training 
facilities, we have hangar facilities and all those things, as 
well as the logistics pipeline to support those aircraft. Then 
once all those are satisfied, the CNO can declare IOC.
    Senator Lieberman. Okay. It's really unfortunate that we've 
had to do that, but there's nothing you can do about that 
except react to the reality of the program developments.
    I want to ask you a series of questions about how we're 
coping with those delays. But the first one is whether you've 
thought about the possibility of deploying variants of the JSF 
to theater even if they don't have all the capabilities that 
you want. In other words, I'm asking if there's any 
consideration, whether combatant commanders ask for or whether 
they'd actually in some sense allow the deployment to theater 
of aircraft that don't have all the capabilities. We've 
followed the Joint Surveillance and Target Attack Radar System 
program and that's a case where it was deployed to theater 
before it had all the capabilities, all the testing, because it 
was needed.
    Have you thought about that at all, General Carlisle?
    General Carlisle. Yes, sir, we have. We looked at our 
schedule and the Air Force's decision to declare IOC when we 
get Block 3 software and hardware in the airplane. The OT&E is 
done for that. When we look at our current schedule, we will 
have a number, and the specific number depends on how things go 
over the next few years. But we'll have a number probably on 
the order of 100 airplanes delivered to operational units 
before we declare IOC, because of the way we're going to bed 
down the airplane.
    Although we may not declare IOC, we will be training, and 
we'll be doing the tactics, techniques, and procedures (TTP) 
with the Block 2 Bravo, which will be the airplane that will be 
initially delivered. We know what capabilities we will train. 
We'll have the logistics system, we'll have the maintainers. If 
the combatant commander said we need this capability, then we 
would clearly provide it. I think that's probably a universal 
approach.
    Senator Lieberman. Yes. That's interesting. Obviously, you 
wouldn't do it if you had any safety concerns, but you'd do it 
if you felt it added value, to use a generic term; right?
    General Carlisle. Exactly, sir. I think when you look at 
the capabilities this airplane is going to bring to the fight, 
there is a lot of capability even in the Block 2 airplanes that 
is very impressive. Again, depending on the environment and the 
combatant commander that was requesting it, then we would, with 
all the safety considerations, be ready to go.
    Senator Lieberman. Right.
    General.
    General Robling. Yes, sir. In fact, I think one of the 
reasons why the Marine Corps is a little bit earlier than the 
Air Force and the Navy is that we've decided to IOC with Block 
2B. The reason we've decided to do that is because it gives us 
at least legacy or better capability, really better than 
legacy, with the very low observable aircraft. So our IOC is a 
little bit earlier because we're accepting those in 2B. But 
like General Carlisle, for us it will be in excess of about 50-
plus aircraft at that time, that we will be training toward.
    Again, that's software- and hardware-dependent. That's the 
event-driven I was talking about. Once that's certified, we'll 
IOC. Of course, along with IOC is the capability to deploy.
    Senator Lieberman. Admiral?
    Admiral Philman. Mr. Chairman, just like the Air Force, 
we're going to IOC with the Block 3 software and the hardware 
installed and the training complete. We probably won't have as 
many numbers of aircraft as the Air Force or the Marine Corps 
at that point. But once that has been achieved, I don't see any 
reason why it wouldn't be able to be called to go into theater, 
assuming all the safety considerations have been taken into 
account.
    Senator Lieberman. There's a certain way in this context in 
which the term IOC is misleading. It suggests that until you 
hit the IOC date that the system doesn't work, and that's not 
really the reality.
    General Carlisle. No, sir, it's not. Mr. Chairman, to be 
perfectly frank, in a lot of cases if you delay IOC you can 
maintain pressure on a contractor to deliver the product that 
you want and to continue to develop it.
    Senator Lieberman. Yes.
    General Carlisle. That does give you ability to keep the 
delivery coming and the pace of the upgrade that you need to 
get to the capability you want.
    Senator Lieberman. Makes sense.
    Let me go quickly now to--another way you're dealing with 
this delay in JSF-SLEP. Last year we directed the Navy to 
conduct a cost-benefit analysis of the differences between F-18 
new procurement and the F-18 SLEP. The report arrived just last 
night, so I haven't personally had a chance to look at it.
    Admiral, could you give us a highlight of what the report 
concludes?
    Admiral Philman. Mr. Chairman, with a great deal of 
analysis from the folks at Pax River and the people from 
Boeing, we looked at six different courses of action, from 
procuring only new F-18 Es and Fs, to a combination of SLEP and 
procurement, to only SLEP, as many as 280 aircraft. The 
findings really came down to pretty much what we've offered in 
the program objective memorandum-2012 submission. If we 
continue to procure in the numbers that we're looking at those 
41 plus 9 aircraft, Es and Fs--and if we have a good population 
of 150 to SLEP then that is the best balance to bridge us to 
the fifth-generation fighter.
    So we didn't predetermine the answer, I don't think, but 
that report is pretty thorough and, given the six different 
options, the option that was selected as the most attractive is 
the so-called option 2, which is just as I described, sir.
    Senator Lieberman. I'll come back to that in my next round. 
Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    So the design and development efforts are not proving 
reliable, is what last June the Pentagon's chief independent 
weapons tester issued a memo stating. Then DOD issued direction 
that would measure and improve the reliability and 
maintainability of the newest weapons systems. If each one of 
you can independently comment as to how programs within each of 
your portfolios are complying with that direction, and does 
additional work called for in this report still need to be 
done?
    General Carlisle. Senator, from the Air Force standpoint, 
we are clearly taking that to heart. I think part of the issues 
are it's early in the program. It was a good time to have that 
kind of study and review as we move forward. It has put more 
scrutiny and more emphasis on the completion of those test 
points. It has added test points. It has added rigor in some 
cases where there probably wasn't enough rigor in the program 
to create the positive results since then.
    Actually, General Robling and I were just down at Fort 
Worth. That scorecard of where they're moving on those test 
points as well as meeting those requirements is moving along at 
a very good pace and is actually a pretty good news story. 
There are a few holdups still. The helmet is one that we're 
continuing to work, and I'm sure you've heard about that. 
There's a dual path idea with the helmet now.
    The Air Force's airplane is probably the one that's moving 
farthest ahead. The missions systems capability, the flying 
testbed, and the weapons performance are actually coming along 
at a very good pace, and the Air Force right now is continuing 
to keep pressure on it. But we're seeing great progress in that 
area.
    Senator Brown. Thank you. General Robling.
    General Robling. Yes, sir. I'm on the same track as the Air 
Force. Their problems were our problems, obviously. A lot of 
those are software-driven, some hardware, but software because 
of the test points; we've increased those. I think before they 
were testing to these corner points to get to the outer edge of 
the envelope so we could move it along. I think since that time 
we've realized that you need to test inside of those corner 
points, and the more testing we've done, it's added more 
reliability, and that will increase as we continue to test.
    Admiral Philman. Likewise, sir. We are very pleased that we 
have two C model aircraft down there at Pax River now, so we 
can expand those envelopes and have those testing points 
returned from almost every flight. Admiral Venlet has been very 
diligent about driving in, okay, this is the test plan that is 
needed for all three variants to meet his satisfaction that 
we're moving in the right direction. So I'm comfortable with 
that.
    Senator Brown. Thank you.
    I know China, as I mentioned in my opening, has gotten a 
lot of press for its fighter development. Russia, as we all 
know, has been exporting fighter aircraft and related 
technology for a long time now. What do you see as the pacing 
threat for military aviation? Is there any particular air force 
that worries us more than yesterday or in the future?
    General Carlisle?
    General Carlisle. Sir, that's the rollout of the J-20, 
which is the PRC's attempt at a stealth fighter. We just 
recently had the second aircraft of the PAC-FA show up, which 
is a joint Russian and Indian attempt at a stealth fighter. 
Those are discouraging in that they rolled out in a time that 
we thought there was maybe a little bit more time, although we 
were unsure of that. I think the thing that we think about is 
the fact that we have had a technological advantage against our 
adversaries in and, given the world that we're in today and the 
informational age and the interdependency, over time I believe 
we'll still maintain an advantage. I think our advantage will 
be a shorter period of time.
    We've had a stealth advantage. The F-117 flew in the late 
1970s. So we've had a stealth advantage over our adversaries 
for a long time. I don't see us maintaining an advantage for as 
long because I think other nations will continue to try to gain 
that technology. There will be different avenues for them to do 
that, and they'll try to replicate it in a lot of ways.
    The Russians produce a very good fighter aircraft and the 
PRC produces a very good fighter aircraft, and they will 
continue to develop that. You need only look across the Pacific 
and see what the PRC is doing with respect to not just their 
air force capability, but their surface-to-air capability, 
their ballistic missile capability, their anti-ship ballistic 
missiles, their CSS-3 that has the range to get to Guam, as 
well as missiles that can get to Kadena. All of those things 
are incredibly disturbing to us for the future.
    As Terry said, we need not only to be able to defeat those, 
we have to hold those targets at risk. That's where these 
fifth-generation aircraft come in.
    Senator Brown. I'm going to submit some questions for the 
record. I'm not quite there yet. But I'd like to see, based on 
your observation of those, the Indian-PRC joint effort, what 
your assessment is of it.
    General Carlisle. Sir, I think for both the J-20 and the 
PAC-FA, I believe that they'll get there. There's no doubt in 
my mind that over time the technology will get there. I will 
say, though, in an effort not to make anybody 10 feet tall or 
to give them artificially great capability, it's not easy. 
These things are hard to develop. These airplanes are not easy. 
We saw it in the B-2, the F-22, and the F-35.
    As you look at even the initial rollout of both the J-20 
and the PAC-FA, they're certainly getting there, but there are 
some things that a practiced eye that's been doing this for a 
long time can look at them and see that they probably don't 
have it exactly right.
    To produce these is not easy. It's going to take some work 
for them to get there.
    Senator Brown. General, I'm presuming you're similar in 
terms of your commentary?
    General Robling. Yes, sir. When that rolled out we had the 
same assessment. You can look at the aircraft and tell how far 
they've gone in design and what their capabilities are, and 
it's advanced. But to get to the crux of your question on the 
pacing and what's keeping us ahead right now, I think the JSF 
and its capabilities will do that. If that's in jeopardy, then 
that pacing is in jeopardy.
    Senator Brown. What keeps you up at night in terms of 
guiding the committee in our thoughts and thinking through 
force structure, and in terms of acquisition quantities and the 
timing of acquiring new systems? Is there anything in 
particular that keeps you up at night?
    Admiral Philman. The China scenario is first and foremost, 
I believe, because they seem to be more advanced and have the 
capability out there right now; and their ships at sea and 
their other anti-access capabilities. Their fighter, as was 
mentioned, that was just rolled out. The good news for us is 
there's over 1,000 hours on the F-35 series right now, which we 
are hard on ourselves, but that's a far leap ahead from the 
Chinese fighter that's flown three times.
    So that's the good news story. But as was mentioned 
earlier, they will catch up. They understand. They're a smart 
and learning enemy, and if we don't keep our edge then we will 
be behind, or at least lose our advantage.
    Senator Brown. They're not our enemy, but you mean the 
other country in terms of what they're capable of, right?
    Admiral Philman. Yes, sir.
    Senator Lieberman. Thank you, Senator Brown. We'll do one 
more round.
    General Robling and Admiral Philman, in your prepared 
testimony you mention that the Navy has taken a number of steps 
to deal with the situation you face. We talked about that a 
little more earlier, in terms of the reduction in the estimated 
shortfall. I know you've taken steps to reduce requirements or 
essentially reduce the demand for the aircraft. You also 
reduced the size of some of the deploying squadrons.
    What I wanted to ask you about was a concept that I know 
you've also implemented called productive ratio. Why don't you 
tell the committee for the record, what is productive ratio? 
Admiral?
    Admiral Philman. Sir, the productive ratio is a method of 
allowing the squadrons' so-called entitlement of aircraft as 
they proceed thorough the training process. Between 
deployments, a squadron will do unit-level training, which goes 
from basic training, then to integrated and more advanced 
training before they deploy. So as those squadrons are building 
up in that training cycle, they don't need 12 aircraft every 
day to conduct the kind of squadron business they need to do.
    So we can take aircraft out, run them through the depot-
level maintenance and other things that need to be done to the 
aircraft, so that particular squadron may only have six or 
eight aircraft. As you progress along on the training pipeline, 
you get more and more aircraft until you have your full 
complement upon deployment.
    So it's a term that's a little bit misunderstood, but it's 
a method of controlling the number of aircraft to be on the 
flight line and stretching out the life of the whole fleet in 
order to not only meet our commitments overseas, but to meet 
our commitments in training as well.
    Senator Lieberman. I think it's very creative. Would you 
say that's reducing demand or increasing supply by better 
utilizing the aircraft?
    Admiral Philman. Almost both, sir. You're reducing the 
demand early on in the phase. If we're able to get those 
aircraft into the repair facility faster--as was mentioned 
earlier by General Robling--then we can also increase the 
supply at the other end.
    Senator Lieberman. It sounds like, though we don't like the 
circumstances we're in with the delays in the production of the 
aircraft you need to meet your needs and the Nation's need, 
that this is perhaps, would you say, one of those cases where 
necessity has been the mother of invention?
    Admiral Philman. Absolutely, sir. You would love to have a 
full complement of aircraft everyday, 24-7. But that's just not 
the case. So being ingenious or uncanny about it, how do we 
make sure we have aircraft to do the Nation's business when we 
deploy? We do it by making all these different techniques, 
sometimes reducing the number of aircraft and squadrons, and 
scheduling those aircraft in a way that makes most sense for a 
particular training mission.
    We know more now about how to measure fatigue life 
expenditure. So in a particular, a young pilot like yourself 
goes out and there's a certain training mission, so----
    Senator Lieberman. I appreciate that very much. Senator 
Brown snickered, but that will not be in the record. 
[Laughter.]
    Admiral Philman. But for a particular training mission, we 
can match that pilot and that air crew with a particular number 
or tail number that makes the most sense, so to not only get 
the training done, but also preserve the life of the aircraft.
    Senator Lieberman. General Carlisle, is the Air Force 
taking similar steps to what we've called productive ratio to 
help reduce the demand for aircraft, if I can use that term?
    General Carlisle. Sir, I wouldn't say we have the exact 
same concept. I think the concept of operations, the concept of 
employment, is different, given the way that the Navy spins up 
and goes aboard a carrier and then deploys. We clearly have a 
little bit different approach to it. So we are optimizing the 
use of our aircraft. We are looking hard at how to get the most 
training out of every single sortie that we fly with, although 
there's no tanker capability because that's all deployed, but 
to try to get as much training as possible out of it.
    The other part that we're looking hard into is the live, 
virtual, constructive with respect to the simulation and 
modeling that we can do in training as well. But the optimum 
use of the aircraft is clearly something that we're looking at. 
We haven't really gone to moving tails between different 
squadrons yet, sir, no.
    Senator Lieberman. I hope you will keep us posted on that.
    In your testimony, General Carlisle, both written and 
presented here today, you've described the Air Force's 
investigation into ways to extend the service life of A-10s, F-
15s, and F-16s to help mitigate this gap between requirements 
and aircraft. I want to focus on one sentence which I read in 
my opening statement, where you say in your prepared testimony, 
``Actions to extend and modernize the legacy fleet are a bridge 
to fifth-generation capabilities and are not considered 
replacement actions.''
    So what I wanted to ask you, and it's relevant, and I'll 
come back to the F/A-18s as well, are you still conceiving of a 
TACAIR inventory fleet that is totally fifth generation? In 
other words, if you're investing in these various programs--in 
this case, service life extension--do we need the full JSF 
fifth-generation fleet?
    General Carlisle. Sir, in our current analysis, we're 
moving towards a fifth-generation fleet. But, having said that, 
I think we will continue to analyze the requirements based on 
the comprehensive strategic review, the National Security 
Strategy, and the National Military Strategy as we go forward 
in the future.
    As we transition the F-35s, the intent is to replace our F-
16s, A-10s, and eventually the F-15Es. Those other three 
airplanes, the F-16, the A-10, and the F-15E, will last well 
into the 2020s and even later. So as we transition, the time to 
make that decision of whether we even extend those airplanes 
farther will be something we'll look at over time.
    Our intent now is to procure the F-35 at the numbers that 
we talked about and then to enhance the capability of the 
legacy fleet so that we can get into the mid to late 2020s, and 
then we'll assess as we go on. As we've all seen, our ability 
to predict the future and what the world's going to look like a 
decade out is not very good. So we have the option to continue 
to look at those things as time goes on.
    Senator Lieberman. Okay. I'm hearing you to say that the 
goal has been to go to the full fifth-generation fleet with the 
JSF, but you're extending the lives of some of these other 
tactical aircraft; that, obviously, you'll continue to use them 
so long as they're able to be used reasonably.
    General Carlisle. Most definitely, sir. I will tell you, 
there are great capabilities in those airplanes. All three of 
those aircraft--the F-16, the F-15, particularly the E model 
and the C model, and the A-10--are all great airplanes. The 
modernization we're doing to those airplanes makes them very 
viable into the future, especially if you pair those with 
fifth-generation fighters.
    If you pair F-15s with F-22s and F-35s, you now have the 
ability to open an anti-access area and allow those airplanes 
to get in and do work and then come back out, with the 
protection of a fifth-generation fighter. What we've all 
discovered is, with the F-22 and the F-35 coming on, those 
airplanes give added capability to the fourth-generation 
airplanes as well.
    Senator Lieberman. That's a very important point and I 
appreciate your answer, that the fifth-generation aircraft can 
go in first and essentially clear the field, to the extent that 
they're able, and make it possible then for the fourth 
generation to follow on.
    General Carlisle. Yes, sir, most definitely. That is, in 
fact, how we all operate. We operate that way today.
    Senator Lieberman. Right. The same for the Marine Corps and 
the Navy. In other words, you're buying some new aircraft, 
you're extending the lives of the existing F-18. Their service 
life will be how long? We have a lot of years ahead of us.
    General Robling. The service life for the JSF is an 8,000-
hour aircraft, compared to some of the legacy ones that were 
6,000 hours, and then trying to get them through SLEP. It took 
a lot of money to do that. Bringing up legacy aircraft to the 
increased capabilities that we need, I think for all three of 
us we fight in a joint environment now and we're all joint 
enablers. If you don't advance those legacy aircraft, you don't 
become part of the joint force that's able to fight in that 
arena. I think that's why we've asked for that additional 
funding.
    Senator Lieberman. Admiral?
    Admiral Philman. Mr. Chairman, in the case of the Navy, we 
have the legacy F-18s that we will extend the life. But we also 
have the late-model F-18 Es and Fs, with the very capable 
radars and all the other systems which are resident in the 
aircraft.
    So as we get farther into the future and certainly into the 
20s, we have a population on the flight deck of the aircraft 
carriers of very advanced F-35Cs, we have the F-18 Es and Fs, 
which are complemented by the jamming version, the G model.
    So, no, we're not going to be full-in all fifth-generation 
fighters. But we have a nice array of capabilities: the first 
day of the war, F-35s that can fight in the joint environment 
with our Air Force and Marine Corps brethren; and then the F-
18s of various lots that can follow on and do other good 
business.
    Senator Lieberman. So again, the goal--I think there was 
some contemplation that we were heading as rapidly as we could 
to all fifth-generation fleets. But for various reasons, 
including the delay in the JSF program, we're now extending the 
life of fourth-generation planes and acquiring some, as in the 
F/A-18 E and Fs. Therefore, for the foreseeable future I take 
it it's fair to say that we're going to have a mix and we're 
going to keep the fourth generation going as long as they can 
effectively go.
    Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. This will be my 
last round. I have some other commitments I need to get to. But 
I'm going to submit additional questions for the record.
    General Carlisle, the numbers that you're providing, are 
Guard and Reserve aircraft included in that total number?
    General Carlisle. Yes, sir. That's total aircraft 
inventory.
    Senator Brown. When you go to this next generation, are a 
lot of those going to trickle down to the Guard and Reserves, 
the older aircraft?
    General Carlisle. Sir, it'll be both.
    Senator Brown. Integrated with everything?
    General Carlisle. The legacy airplanes that are modernized 
in SLEP will flow down, as well as new JSFs. So it's going to 
be a mix, as it is in the Active-Duty Force. We'll have a mix 
of the fifth and fourth and then the Guard and Reserve will 
have a mix of fifth and fourth, yes, sir.
    Senator Brown. With regard to the Osprey, has that program 
proceeded according to plan?
    General Carlisle. Sir, the CV-22, the Air Force Special 
Operations Command variant for the Air Force, obviously we had 
some growing pains with that airplane. I will tell you that its 
deployments to the area of responsibility, its work in Libya 
and other areas, and it is in Afghanistan today, has been 
tremendous. The airplane has performed extremely well.
    Senator Brown. It has a very high cost per flying hour, 
though, right?
    General Carlisle. Given the capability it brings to the 
fight and what it's used for, sir, I think that we're 
continuing to try to drive those costs down. They're probably 
higher than we would have expected. I don't think we in the Air 
Force consider them outrageous by any stretch of the 
imagination.
    General Robling. In the Marine Corps, the MV-22 is 
progressing on track and doing very well. It's passed 100,000 
hours combined with the Air Force and the Marine Corps version. 
It is our safest tactical helicopter in the last 10 years as 
far as safety records. We've gotten the cost per flight hour 
from $11,000 down through $10,000. We're hoping to get it down 
in the $9,000 range. But quite frankly, it's the lowest cost 
per seat per mile of any of our tactical helicopters. What that 
means if you compare this helicopter to, say, the CH-46 that it 
replaced, somewhere around a little over $4,000 a flight hour, 
it doesn't really equate because you would have to use two of 
those aircraft to get the amount of marines that you needed to 
a farther distance.
    It was an aircraft that started out high. We found 
efficiencies. We're getting it down to a reasonable range. I 
think it's the aircraft that the Nation needs for its Marine 
Corps.
    Senator Brown. With the major design of the JSF at least 
theoretically done today, we have no new fighters under 
development in this country. We also have no cargo aircraft 
under development and aside from the KC-46, no tankers under 
development. I don't know the last time that this was true.
    The F-22 and C-17 lines are getting ready to close and the 
F-15 line is at very minimal rates. I'm not sure if this is a 
natural consequence of the defense industry consolidations over 
the last decade or if it's a cyclical situation. To what extent 
does this development concern you, Admiral?
    Then, getting back to General Carlisle, does the Air Force 
have a notion of what minimum capabilities or surge capacities 
it would like maintained in the industry?
    Admiral Philman. Your point is exactly right, sir. Right 
now, with the JSF there is still work to be done. There is work 
for good engineers to have on that aircraft and other follow-on 
aircraft.
    The only follow-on aircraft programs that would fit our 
answer to your question are our unmanned systems. Right now, in 
the Navy we have the Navy Unmanned Carrier Demonstration, which 
is going to demonstrate flight, takeoff and recovery aboard an 
aircraft carrier, as well as some airborne tanking in and 
around the aircraft carrier.
    But then there's another concept called the Unmanned 
Carrier-Launched Air Strike System, which should be 
demonstrating around the 2018 timeframe. The mold line isn't 
defined just yet, whether it's a wing and tail design or if 
it's tailless, more of a flying chip, much like the B-2. We 
don't know that yet.
    But those kinds of designs and concepts, unmanned systems 
that will be complementary to our manned fighters, are good 
work to be done, and I think it's pretty exciting for the 
future of both naval and Air Force aviation.
    General Robling. You said it as a matter of consequence, 
and I don't think that's the case. I think all of us--, and I 
use the example of the Marine Corps, but this was a well 
thought out, methodical drawdown to minimum type-model-series, 
and getting right down to the end of the life of the aircraft 
that the Nation gave us. In our case, where we necked down to 
three type-model-series, to the JSF, using the initial JSF 
costs, we were going to save $1 billion a year in O&S costs by 
coming down to a single type-model-series for those.
    Timing is everything and our timing is bad now, at a time 
when our Nation's in fiscal austerity. I think we thought 
through this and now we're faced with this higher cost aircraft 
than we originally looked at and the cost is significantly 
higher than we thought it would be.
    Senator Brown. General Carlisle, in terms of the next-
generation bomber, what's the Air Force's role in defining the 
new long-range strike platform? Will this be a joint program, 
Air Force-led, or some other type of structure?
    General Carlisle. Sir, it's an Air Force program. We're 
working closely with the Office of the Secretary of Defense, 
and our goal in this program is affordability, and we're trying 
to drive that in at the outset. We're going to use existing 
technologies as we develop that airplane, so we're not going to 
put ourselves in too high of a technology expectation. Again, 
we'll continue to work with what currently is out there.
    Our intent on that program is again to develop that by the 
mid-2020s, to have the long-range strike platform that can 
either be manned or unmanned, will also have the ability to 
have a standoff weapon that will go with that, to again add 
more capability, and clearly it'll be a stealthy aircraft for 
the future.
    With respect to the industrial base, I think the next long-
range strike is a big part of that. The KC-46 is part of that. 
The JSF as it continues to mature is part of that as well. But 
the industrial base is important. We definitely believe that, 
sir.
    Senator Brown. Thank you, Mr. Chairman, for holding this 
hearing.
    Senator Lieberman. Thanks, Senator Brown.
    Thanks, gentlemen. I think we've had a good exchange. I 
appreciate the directness of your answers and your testimony. 
Thanks for what you're doing every day. It just says the 
obvious, that in these resource-constrained times, to speak 
more in normal language, economic difficulties, and increasing 
deficit-debt realities for the Federal Government, we're going 
to really be fighting for every dollar we can get.
    I noticed Secretary Gates made a statement yesterday, I 
think at Notre Dame at their commencement, that we have to be 
careful not to just come up with numbers out of the air that we 
use to cut our defense budget, because it's so critical to our 
constitutional responsibilities. On the other hand, in the 
position that the three of you are in it means that you are 
under greater pressure than ever to operate the programs that 
are in your responsibility areas effectively, and to squeeze 
out of the system as much waste as you possibly can.
    I appreciate some of the things you've done to get to where 
we are. Of course, then we have to make sure that the 
contractors produce really extraordinary programs like the JSF 
more quickly and hopefully at less inflation and expense.
    But I really thank you for the testimony. It's going to 
help us as we go forward to our markup for fiscal year 2012. 
We'll keep the record of the hearing open for a week for any 
additional questions or statements. With that and with thanks 
to Senator Brown, the hearing is adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                           fighter shortfall
    1. Senator McCaskill. Rear Admiral Philman, the Navy has been all 
over the map on the numbers that you have estimated for the fighter 
shortfall on U.S. carriers. Last year, Senator Hagan and I won 
inclusion of a provision to require the Navy to: (1) present the 
business case for stretching the Service Life Extension Program (SLEP) 
from 8,600 to 10,000 total service time for legacy Super Hornets; (2) 
explain why the Department of Defense (DOD) is reducing the Marine 
Corps squadron size from 12 to 10; and (3) explain why the Navy plans 
to take training planes and put them into the full-time force. Please 
comment on each of these requirements and what the Navy's latest view 
is on the shortfall and the cost of SLEP.
    Admiral Philman. In 2009, the Navy testified to a DON Strike 
Fighter Shortfall (SFS) of 146 aircraft. When factoring in the changes 
contained in the fiscal year 2011 President's budget, the SFS was 
updated to a peak DON Shortfall of 177 aircraft--primarily due to a 
flattening of the F-35 delivery ramp and the removal of the assumption 
that F/A-18 A-D aircraft would reach 10,000 flight hours, because 
funding for this effort was not in place. In early 2010, the Department 
of the Navy identified a number of management ``levers'' which, if 
implemented, would allow the U.S. Navy and Marine Corps to further 
mitigate the projected SFS. These actions included:  accelerating  the  
transition  of  five  legacy  USN  F/A-18C squadrons into F/A-18 E/F 
and transitioning two additional U.S. Navy F/A-18C squadrons into F/A-
18 E/F by using the remaining F/A-18 E/F attrition reserve aircraft. 
Additionally, funding was put in place to extend the life of 150 legacy 
Hornets out to 10,000 flight hours. With the application of these 
levers and funding initiative, the projected peak shortfall was reduced 
to an estimated 100 aircraft with a peak in 2018. A third management 
lever was identified which would have reduced the Navy Unit Deployment 
Program and Marine Corps Expeditionary F/A-18 A+/C/D squadrons from 12 
to 10 aircraft per squadron, thereby further reducing the overall 
shortfall. However, this lever has not been implemented, nor is there a 
current plan to do so.
    The DON's procurement objectives presented in the fiscal year 2012 
President's budget include the procurement of 41 additional F/A-18 E/F 
as a result of RMD-703. In fiscal year 2011, subsequent to the addition 
of the 41 additional aircraft, 9 additional OCO jets were added for a 
total Program of Record of 565. These 50 additional aircraft will allow 
the U.S. Navy to transition three more F/A-18C squadrons into F/A-18Es, 
further reducing the demand for legacy Hornets. Additionally, the DoN 
modified its transition plan into the F-35 to take advantage of service 
life remaining in the AV-8B fleet. With the additional Super Hornets, 
change in squadron transition timing, reduced legacy Hornet utilization 
rates, and funding to cover the Service Life Extension of 150 F/A-18 A-
D aircraft, the U.S. Navy was able to reduce the projected SFS to a 
peak value of 52 aircraft, occurring in 2018. The DON has indicated 
that this shortfall is manageable for a limited duration as forecast by 
our assessment.
    Section 114 of the National Defense Authorization Act for Fiscal 
Year 2011 directs the Secretary of the Navy to conduct a cost benefit 
analysis (CBA) and submit a report on that analysis to Congress. The 
Naval Air Systems Command (NAVAIR) has completed the CBA, comparing the 
service life extension of the F/A-18 A-D Legacy Hornet aircraft with 
procuring new F/A-18 E/F aircraft to mitigate the SFS. Subsequently, 
ASN(RDA) prepared the Report to Congress based on the CBA for signature 
by the Secretary of the Navy. The report was delivered to Congress on 
May 23, 2011. The purpose of the CBA was to identify the most cost 
effective solution for reducing the peak and duration of the SFS. The 
CBA indicates that the DON's plan to procure a total of 565 F/A-18 E/Fs 
and SLEP 150 F/A-18 A-D aircraft, as presented in the fiscal year 2012 
President's budget request, mitigates the shortfall to a manageable 
level and that the plan's ability to balance the strike fighter 
inventory requirement, within limited financial resources, is optimal.
    The Navy does not have a dedicated plan to remove ``training planes 
and put them into the full time force''. Commander, Naval Air Forces 
(CNAF) maintains control of Tactical Aircraft Inventory and manages 
aircraft assignments throughout U.S. Navy and Marine Corps fleet 
squadrons, including training and test aircraft. F/A-18s currently 
assigned to training squadrons are fleet representative aircraft, 
meaning most of the training aircraft have the same combat capability 
as those in the fleet. CNAF manages this inventory to meet current 
operational commitments and to optimize how aircraft service life is 
expended. Consequently, F/A-18 aircraft are routinely moved to support 
operational and training requirements based on current demand and to 
optimize fatigue life usage. The movement of aircraft does not 
compromise fleet capability nor does it result in any loss of training 
capacity at the Fleet Replacement Squadrons. Our ability to do this 
provides greater flexibility for aircraft inventory management.

              fiscal commission recommendations on f/a-18s
    2. Senator McCaskill. Rear Admiral Philman, the President's Fiscal 
Commission proposed to basically substitute F/A-18s and F-16s for about 
half of the Air Force's and Navy's planned buys of the F-35. They say 
this change could save about $9.5 billion. I have often noted we can 
get 80 percent of the F-35's capability for a fraction of the cost by 
buying the most advanced F/A-18 aircraft; something the Navy has 
largely acknowledged. Have you considered adopting the Fiscal 
Commission's option, and if not, why not?
    Admiral Philman. The Navy is recapitalizing the fleet with the JSF 
F-35C, delivering a true 5th generation strike aircraft combining 
stealth and enhanced sensors to provide lethal, survivable, and 
supportable tactical jet aviation strike fighters. The F-35C will 
complement the F/A-18 E/F, providing the most flexibility and striking 
capability while pacing the threat. The F-35 will provide a survivable 
``Day One'' strike capability in a denied access environment that 
cannot be accomplished by legacy aircraft.
    It can be misleading to compare current-year procurement costs of 
aircraft with very different capabilities, different quantity 
assumptions, and at different phases of the acquisition cycle (e.g. F/
A-18 E/F is nearing the end of production and F-35 is early in the 
production phase). The F-35 is designed to structurally meet an 8,000 
hour service life versus a 6,000 hour service life for the F/A-18 E/F, 
which will affect a life cycle cost comparison prorated for flying 
hours. Maintainability and obsolescence issues inevitably emerge as 
aircraft age, making it imperative we recapitalize our legacy fleet 
with a new generation of aircraft incorporating upfront factors such as 
commonality, maintainability and the benefits of interoperability.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
                        strike-fighter shortfall
    3. Senator Brown. Lieutenant General Carlisle and Rear Admiral 
Philman, in testimony before the committee last week on the Joint 
Strike Fighter (JSF) program, the Pentagon's chief independent cost 
estimator said that, having concluded an in-depth review of the strike-
fighter shortfalls projected by the Navy and the Air Force, the most 
recent shortfall projects are manageable. But, I would like your 
perspective. What is your current assessment of the strike-fighter 
shortfalls projected by your Service and of your Service's ability to 
manage that shortfall over the intermediate- and long-run?
    General Carlisle. A 2010 comprehensive review of Air Force current 
and projected force structure revealed a shortfall of approximately 3-5 
percent of total aircraft through the Future Years Defense Program 
(FYDP). This shortfall is manageable, and will be mitigated through 
aggressive management of F-35 production and legacy fleet sustainment, 
along with selected SLEP and modernization programs outside the FYDP.
    In order to mitigate mid- and long-term force structure risk, the 
fiscal year 2012 President's budget funds research, development, test, 
and evaluation (RDT&E) for capability modifications and SLEP for the F-
16 Block 40/42/50/52 fleet. Selected legacy SLEP of the most suitable 
F-16 Block 40s and 50s would add approximately 6-8 years to their 
anticipated service life and provides the most cost effective 
alternative to transition to a 5th generation capability. The Air Force 
also intends to accelerate the procurement of the F-15E AESA radar 
modernization program and continue the A-10C wing replacement program. 
The Air Force will continue to monitor and assess the fighter force 
structure and will remain flexible to pursue appropriate courses of 
action necessary to mitigate risk should the situation change.
    Admiral Philman. The DoN's procurement objectives presented in the 
fiscal year 2012 President's budget include the procurement of 41 
additional F/A-18E/F. In fiscal year 2011, subsequent to the addition 
of the 41 additional aircraft, 9 additional OCO jets were added for a 
total Program of Record of 565. These 50 additional aircraft will allow 
the U.S. Navy to transition 3 more F/A-18C squadrons into F/A-18Es, 
further reducing the demand for legacy Hornets. Additionally, the DoN 
modified its transition plan into the F-35 to take advantage of service 
life remaining in the AV-8B fleet. With the additional Super Hornets, 
change in squadron transition timing, reduced legacy Hornet utilization 
rates, and funding toward the Service Life Extension of 150 F/A-18 A-D 
aircraft, the U.S. Navy was able to reduce the projected SFS to a peak 
of 52 aircraft occurring in 2018. The DoN has indicated that this 
shortfall is manageable for a limited duration as forecast by our 
assessment.
    The DoN continues to meticulously manage the flight hours and 
fatigue life of our tactical aircraft. Since 2004, we have provided 
fleet users guidance to optimize aircraft utilization rates while 
maximizing training and operational opportunities. The F/A-18 A-D SLEP 
initial request is included in PB 2012. The program will extend the 
airframe life of approximately 150 aircraft from 8,600 to 10,000 flight 
hours. Current SFS estimates are based on 150 F/A-18 A-D aircraft being 
extended to 10,000 flight hours and without these service life 
extensions, the shortfall projections will increase in both magnitude 
and duration. Engineering analysis continues and as experience and 
knowledge is gained and more aircraft are inspected, the DoN will 
adjust the program schedule and cost estimates as required.

                      joint strike fighter future
    4. Senator Brown. General Robling, with regard to the Marine Corps' 
short-take off, vertical landing (STOVL) JSF, how confident are you 
that the current design, plus modifications we know about now, plus 
discovery to come, produce enough vertical lift to overcome the weight 
of the aircraft (plus weapons and fuel) to operate as planned?
    General Robling. Both the Commandant and I are very confident in 
the shared process to manage thrust-to-weight margin on the F-35B. We 
frequently engage on this topic with leadership at the Joint Program 
Office, Lockheed Martin and Pratt & Whitney-closely monitoring the 
progress of airframe and power plant maturity. Design and development 
maturation typically results in weight growth. Given the criticality of 
weight growth for the F-35, we have aggressively pursued the 
optimization of thrust, refinement of our concepts of flight operation, 
and are closely tracking component changes in order to ensure there is 
sufficient thrust margin for vertical lift capabilities of our F-35B. 
As it stands through June, we've seen vertical thrust-to-weight margins 
improve from a positive 115 pounds to 281 pounds over the past 5 
months. I am highly confident that our integrated leadership team can 
continue to manage weight related opportunities and risks, thereby 
preserving our thrust-to-weight margin needed to ensure operational 
success from both expeditionary airfields and amphibious big-deck 
ships.

    5. Senator Brown. Lieutenant General Carlisle, last year NAVAIR 
effectively determined that the Marine Corps' and the Navy's versions 
of the JSF may end up being too expensive to operate. Specifically, it 
found that, with each flight-hour possibly costing about $31,000 in 
2029, compared with about $19,000 per flight hour for current F/A-18 
Hornets and AV-8B Harriers, the operating cost associated with the 
Navy's versions of the JSF may be considerably higher than the costs to 
operate the legacy aircraft they are intended to replace. Has the Air 
Force reviewed and independently validated NAVAIR's analysis; and if 
so, do you agree with its findings on the expected operating costs of 
the JSF?
    General Carlisle. The Air Force has reviewed NAVAIR's analysis and 
determined that the operating costs for all three of the JSF variants 
are higher than originally estimated. Office of the Secretary of 
Defense (OSD) Cost Assessment and Program Evaluation also conducted an 
O&S cost estimate for JSF, and their estimate is consistent with the 
previous Air Force and Navy cost estimates. These estimates also 
demonstrated that the operating costs of the Air Force's F-35A 
conventional take-off and land variant will be less than the STOVL and 
Carrier Variant JSF variants. The Air Force is currently working with 
the other Services, the JSF Program Office, and the Prime Contractor 
Lockheed Martin, in an aggressive effort to review the JSF sustainment 
strategy in order to assess means to reduce total life cycle costs. By 
the end of the year this should result in recommendations to reduce 
costs.
    While the Air Force expects the operation costs for the F-35A fleet 
to be higher than the F-16 fleet it is intended to replace, the fifth 
generation capabilities of the JSF will allow our warfighters to 
operate and succeed in Anti-Access/Area Denied environments. The U.S.'s 
legacy fleet will not be able to successfully operate in these 
environments against tomorrow's advanced threats.

    6. Senator Brown. Lieutenant General Carlisle, what does that mean 
for the viability of the Air Force's JSF program and what kind of mix 
we can expect in terms of the Air Force's future strike-fighter force?
    General Carlisle. The Air Force remains firmly committed to the JSF 
program. The fifth generation capabilities of the F-35A will allow our 
warfighters to operate and succeed in Anti-Access/Area Denied 
environments. The U.S.'s legacy fleet will not be able to successfully 
operate in these environments against tomorrow's advanced threats. The 
F-35A, complemented by the F-22, will provide the Air Force a fleet of 
fifth generation fighters that will ensure the Air Force is able to 
achieve and maintain air dominance for the foreseeable future.

                     service life extension program
    7. Senator Brown. Lieutenant General Carlisle, last year, the Air 
Force undertook a tail-by-tail survey of the F-16 fleet to determine 
how much work might be needed to establish a SLEP to tide the F-16 
fleet over until the F-35 becomes available. Some reports say the 
results showed the F-16s were in better-than-expected condition. Last 
week, the Air Force's acquisitions chief, Mr. Van Buren, indicated that 
a SLEP was nonetheless a prospect. What did the Air Force find?
    General Carlisle. The Air Force regularly reviews force structure, 
utilizing information from sources such as the latest engineering data, 
fleet viability boards and ongoing and scheduled full-scale fatigue/
durability tests. Thus far, the Air Force has determined that it can 
sustain the F-16 Block 25-32 fleet to its certified service life 
utilizing existing operations and maintenance funds.
    However, the F-16 Block 40-52 fleet is a candidate for SLEP and 
modernization. In April of this year the Air Force contracted a full 
scale durability test for an F-16 Block 50 aircraft, the results of 
which will inform the SLEP. Additionally, the Air Force funded $15 
million for RDT&E activities for SLEP and modernization in fiscal year 
2012. The initial SLEP budgeting and decision was based on 300 
aircraft; however, the decision on SLEP quantity isn't required until 
calendar year 2014 and can be adjusted to respond to the latest fighter 
shortfall data. Finally, we expect to continually refine F-16 SLEP 
details, informed by force structure analyses and F-35A program 
performance.

    8. Senator Brown. Lieutenant General Carlisle, how big of a SLEP do 
you believe is required?
    General Carlisle. The initial SLEP budgeting and decision was based 
on 300 aircraft; however, the decision on SLEP quantity isn't required 
until calendar year 2014 and can be adjusted to respond to the latest 
fighter shortfall data. The Air Force performs regular comprehensive 
fighter force structure reviews that incorporate information from fleet 
viability boards, ongoing and scheduled full-scale durability tests and 
the latest actual aircraft engineering data; all of which will be 
utilized to refine the final SLEP quantity required.

                           aircraft industry
    9. Senator Brown. Lieutenant General Carlisle, with major design of 
the F-35 JSF done, today we have no new fighters under development in 
this country. We also have no cargo aircraft under development and, 
aside from the KC-46, no tankers under development. I don't know the 
last time that was true. The F-22 and C-17 lines are getting ready to 
close, and the F-15 line is at very minimal rates. Maybe this is the 
natural consequence of the defense industry consolidations of the last 
decade. And maybe it's just cyclical. To what extent does this 
development concern you?
    General Carlisle. The Air Force is very concerned about the current 
and projected state of the domestic industrial base, particularly with 
respect to its capabilities to support emerging Air Force requirements 
across all three Air Force domains--air, space, and cyber. Our pursuit 
of the new bomber program will alleviate some of those concerns. We 
recognize the current and projected fiscal environment will drive some 
very difficult budget choices. In that regard, it becomes even more 
critical for the Air Force to make data-driven investment decisions 
whether on research, engineering design and development, sustainment, 
or weapon systems upgrades. An example is the new bomber program where 
the Air Force is going to make informed, tough capability tradeoffs to 
hold costs down so the Air Force can procure a sufficient and 
sustainable inventory over the long term.
    The Air Force is working with OSD as it leads a sector-by sector, 
tier-by-tier review of the current network of the Department's 
suppliers. We expect this initial review, and subsequent updates, to 
provide all of the DOD with a shared view of how the industrial base 
segments interface to support each of our capabilities. With this 
knowledge of the industrial base, the Air Force will be better informed 
so that our investment decisions can preserve the critical domestic 
industrial base capabilities needed for the range of Air Force 
missions.

    10. Senator Brown. Lieutenant General Carlisle, does the Air Force 
have a notion of what minimum capabilities or surge capacity it would 
like maintained in industry?
    General Carlisle. In terms of minimum capabilities, some sectors of 
the industrial base quickly come to mind, such as aerospace engineering 
and design capabilities, while the impact of other areas on Air Force 
capabilities may be more subtle. As reported in the Quadrennial Defense 
Review (QDR), DOD recognizes that a hands-off approach to the 
industrial base is no longer viable. However, we do not yet have the 
knowledge base needed to inform a more active approach to shaping the 
industrial base. Following the QDR, the Air Force initiated several 
industrial base studies, specifically to evaluate the aircraft and 
munitions industrial bases. We expect the results of those studies to 
be complete later this year. The Air Force is also working with OSD to 
develop this knowledge through a sector-by-sector, tier-by-tier review 
of the industrial base. To fly, fight, and win in air, space, and 
cyberspace, the Air Force draws on the industrial base for a broad 
array of products and services that enable the Air Force to perform its 
Core Functions. Looking ahead to future investments, such as the Common 
Vertical Lift Support Program, the KC-46A, and the new bomber, the Air 
Force expects some of these to be provided solely through domestic 
industrial sources, some to be provided with the support of our allies, 
while the global commercial market will provide the balance. The Air 
Force expects the OSD-led review to help inform Air Force choices in 
this regard.

    11. Senator Brown. Lieutenant General Carlisle, do you have a plan 
for how to maintain that capacity?
    General Carlisle. The Air Force does not yet have the knowledge 
base needed to inform a more active approach to shaping or maintaining 
the industrial base. Each of the three Air Force domains--air, space, 
and cyber--has a discrete set of requirements which can be expressed in 
terms of industrial capacity. However, there are some common needs that 
cut across all three domains, such as the need for assured integrated 
circuits. As the Air Force works with OSD to develop a knowledge-based 
approach to our industrial base network of suppliers and better 
understands how that network matches up to current and planned 
capabilities, we will improve our ability to make definitive plans for 
shaping industrial capacity. The Air Force intent is to take that 
developing knowledge of industrial base suppliers, view it through the 
lens of Air Force requirements, and develop focused efforts to 
maintain, in sufficient capacity, those domestic industrial 
capabilities essential for the range of Air Force missions and future 
investments, such as the Common Vertical Lift Support Program, the KC-
46A, and the new bomber.

                       long-range strike platform
    12. Senator Brown. Lieutenant General Carlisle, what is the Air 
Force's role in defining the new long-range strike platform?
    General Carlisle. Secretary of Defense Gates arrived at a decision 
to move forward with the Long-Range Strike Bomber (LRS-B) based upon an 
extensive, department-wide review of an overall family of systems 
approach to long-range strike. He directed the Air Force to initiate 
the LRS-B program beginning in fiscal year 2012. As such, the Air Force 
is responsible for the LRS-B program.

    13. Senator Brown. Lieutenant General Carlisle, will this new long-
range strike platform be a joint program, Air Force-led, or some other 
structure?
    General Carlisle. Secretary of Defense Gates arrived at a decision 
to move forward with the LRS-B based upon an extensive, department-wide 
review of an overall family of systems approach to long-range strike. 
He directed the Air Force to initiate the LRS-B program beginning in 
fiscal year 2012. As such, the Air Force is solely responsible for the 
LRS-B program.

                  common vertical lift support program
    14. Senator Brown. Lieutenant General Carlisle, in this budget, the 
Air Force begins acquisition of a new support helicopter, the Common 
Vertical Lift Support Program (CVLSP), to replace its UH-1 Hueys, 
principally at the missile fields. The Air Force has just recently 
announced that it will buy these replacement helicopters competitively 
and has asked for money this year to acquire the first two helicopters. 
Since there is no money for development or testing, but money for 
procurement, is it safe to say you intend to buy a helicopter the 
military already operates?
    General Carlisle. The Air Force intends to purchase a Non-
Developmental Item/Off-The-Shelf (NDI/OTS) aircraft to accelerate 
fielding to the warfighter. Minimal RDT&E funding is required for 
operational test and evaluation to validate aircraft performance 
against key performance parameters. To clarify, there is RDT&E funding 
for CVLSP in the fiscal year 2012 President's budget FYDP, specifically 
$4.0 million in fiscal year 2011, $5.365 million in fiscal year 2012, 
$7.44 million in fiscal year 2013, and $8.934 million in fiscal year 
2014.

    15. Senator Brown. Lieutenant General Carlisle, since we just took 
10 years to buy a tanker, do you believe you can develop a requirement, 
run a competition, select a winner, and buy the first helicopters all 
in 1 year?
    General Carlisle. Yes. Since, we intend to purchase a NDI/OTS 
aircraft; we are confident that we can conduct a source selection and 
award a contract on schedule.

    16. Senator Brown. Lieutenant General Carlisle, won't buying off-
the-shelf, as reflected by the absence of development or testing money 
sought for this program, limit the possible competitors?
    General Carlisle. Yes. The need to field a platform that meets the 
warfighter's requirements and target Initial Operational Capability of 
fiscal year 2015 will limit the potential CVLSP competitors to those 
that have already developed a helicopter that can meet the user's needs 
with little or no modifications, i.e. a non-developmental, off-the-
shelf solution. But market research and industry responses to requests 
for information indicate there are several potential competitors.

    17. Senator Brown. Lieutenant General Carlisle, how will you know 
you're getting the right aircraft?
    General Carlisle. We will conduct a full and open competition that 
will evaluate the capabilities of each offeror's platform based on the 
warfighters' requirements.

    18. Senator Brown. Lieutenant General Carlisle, earlier this year, 
Secretary of the Air Force Donley testified that the Air Force is 
looking to address the CVLSP requirement and the longstanding need to 
replace our combat search-and-rescue helicopters with a common 
aircraft. But the requirements for range, speed, and payload would seem 
to be rather different between moving a squad around a domestic missile 
field and penetrating enemy territory. How do you reconcile those 
missions into a single airframe, especially given the timeline this 
budget establishes for procurement?
    General Carlisle. The Air Force continued to examine many options 
in the process of deciding on the acquisition strategy for the HH-60 
Recapitalization and CVLSP programs, including the potential merits of 
combining the program requirements and/or source selections. After 
reviewing these options, we have recently decided to keep the 
acquisition programs separate.

                               corrosion
    19. Senator Brown. Lieutenant General Carlisle, a recent report on 
corrosion specific to the F-22 Raptor and F-35 JSF programs calls for 
focus in the areas of corrosion and material degradation early in the 
lifecycle of major weapons programs as a way to keep the costs of 
operating and maintaining those weapons systems attributable to 
corrosion down. Corrosion has been found to be a major problem with the 
F-22. What lessons has the Air Force learned from the corrosion report 
and its specific experience with the F-22?
    General Carlisle. The lessons learned from the corrosion report and 
its specific experience with the F-22 led the Air Force to initiate a 
comprehensive revitalization of systems engineering processes and 
systems engineering tools that consider corrosion prevention early in 
the life cycle of a weapon system. Focusing on the areas of corrosion 
and material degradation early in the life cycle of major weapon 
systems also includes reliance on the legacy corrosion prevention 
practices, environmental testing, and aircraft basing. Aircraft are 
being closely monitored in the aggressive corrosion environments until 
mitigation solutions can be validated. The Air Force continues to 
improve test and evaluation plans to ensure they address corrosion, 
environmental severity and duration throughout testing.
    Additionally, the Air Force activated the Air Force Corrosion 
Control and Prevention Executive (AFCCPE) to oversee, coordinate, and 
implement efforts to address corrosion control and prevention efforts. 
The AFCCPE will ensure corrosion and prevention efforts are contained 
in the Air Force's policy, advocate for resources, evaluate program 
effectiveness supporting the DOD-level efforts.
    Our goal is to ensure a comprehensive Air Force level corrosion 
control and prevention program exists throughout the entire life cycle 
of the weapon system.

    20. Senator Brown. Lieutenant General Carlisle, will the Air Force 
develop test and evaluation plans that adequately address corrosion, 
environmental severity, and duration?
    General Carlisle. Yes, the Air Force continues to improve test and 
evaluation plans to ensure they adequately address corrosion, 
environmental severity, and duration and we are actively incorporating 
lessons learned from the F-22/F-35 Corrosion Evaluation Report.
    For example, the F-35 is undergoing rigorous corrosion testing. We 
have been testing coupon samples of F-35 materials in a variety of 
harsh climates including maritime exposure for several years now. 
Additionally, we have been flight testing corrosion properties of F-35 
materials on Navy F-18 aircraft. The F-35 will be tested in the Eglin 
Air Force Base Climatic Lab under conditions ranging from tropical rain 
and humidity to harsh winter cold. Finally, the F-35 will be built with 
corrosion sensors to monitor the effectiveness of the F-35's preventive 
corrosion control maintenance and inspection requirements.
    Programmatically, the F-35 program has taken actions to improve F-
35 corrosion control life cycle management. The F-22/F-35 report 
identified several areas of concern with systems engineering and life 
cycle costs. The AFCCPE will oversee, coordinate, and implement efforts 
to address all of these areas through the Air Force Corrosion 
Prevention Advisory Board and the Integrated Life Cycle Management 
Executive Forum governance structure, Air Force's top level life cycle 
management authority. Our goal is to ensure that comprehensive Air 
Force-level corrosion-related policy and guidance is integrated and 
enforced throughout the entire life cycle of a weapon system.
    Corrosion control collaboration and integration efforts across the 
Air Force are at an all time high and continue to gain momentum. We 
will continue to emphasize and develop strategies and processes for 
preventing and controlling corrosion.

    21. Senator Brown. Lieutenant General Carlisle, how has the Air 
Force integrated these lessons learned into its newer acquisition 
programs, in particular, the F-35 JSF?
    General Carlisle. The F-35 adopted the corrosion lessons learned 
from the F-22 in the areas of conductive gap filler and paint by 
launching several mitigation actions to deal with the risk, such as: 
(1) using a gap filler that is less galvanically dissimilar from 
aluminum; (2) developing an alternative to the conductive paint; (3) 
employing fewer seams that require gap filler; and (4) conducting 
additional and more representative verification and qualification 
tests. Organizational changes include integration of the signature and 
corrosion materials and processes functional areas to help ensure 
program success.
    The F-35 drainage design is significantly improved over that of the 
F-22. Drain holes are more adequately sized and complete drain paths 
were analyzed to account for and prevent fluid entrapment.
    The F-35 program adopted more rigorous corrosion testing and pushed 
for a more maintainable design even before corrosion problems surfaced 
on previous programs such as the F-22. In addition, the F-35 and F-22 
programs established mechanisms to share information, keeping the F-35 
program appraised of potential problems. As a result, the overall 
awareness of corrosion issues on the F-35 program is higher than that 
of the F-22 program at the same point in development.
    The F-35 has several technical performance metrics that are driving 
a more supportable and maintainable design for corrosion control. One 
of these, sortie generation rate, is a key performance parameter for 
the program. Furthermore, the joint DOD requirements drove a more 
resilient corrosion design for the F-35. That design stemmed largely 
from the Navy's corrosion qualification tests, which are more severe 
than those used by the Air Force and driven by a more aggressive 
operating environment.

    22. Senator Brown. Lieutenant General Carlisle, has the F-35 
Corrosion Prevention and Control Plan been updated with lessons learned 
from corrosion prevention and control for the F-22 Raptor aircraft?
    General Carlisle. Yes, the F-35 program has incorporated corrosion 
control lessons learned from the F-22 program into the F-35 Corrosion 
Prevention and Control Plan. Although F-35 structural and low 
observable coatings are greatly different from those used on the F-22, 
the F-35 materials are receiving extensive corrosion testing. F-35 
materials are being coupon tested in a variety of environments to 
include the most severe maritime climates. Additionally, F-35 materials 
are being flown on surrogate aircraft to test material durability. 
Finally, F-35 will include a series of sensors to help predict and 
manage F-35 corrosion control inspections and preventative maintenance.

                           f-22 raptor glitch
    23. Senator Brown. Lieutenant General Carlisle, a few weeks ago, 
the Air Force stopped flying all of its F-22 Raptor aircraft 
indefinitely over concerns about a possible glitch in the onboard 
oxygen generation system. I understand that this stand-down is still in 
effect. What is the current status of the Air Force's investigation 
into the root causes of this problem and its attempts to remedy it?
    General Carlisle. On 7 Jan 2011, Gen. William M. Fraser III, 
Commander, Air Combat Command (COMACC), convened a Class E Safety 
Investigation Board (SIB) to explore on-board oxygen generation systems 
(OBOGS) in the A-10, F-15E, F-16, F-22, F-35 and T-6 aircraft. The SIB 
was initiated after concerns were raised about the F-22 OBOGS as a 
potential factor in the crash of an F-22 from Elmendorf Air Force Base 
on 16 Nov 10, which killed the pilot.
    On 3 May 11, Gen. Fraser directed a fleet-wide stand-down of the F-
22 as a prudent safety measure due to recent reports of potential 
oxygen system malfunctions in that aircraft. At this time, there is no 
intent to direct a stand-down of any other Air Force aircraft.
    On 16 May 11, Secretary of the Air Force Michael Donley directed 
the Chief of Staff of the Air Force to convene a Broad Area Review 
(BAR) to investigate ongoing safety issues involving aircraft oxygen 
generation systems. Subsequently, the SecAF redirected this effort on 7 
Jun 11 to convene under the auspices of the Air Force Scientific 
Advisory Board (SAB). Specifically, Secretary Donley directed the SAB 
Chair to conduct a ``quick-look'' study building on and expanding the 
efforts of the Hypoxia Deep Dive Integrated Product Team and 7 Jan 11 
COMACC-convened Class E SIB exploring OBOGS.
    The SAB quick-look study is authorized and encouraged to consult 
with appropriate Air Force and DOD subject matter experts, other 
government agencies, and civilian aerospace industry partners to 
identify suspected deficient areas in the fleet of OBOGS-equipped 
aircraft and associated aircrew flight equipment. The SAB will focus 
its efforts on the F-22 aircraft, but is authorized to expand and 
include F-16, A-10, F-15E, B-1, B-2, CV-22, T-6, F-35, and other 
aircraft as appropriate.
    In late June 2011, the COMACC Convened Class E SIB stood down after 
briefing the SAB quick-look study. At the same time, a AF/SE Convened 
Class E SIB stood up to continue the efforts of the previous SIB. 
Presently, there are two primary investigative efforts in progress, the 
SAB and the SIB. The AF/SE SIB is charged with finding the root 
cause(s) of the F-22 incidents and developing a return to fly regimen 
for an eventual resumption of flying operations.

    24. Senator Brown. Lieutenant General Carlisle, do you have a sense 
of how much longer the stand-down will remain in effect?
    General Carlisle. The timeline for the current stand-down is 
undetermined. The safety of our aircrews is paramount, so the current 
stand-down and Air Force SAB ``quick look'' study are prudent steps to 
ensure all potential technical, causal, and contributory factors have 
been fully considered and that all appropriate steps are being taken to 
enhance flight safety.
    The current stand-down only affects the daily training operations 
of the F-22 fleet. The F-22 is ready to accomplish any directed 
missions in support of national security. Furthermore, F-22 crews will 
maintain proficiency through simulator and ground training events.
    A releasable report will be provided to the Secretary of the Air 
Force when the ``quick look'' study is completed and vetted through the 
full membership of the SAB.

    25. Senator Brown. Lieutenant General Carlisle, I understand that 
the F-35 JSF had a similar glitch, resulting in a pilot complaining of 
light-headedness. What is being done, if anything, to ensure that the 
same problem doesn't become more widespread on the JSF?
    General Carlisle. As reported in a congressional inquiry from May 
of this year, the AF replied that a F-35 did experience a physiological 
event at Pax River in mid-April that is still under investigation. This 
incident is thought to be from carbon monoxide, as the OBOGS does not 
scrub carbon monoxide off well at very low inlet pressures. We 
established some ground exhaust limitations, until the investigation is 
completed and solutions are approved.
    The F-35 incident happened during the ground handling of the 
aircraft as opposed to the F-22 event that was a flight related 
incident that prompted the stand-down of the fleet. At this time, the 
F-35 program office does not see any commonality in the potential 
causal factors that the F-22 program has investigated. The F-35 program 
office will carefully track the progress of ongoing Air Force 
investigations and studies, and will apply any applicable findings and 
recommendations to the F-35 systems.
    In addition to a detailed safety investigation, the Air Force has 
also tasked its SAB to conduct a quick-look study. The SAB is 
authorized and encouraged to consult with appropriate Air Force and DOD 
subject matter experts, other government agencies, and civilian 
aerospace industry partners to identify suspected deficient areas in 
the fleet of on-board oxygen generation systems-equipped aircraft and 
associated aircrew flight equipment. The SAB will focus its efforts on 
the F-22 aircraft, but is authorized to expand and include F-16, A-10, 
F-15E, B-1, B-2, CV-22, T-6, F-35, and other aircraft as appropriate.
    The results of the Air Force SAB's investigation will be forwarded 
to F-35 program office to determine if any of the investigation results 
apply to systems in the F-35.

                    f-22 raptor sustainment strategy
    26. Senator Brown. Lieutenant General Carlisle, what is the 
sustainment strategy for the F-22 program going forward and, in 
particular, to what extent will that strategy use competition, or the 
option of competition, to drive down costs?
    General Carlisle. The sustainment strategy going forward is to 
transition to a joint contractor/government support integration team. 
This transition will occur as the program implements the plan based on 
the findings of the 2009 F-22 Sustainment Business Case Analysis. The 
plan was approved by the Secretary of the Air Force in 2010 and is 
currently being implemented. The projected net savings is more than $1 
billion over the life of the F-22. Additionally, the F-22 program 
office has ongoing efforts to assess opportunities to compete elements 
of F-22 sustainment work. FASTeR is a 10-year (2008 through 2017) 
Performance Based Logistics business arrangement with LMA. Annual 
FASTeR contract awards will implement the transition to a joint 
contractor/government support integration team.

    [Whereupon, at 3:52 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
